This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




                     REPORT OF INVESTIGATION 

 UNITED STATES SECURITIES AND EXCHANGE COMMISSION 

            OFFICE OF INSPECTOR GENERAL 



                                       Case No. OIG-522 



 Investigation of the Circumstances Surrounding the SEC’s Proposed 

 Settlements with Bank of America, Including a Review of the Court’s 

Rejection of the SEC’s First Proposed Settlement and an Analysis of the 

       Impact of Bank of America’s Status as a TARP Recipient 



                                      September 30, 2010 

       REDACTION KEY


LE =	 Law Enforcement/
      Interference with Enforcement Proceedings
      Protected by FOIA Exemption (b)(7)(A)

LEP = Law Enforcement Policy
      Protected by FOIA Exemption (b)(2)

DP = 	 Deliberative Process Privilege
       Protected by FOIA Exemption (b)(5)

AC = 	 Attorney-Client Privilege
       Protected by FOIA Exemption (b)(5)

WP = 	 Attorney Work-Product Privilege
       Protected by FOIA Exemption (b)(5)

PII =	 Personal Identifying Information
       Protected by FOIA Exemptions (b)(6) & (b)(7)(C)
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                                                  Table of Contents
Introduction and Background ............................................................................................. 1
 
Scope of Investigation......................................................................................................... 3
 
Relevant Regulations and Rules ......................................................................................... 5
 
Executive Summary ............................................................................................................ 6
 
Results of the Investigation............................................................................................... 14
 
I.	  ENFORCEMENT INVESTIGATION OF THE BOFA/MERRILL MERGER 

     AND FIRST SETTLEMENT .................................................................................... 14
 
      A.	  NYRO Enforcement Staff Felt They Needed to Bring the BofA Case 

           Quickly ............................................................................................................... 15
 
      B.	  NYRO Enforcement Staff Decided to Charge the Company, but Not 

           Individuals .......................................................................................................... 17
 
      C.	  Enforcement Decided to Bring Only One of the Potential Claims Against 

           BofA ................................................................................................................... 19
 
II.	  ENFORCEMENT’S FIRST PROPOSED SETTLEMENT AND THE 

      COURT’S OPINION................................................................................................. 21
 
      A.	  The Court’s Order Raised Questions About the Fairness of the 

           Settlement and Whether Enforcement Departed from its Usual Policy ............. 23
 
               1.	  By Not Naming Individuals in the First Proposed Settlement, the 

                    SEC Departed from its Normal Policy...................................................... 24
 
               2.	  NYRO Enforcement Initially Analyzed Potential Individual 

                    Liability Unaware that Exchange Act Section 14(a) Applied .................. 25
 
      B.	  The Proposed Settlement Would Have Imposed an Injunction Against 

           BofA While the Company Continued to Deny Wrongdoing ............................. 33
 
      C.	  The Court Found the Proposed Penalty Amount Too Low ................................ 34
 
III.  THE FIRST PROPOSED SETTLEMENT HIGHLIGHTED FLAWS IN THE 

      SEC’S PROCESS FOR GRANTING WAIVERS .................................................... 38
 
      A.	  BofA Raised the Issue of Collateral Consequences of an Antifraud 

           Injunction During Settlement Negotiations ........................................................ 38
 
      B.	  Under SEC Practice, WKSI and Safe Harbor Waiver Requests Were 

           Denied When the Fraud at Issue Was Related to the Issuer’s Own 

           Disclosures ......................................................................................................... 39
 
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

     C.	  Corporation Finance Initially Opposed Granting BofA’s Waiver 

          Requests.............................................................................................................. 40
 
     D.	  Despite Corporation Finance’s Objections, Enforcement Recommended 

          that the Commission Accept a Settlement with BofA that was Contingent 

          upon Regulatory Waivers ................................................................................... 43
 
             1.	  The Commission and Corporation Finance Disfavored Contingent 

                  Settlement Recommendations ................................................................... 46
 
             2.	  The Contingency of the Settlement Was Not Disclosed in the 

                  Action Memorandum to the Commission ................................................. 48
 
     E.	  After Meeting with BofA on the Morning of the Commission Meeting, 

          Corporation Finance Decided to no Longer Oppose BofA’s Request for a 

          WKSI Waiver ..................................................................................................... 49
 
             1.	  Corporation Finance Considered BofA’s TARP Status in Making 

                  Its Final WKSI Recommendation ............................................................. 51
 
             2.	  Corporation Finance May Have Been Concerned the Commission 

                  Would Grant BofA a WKSI Waiver Even if Corporation Finance 

                  Opposed It................................................................................................. 53
 
     F.	  The Lack of Clarity and Consistency in Waiver Determinations Was a 

          Concern DP, AC, WP                              ........................................... 54
 
     G.	  Recommendations for Improved Commission Waiver Practice ........................ 56
 
IV.  ENFORCEMENT REACHED SECOND SETTLEMENT WITH BOFA ................ 57
 
     A.	  The Second Team Worked Both to Litigate and Settle the Case ....................... 58
 
             1.	  The Second Team Conducted Extensive Discovery and Added a 

                  New Charge Under Exchange Act Section 14(a) ..................................... 58
 
             2.	  The Second Team Brought a Second Case Based on Failure to 

                  Disclose Fourth Quarter Losses Suffered by Merrill ................................ 60
 
             3.	  The Second Team Focused Intently On Charging Individuals ................. 61
 
V.	  THE SECOND SETTLEMENT AND THE COURT’S SECOND OPINION ......... 64
 
     A.	  The Proposed Settlement Would Have Imposed an Injunction on BofA 

          While the Company Continued to Deny Any Wrongdoing ............................... 65
 
     B.	  The Court Again Expressed Concern that the Proposed Penalty Amount 

          Was Too Low ..................................................................................................... 68
 
     C.	  The Court Expressed Continued Concern that no Individuals Were 

          Charged............................................................................................................... 70
 

                                                                ii
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

VI.  AGENCY COOPERATION IN THE BOFA INVESTIGATION ............................. 71
 
     A.	  Multiple Law Enforcement Agencies Were Involved in the BofA

          Investigation ....................................................................................................... 72
 
     B.	  Law Enforcement Agencies Varied in their Level of Coordination with 

          the SEC............................................................................................................... 73
 
             1.	  The United States Attorney’s Offices Coordinated with the SEC ............ 73
 
             2.	  The NYAG Declined to Coordinate Fully with the SEC .......................... 73
 
     C.	  Lack of Complete Coordination Did Not Materially Affect the SEC’s 

          Decision Not to Charge Individuals ................................................................... 79
 
     D.	  SIGTARP Coordinated Closely with the NYAG ............................................... 81
 
     E.	  The NYAG Rejected Joining the SEC’s Settlement with BofA ........................ 84
 
     F.	  The SEC Viewed the Evidence Against Individuals Differently from

          Other Law Enforcement Agencies ..................................................................... 84
 
     G.	  Increased Coordination and Cooperation Among Agencies Would Have 

          More Efficiently Utilized Government Resources ............................................. 85
 
VII. CONFLICTS OF INTEREST IN THE ENFORCEMENT ACTION 

     AGAINST BOFA AND OTHER POTENTIAL TARP RECIPIENTS ..................... 87
 
     A.	  BofA Received TARP Funds Prior to the SEC’s Enforcement Action.............. 88
 
             1.	  Enforcement Actions May Harm a Firm’s Viability and Threaten 

                  Systemic Risk to the Financial Industry ................................................... 89
 
             2.	  The Fines Levied Would Essentially Be Paid With Taxpayer Funds ....... 91
 
             3.	  The Fines Would Harm the Shareholder Investment in the Firm, 

                  When the Shareholder is the U.S. Taxpayer ............................................. 92
 
             4.	  The SEC Cannot Investigate Federal Reserve or Treasury Officials 

                  Who May Have Had Substantial Roles in the Alleged Wrongdoing........ 93
 
     B.	  Enforcement Developed a TARP Policy to Provide Guidance on Seeking 

          Civil Penalties from TARP Recipients, Including BofA.................................... 94
 
Conclusion and Recommendations ................................................................................... 98
 




                                                               iii
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




                                REPORT OF INVESTIGATION 


         UNITED STATES SECURITIES AND EXCHANGE COMMISSION 

                    OFFICE OF INSPECTOR GENERAL


                                         Case No. OIG-522 


  Investigation of the Circumstances Surrounding the SEC’s Proposed Settlements 

  with Bank of America, Including a Review of the Court’s Rejection of the SEC’s 

   First Proposed Settlement and an Analysis of the Impact of Bank of America’s 

                             Status as a TARP Recipient



                                  Introduction and Background


        On August 6, 2009, the Honorable Elijah E. Cummings, Member of Congress,
U.S. House of Representatives (D-Maryland), sent a letter to the Securities and Exchange
Commission (“SEC” or the “Commission”) Office of Inspector General (“OIG”) and to
the Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) regarding the SEC’s proposed $33 million settlement with Bank of
America (“BofA”), for false and misleading statements made in connection with its
merger with Merrill Lynch & Co. (“Merrill”), filed in U.S. federal court on August 3,
2009. August 6, 2009 letter from the Honorable Elijah E. Cummings to SIGTARP and
OIG, attached hereto as Exhibit 1. Specifically, Congressman Cummings referenced an
attached August 4, 2009 Washington Post article that raised the following conflict of
interest issues that could potentially arise from SEC Division of Enforcement
(“Enforcement”) actions against entities who, like BofA, were in receipt of Troubled
Asset Relief Program (“TARP”) funds:

        (1) the enforcement action may harm the firm’s viability, and threaten systemic
            risk to the financial industry;

        (2) the fines levied would essentially be paid with taxpayer funds;

        (3) the fines would harm the shareholder investment in the firm, when the
            shareholder is the U.S. taxpayer; and

        (4) the role played by Federal Reserve or Treasury officials in the actions upon
            which fines were issued may have been significant to the occurrence of the
            violation but cannot be investigated by the SEC.

Id. Congressman Cummings asked the OIG and SIGTARP, respectively, to “investigate
the extent to which the enumerated scenarios above existed in the case of SEC v. Bank of
America, as well as the potential for future instances of the above conflicts . . . .” Id. at p.
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

2. In response to Congressman Cummings, this office opened an official investigation on
August 6, 2009 and, on August 20, 2009, the OIG and SIGTARP responded to
Congressman Cummings by letter, stating that because SIGTARP and the SEC were still
jointly investigating the circumstances of BofA’s merger with Merrill, “independence
questions could arise if SIGTARP were to lead or participate in a review of [the] SEC’s
settlement with Bank of America. . . . Accordingly, the [SEC OIG] will conduct the
investigation outlined in your request.” August 20, 2009 letter from SIGTARP and the
OIG to the Honorable Elijah E. Cummings, attached hereto as Exhibit 2.

        To stabilize the financial system and encourage banks to resume lending in the
wake of the recent global financial crisis, Congress enacted the Emergency Economic
Stabilization Act of 2008 (“EESA”). EESA established the TARP, which provided the
United States Department of the Treasury with the power to purchase hundreds of
billions of dollars in illiquid assets from banks and other financial institutions and to take
other measures to bolster lending and unfreeze the credit markets. EESA also established
SIGTARP to conduct, supervise and coordinate audits and investigations of the purchase,
management and sale of assets under TARP.

         TARP recipients included BofA. In September 2008, as a major financial
institution - Lehman Brothers - was collapsing, Merrill looked to be acquired by a
commercial bank. On September 15, 2008, BofA and Merrill signed a merger agreement,
and on November 3, 2008, BofA and Merrill filed a definitive joint proxy statement
soliciting the votes of shareholders for approval of the merger transaction. The merger
agreement stated that, except as set forth in its disclosure schedule, Merrill could not pay
discretionary bonuses to its employees or executives without BofA’s consent. However,
there was no disclosure of the contents of the disclosure schedule in the merger
agreement or elsewhere in the proxy statement. BofA did not disclose to its shareholders
that it had agreed to allow Merrill to pay up to $5.8 billion in discretionary bonuses.
BofA also did not disclose that it was aware, prior to the December 5, 2008 vote on the
merger, that Merrill had net losses of $7 billion in October and November 2008. On
January 16, 2009, after the merger had been approved, BofA reported that Merrill had
sustained a net loss of $15.3 billion and that BofA had obtained $20 billion in TARP
funds to assist in the acquisition. On the next trading day, BofA’s stock price fell by
nearly 30 percent.

         After Merrill’s losses were disclosed, several state and federal law enforcement
agencies – including the SEC, the Department of Justice, the New York Attorney General
(“NYAG”) and SIGTARP – investigated the circumstances of the merger. On July 30,
2009, the Commission authorized Enforcement to file an action against BofA for failure
to disclose the agreement authorizing Merrill to pay up to $5.8 billion in discretionary
year-end bonuses. At the same time, the Commission also approved the general terms of
Enforcement’s recommended settlement with BofA. On August 3, 2009, the SEC
formally reached a proposed settlement with BofA, the terms of which were: (1) entry of
a final judgment permanently enjoining the company from violating Section 14(a) of the
Securities Exchange Act of 1934 (“Exchange Act”); and (2) a civil monetary penalty
against the company in the amount of $33 million.
                                                    2

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        Subsequent to opening its investigation, the OIG learned that the Honorable Jed S.
Rakoff, United States District Judge for the Southern District of New York, rejected the
Commission’s proposed settlement with BofA on September 14, 2009. Shortly after
Judge Rakoff rejected the settlement, Senior Counsel from the United States Senate
Committee on Banking, Housing and Urban Affairs contacted the Inspector General and
asked if the OIG’s investigation of this matter would include the circumstances
surrounding the decision by Judge Rakoff to reject the settlement, including analysis of
whether Enforcement had vigorously and appropriately enforced the securities laws in its
investigation of BofA that led to the settlement rejected by Judge Rakoff. Based upon
this discussion, the OIG expanded the scope of its investigation to analyze the
circumstances surrounding the settlement rejected by Judge Rakoff.

        On February 4, 2010, the SEC and BofA submitted a revised proposed settlement,
which Judge Rakoff ultimately approved on February 22, 2010. The second settlement
included a civil monetary penalty of $150 million, specific remedial undertakings that
BofA was required to implement and maintain for three years, and a Statement of Facts
prepared by the Enforcement staff and agreed to by BofA describing the details behind
the SEC’s allegations. Pursuant to subsequent conversations with the Congressional
officials, the OIG further expanded its investigation to include an analysis of the
circumstances surrounding the revised settlement to determine whether the charging
decisions in each instance were made appropriately.

                                       Scope of Investigation

        In its investigation of the circumstances surrounding the two BofA settlements
and potential conflicts of interest, the OIG obtained and reviewed over 500,000 e-mails
and numerous supporting attachments from over 15 employees in five different offices
and divisions within the SEC. The OIG also reviewed numerous supporting materials
including, but not limited to: (1) drafts and final versions of internal memoranda to the
Commission recommending an enforcement action against BofA; (2) pleadings filed and
judicial orders issued in the BofA litigation; (3) drafts and final versions of internal
policy memoranda, including an internal policy memorandum to the Commission
establishing an Enforcement policy for seeking civil penalties against TARP recipients;
(4) the transcript of Judge Rakoff’s August 10, 2009 hearing on whether he should
approve the SEC’s first proposed settlement with BofA; and (5) numerous press articles
about both SEC settlements with BofA. In addition, the OIG also took on-the-record,
under-oath testimony from the following 18 SEC employees:
                CF Supv 1
        (1)                                                             Division of
                 Corporation Finance (“Corporation Finance” or “Corp Fin”) on April 27,
                 2010, excerpted portions of which are attached hereto as Exhibit 3;

        (2) 	    Paula Dubberly, Deputy Director for Policy and Capital Markets,
                 Corporation Finance on April 28, 2010, excerpted portions of which are
                 attached hereto as Exhibit 4;

                                                    3

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                CF Atty 1
        (3) 
                                                                                  ,
                  Corporation Finance May 6, 2010;
                 CF Atty 2
        (4)
                  Corporation Finance on May 7, 2010, excerpted portions of which are
                  attached hereto as Exhibit 5;

        (5)	      Richard Levine, Associate General Counsel for Legal Policy, Office of
                  General Counsel on May 24, 2010, excerpted portions of which are
                  attached hereto as Exhibit 6;
                 IM Supv 1
        (6)

                  Management on May 25, 2010;
                 ENF Supv 2
        (7)

                  Enforcement on May 25, 2010, excerpted portions of which are attached
                  hereto as Exhibit 7;
                 ENF Supv 1	
        (8)                                            New York Regional Office
                  (“NYRO”), Enforcement on June 2, 2010, excerpted portions of which are
                  attached hereto as Exhibit 8;
                 ENF Supv 5
        (9)
                                                        NYRO, Enforcement on 

                  June 2, 2010, excerpted portions of which are attached hereto as Exhibit 9; 

                 ENF Atty 4	
        (10)                                                              , Enforcement on
                  June 3, 2010, excerpted portions of which are attached hereto as Exhibit
                  10;
                 ENF Atty 3
        (11)                                      NYRO, Enforcement on July 1, 2010,
                  excerpted portions of which are attached hereto as Exhibit 11;
                 ENF Atty 2	
        (12)                                                     NYRO, Enforcement on
                  July 1, 2010, excerpted portions of which are attached hereto as Exhibit
                  12;

        (13)	     David Rosenfeld, Associate Regional Director, NYRO, Enforcement on
                  July 1, 2010, excerpted portions of which are attached hereto as Exhibit
                  13;

        (14)	     George Canellos, Regional Director, NYRO on July 2, 2010, excerpted
                  portions of which are attached hereto as Exhibit 14;
                 ENF Atty 1	
        (15)                                                  NYRO, Enforcement on July
                  15, 2010, excerpted portions of which are attached hereto as Exhibit 15;

                                                    4

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                ENF Supv 4	
        (16)                                                    , NYRO, Enforcement on
                 July 29, 2010, excerpted portions of which are attached hereto as Exhibit
                 16;
                ENF Supv 3
        (17)                                                   NYRO, Enforcement on
                 July 30, 2010, excerpted portions of which are attached hereto as Exhibit
                 17; and

        (18)	    Robert Khuzami, Director, Enforcement on August 13, 2010, excerpted
                 portions of which are attached hereto as Exhibit 18.

In addition to the above, the OIG took the under-oath testimony of a former BofA
employee on March 9, 2010. The OIG also took the under-oath testimony of Neil
Barofsky, Special Inspector General for the Troubled Asset Relief Program, on August 4,
2010, excerpted portions of which have been deemed confidential (See Exhibit 19).
Finally, the OIG submitted written questions to the NYAG, and received written
responses on August 13, 2010, which are attached hereto as Exhibit 20.

                                 Relevant Regulations and Rules

        The SEC’s Enforcement staff is obligated to continuously and diligently
investigate instances of securities fraud, as set forth in the Commission’s Canon of Ethics
(the “Canon”) and the Standards of Ethical Conduct for Employees of the Executive
Branch (“Standards of Ethical Conduct”) in the Code of Federal Regulations. The
“Policy” provision of the Canon recognizes that “[i]t is characteristic of the
administrative process that the Members of the Commission and their place in public
opinion are affected by the advice and conduct of the staff, particularly the professional
and executive employees.” 17 C.F.R. § 200.51. Thus, “[i]t shall be the policy of the
Commission to require that employees bear in mind the principles specified in the
Canons.” Id. The “Preamble” of the Canon sets forth the serious duty placed upon
members of the Commission and its staff, as follows:

                 Members of the Securities and Exchange Commission are
                 entrusted by various enactments of the Congress with
                 powers and duties of great social and economic
                 significance to the American people. It is their task to
                 regulate varied aspects of the American economy, within
                 the limits prescribed by Congress, to insure that our private
                 enterprise system serves the welfare of all citizens. Their
                 success in this endeavor is a bulwark against possible
                 abuses and injustice which, if left unchecked, might
                 jeopardize the strength of our economic institutions.

17 C.F.R. § 200.53. The Canon provides further that: “In administering the law,
members of this Commission should vigorously enforce compliance with the law by all
persons affected thereby. . . . In the exercise of their judicial functions, members shall …
                                                    5

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

impartially determine the rights of all persons under the law. 17 C.F.R. § 200.55
(emphasis added). Similarly, the Standards of Ethical Conduct state that: “Employees
shall act impartially and not give preferential treatment to any private organization or
individual.” 5 C.F.R. § 2635.101. Finally, the Canon requires the maintenance of
independence and the rejection of any impressions of influence: “A member should not,
by his conduct, permit the impression to prevail that any person can improperly influence
him, that any person unduly enjoys his favor or that he is affected in any way by the
rank, position, prestige, or affluence of any person.” 17 C.F.R. § 200.61 (emphasis
added).

                                        Executive Summary

        On August 6, 2009, the Honorable Elijah E. Cummings, Member of Congress,
U.S. House of Representatives (D-Maryland) requested that the SEC OIG and SIGTARP
investigate possible conflict of interest issues that may have arisen from the SEC’s
Enforcement action against BofA, which had culminated in a $33 million proposed
settlement, for false and misleading statements made in connection with its merger with
Merrill. Congressman Cummings identified the fact that BofA was in receipt of TARP
funds and sought an investigation of whether the following conflict of interest issues
arose in connection with the SEC investigation of BofA and, if so, their impact on the
investigation:

        (1) the enforcement action may harm the firm’s viability, and threaten systemic
            risk to the financial industry;

        (2) the fines levied would essentially be paid with taxpayer funds;

        (3) the fines would harm the shareholder investment in the firm, when the
            shareholder is the U.S. taxpayer; and

        (4) the role played by Federal Reserve or Treasury officials in the actions upon
            which fines were issued may have been significant to the occurrence of the
            violation but cannot be investigated by the SEC.

That same day, the OIG opened an official investigation.

        On September 14, 2009, the OIG learned that the Honorable Jed S. Rakoff,
United States District Judge for the Southern District of New York, rejected the
Commission’s proposed settlement with BofA. Shortly after the Court rejected the
settlement, Senior Counsel from the United States Senate Committee on Banking,
Housing and Urban Affairs contacted the Inspector General and asked if the OIG’s
investigation of this matter would include the circumstances surrounding the decision by
the Court to reject the settlement, including an analysis of whether Enforcement had
vigorously and appropriately enforced the securities laws in its investigation of BofA.
Based upon this discussion, the OIG expanded the scope of its investigation to analyze
the circumstances surrounding the settlement.
                                                    6

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

       On February 4, 2010, the SEC and BofA submitted a revised proposed settlement,
which Judge Rakoff approved on February 22, 2010. The second settlement included a
civil monetary penalty of $150 million, specific remedial undertakings that BofA was
required to maintain for three years, and a mutually agreed-upon Statement of Facts,
describing the details behind the SEC’s allegations. Pursuant to subsequent
conversations with Congressional officials, the OIG further expanded its investigation to
include an analysis of the circumstances surrounding the revised settlement to determine
whether the charging decisions in each instance were made appropriately.

        The OIG investigation analyzed the SEC Enforcement actions against BofA,
including the first proposed settlement and its rejection by the Court; the second proposed
settlement and its acceptance by the Court; and the role, if any, BofA’s status as a TARP
recipient played in the SEC’s investigation, charging decisions and settlement
discussions.

        Overall, the OIG found that despite the Court’s rejection of the SEC’s first
proposed settlement with BofA, the evidence did not show that SEC staff failed to
diligently and zealously investigate potential securities law violations. The Enforcement
attorneys who worked on both proposed settlements ably operated under considerable
time constraints to investigate and bring actions against BofA for violations of securities
laws in connection with the Merrill merger. The OIG’s investigation chronicles the
decisions made by both Enforcement teams for “lessons learned” and informational
purposes and describes how the second Enforcement team’s strategic determinations and
clear understanding of the statutory basis for individual liability led to a settlement
accepted by the Court.

        The OIG also did not find evidence of the improper conflicts of interest that
formed the basis of the August 6, 2009 Congressional letter to the OIG and SIGTARP
requesting this investigation. The OIG did find that, when deciding whether to impose a
civil penalty against TARP recipients, Enforcement’s policy is to consider the TARP
status of a proposed defendant or respondent as one of many factors to be considered.
Additionally, the OIG found that BofA’s status as a TARP recipient had an impact on the
favorable settlement the staff first recommended to the Commission.

        In summary, the OIG found that in or around January 2009, the SEC New York
Regional Office Enforcement staff began its investigation of the circumstances
surrounding BofA’s approximately $50 billion acquisition of Merrill on January 1, 2009.
The Enforcement staff began investigating allegedly false and misleading statements
made by BofA in a November 3, 2008 joint proxy statement filed in connection with the
merger. The initial investigation involved a disclosure schedule detailing an agreement
to pay up to $5.8 billion – nearly 12% of the total consideration to be exchanged in the
merger – in discretionary year-end bonuses to Merrill executives for 2008. The
disclosure schedule was omitted from the proxy statement and its contents not disclosed
before the shareholders’ vote on the merger on December 5, 2008. The staff also began
investigating an alleged failure by BofA to disclose, prior to the December 5, 2008
shareholder meeting, extraordinary fourth quarter losses that Merrill sustained in October
                                                    7

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

and November 2008. We found that the decision was made to bring an action solely on
the issue of BofA’s failure to disclose the agreement to pay the year-end bonuses to
company executives, at least partially, on the staff’s perceived need to bring the
Enforcement case against BofA quickly. The OIG found the Enforcement staff felt
pressure to bring a case against BofA promptly because of the internal interest in the case
and its high-profile nature. There was also initial skepticism on the part of senior
Enforcement officials with regard to the viability of an action regarding the failure to
disclose the extraordinary fourth quarter losses.

         On August 3, 2009, the SEC announced in a press release that it had “charged
Bank of America Corporation for misleading investors about billions of dollars in
bonuses that were being paid to Merrill Lynch & Co. executives at the time of its
acquisition of the firm.” Also according to the press release, “Bank of America agreed to
settle the SEC’s charges and pay a penalty of $33 million.” The press release noted that
“as Merrill was on the brink of bankruptcy and posting record losses, Bank of America
agreed to allow Merrill to pay its executives billions of dollars in bonuses. Shareholders
were not told about this agreement at the time they voted on the merger.” The press
release stated further that the settlement was “subject to court approval.”

        The OIG investigation found that as the SEC and BofA negotiated settlement
terms, attorneys representing BofA raised the issue of potential collateral consequences
were it to agree to a settlement that included an injunction against future violations of the
antifraud provisions of the federal securities laws. The potential collateral consequences
for BofA included losing its status as a Well-Known Seasoned Issuer (“WKSI”) and its
safe harbor for forward-looking statements. WKSI status allows an issuer to use
advantageous procedures in the registration and offering of securities, including allowing
the issuer to file an automatic shelf registration statement with the SEC. The safe harbor
provisions of Section 27A(c) of the Securities Act of 1933 (“Securities Act”) and Section
21E(c) of the Exchange Act afford limited protection from liability or penalty for certain
issuers who make forward-looking statements that turn out to be false, provided that
certain statutory criteria are met.

        The Commission has the power to waive certain collateral consequences of an
antifraud injunction, including the statutory disqualification from WKSI status and from
the safe harbor for forward-looking statements. Prior to entry of the first proposed
settlement, BofA requested that the Commission grant it waivers from both WKSI and
safe harbor disqualification. The waiver most important to BofA involved its status as a
WKSI filer. However, the alleged violation of the proxy solicitation rules was directly
related to BofA’s own disclosures, according to the CF Supv 1
         in Corporation Finance who was tasked with deciding WKSI waiver requests,
and therefore, BofA did not meet the “traditional criteria” for granting a WKSI waiver.

       Initially, Corporation Finance officials took the position that under the SEC’s
standard criteria, BofA should not receive a WKSI waiver. Corporation Finance also
objected to the fact that the proposed settlement was conditioned on the granting of the
WKSI waiver, noting that the previous Commission had been “strongly against being
                                                    8

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

presented with contingent settlement offers.” Corporation Finance also explained its own
opposition to conditioning settlements on granting waivers in that the waiver becomes a
bargaining chip that can be negotiated away and thus, the impact of the collateral
consequences of the antifraud provision may be eroded.

        The OIG investigation found that up until the morning of the July 30, 2009
Closed Commission Meeting that was to consider the proposed settlement, it appeared
that Corporation Finance would continue to deny BofA’s request for the WKSI waiver.
However, at a meeting with BofA and Enforcement that morning, BofA officials
convinced Corporation Finance to alter its view of BofA’s WKSI waiver request. In this
meeting, BofA argued that the dire state of the financial markets made it critical that it be
able to raise money quickly. Corporation Finance noted that although BofA did not meet
the “traditional criteria” for a WKSI waiver, it decided not to oppose the waiver because
of “deference given to the fact that BofA was a TARP recipient” and because “it would
not be in the interest of the market or investors to prevent them from getting to the market
as quickly as their competitors.”

         Thus, the OIG found that the traditional criteria for determining WKSI waiver
requests were not applied to BofA. Corporation Finance agreed to recommend that BofA
receive a conditional WKSI waiver based upon its TARP status, and the related concern
that in the economic environment denying BofA a WKSI waiver could have had an
adverse impact on BofA and the entire market. The OIG found this departure from
general SEC practice noteworthy, although BofA never actually received the waiver
because the Court rejected the proposed settlement.

        After the SEC filed the proposed settled action in the U.S. District Court for the
Southern District of New York, the Honorable Jed S. Rakoff, United States District
Judge, held a hearing during which the SEC and BofA presented arguments supporting
the proposed settlement. On September 14, 2009, the Court issued a Memorandum Order
rejecting the SEC’s proposed settlement with BofA, stating,

                 the parties’ submissions, when carefully read, leave the
                 distinct impression that the proposed Consent Judgment
                 was a contrivance designed to provide the S.E.C. with the
                 facade of enforcement and the management of the Bank
                 with a quick resolution of an embarrassing inquiry – all at
                 the expense of the sole alleged victims, the shareholders.
                 Even under the most deferential review, this proposed
                 Consent Judgment cannot remotely be called fair. Nor is
                 the proposed Consent Judgment reasonable.

        Judge Rakoff further opined in his Memorandum Order that the SEC’s normal
policy was to bring actions against individuals who are responsible for securities law
violations as well as the responsible issuers. The OIG investigation found that
Enforcement looked at this issue after Judge Rakoff rejected the proposed settlement. In
putting together a list of cases where individuals were not named but corporations were
                                                    9

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                                                        DP, WP, LE
  required to pay a civil penalty, the SEC found
DP, WP, LE                                                                                   According
  to the research performed,     DP, WP, LE

DP, WP, LE




           The OIG investigation found that the BofA case, however, differed from the other
  cases where individuals were not named – notably because there was no rule change or
  other intervening event that made a case against individuals more difficult. Further, the
  OIG found that when considering whether to name individuals in its first proposed settled
  action against BofA, members of the Enforcement team were unaware that individuals
  could directly violate Exchange Act Section 14(a) and Exchange Act Rule 14a-9, and as a
  result, the team was left to consider whether the individuals in this case could be sued
  successfully under Exchange Act Section 10(b) and Exchange Act Rule 10b – as either
  direct violators or as aiders and abettors. The team then considered whether the
  individuals in the case possessed the requisite intent for a successful 10(b)/10b-5 case
  when a 14(a)/14a-9 case potentially could have been made with a lower showing of intent
  (“negligence” as opposed to “scienter”).

          With Section 10(b)/Rule 10b-5 the only avenue available, the team decided that
  the evidentiary hurdle, and resulting litigation risk, were simply too high to pursue
  individuals. The misperception of this higher evidentiary hurdle may have been a reason
  that the OIG found no evidence of any substantive or significant analysis of the question
  of whether to charge individuals in connection with the first proposed settlement on the
  BofA case until after the proposed settlement was filed with the Court.

          In contrast to the approach of the first Enforcement team, the second Enforcement
  team revisited the issue of the appropriateness of naming individuals and engaged in a
  very substantive and thorough analysis of whether a viable legal theory existed for
  pursuing individuals. The second team did not appear confused about whether
  individuals could be charged as direct violators of Exchange Act Section 14(a) and
  Exchange Act Rule 14a-9, acknowledging that the SEC has historically charged
  individuals for direct violations of these statutes. Even after this substantive analysis,
  however, the second Enforcement team concluded that there were insufficient legal and
  factual bases to charge individuals.

          In addition, after the Court rejected the SEC’s first proposed settlement, the
  second Enforcement team conducted extensive discovery, added a new claim to
  strengthen its litigation position and focused at great length on developing the facts
  necessary to file a second case alleging a failure by Merrill to disclose the fourth quarter
  losses. In January 2010, the Commission filed the fourth quarter losses action as a
  related case to the bonuses action charging Bank of America with violating Section 14(a)
  and Rule 14a-9 by failing to disclose, prior to the December 5 shareholder meeting, the
  “extraordinary losses” that Merrill sustained in October and November 2008. This
  additional case was critical to the second proposed settlement with BofA because it
                                                     10 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

 created (along with the Court’s rejection of the first proposed settlement) the leverage
 necessary to demand a larger civil monetary penalty from BofA and enhanced the
 prospect for a Fair Fund distribution to injured investors.

         A second issue that Judge Rakoff identified was that the SEC sought the standard
 “obey-the-law” injunction in which a defendant neither admits nor denies the SEC’s
 allegations of wrongdoing. According to Judge Rakoff, the SEC’s “obey-the-law”
 injunction was an ineffective remedy because BofA maintained that it violated no federal
 securities laws by issuing the joint proxy statement with Merrill. Because the company
 believed it engaged in lawful conduct the first time, according to Judge Rakoff, the Court
 would be unable to hold BofA in contempt for engaging in similar conduct in the future.

         The OIG investigation found that “obey-the-law” injunctions, in which a
 defendant neither admits nor denies wrongdoing, were often sought by Enforcement for
 settled actions in federal court. DP, LE
DP, LE




DP, LE
        The second Enforcement team worked with Corporation Finance to craft remedial
 measures that would provide a level of prophylactic relief against future misconduct that
 an injunction could not. These measures, known as “undertakings,” were designed to
 remedy the alleged underlying violations and to create safeguards in the areas where
 BofA was deficient to avoid a recurrence of the problem. In addition, these undertakings
 had the additional effect of allowing the proposed settlement to proceed without
 triggering the WKSI provisions that were a source of considerable discussion during the
 Commission’s approval of the first proposed settlement.

         A third major concern expressed by Judge Rakoff in his September 14, 2009
 Memorandum Order was the recommended civil penalty of $33 million against only the
 company. According to Judge Rakoff, the $33 million was a “trivial penalty for a false
 statement that materially infected a multi-billion-dollar merger and thus, would be
 imposed not on the individuals putatively responsible, but on the shareholders, thus
 further victimizing the victims.”

          The OIG investigated the methodology that Enforcement used to arrive at the
 original $33 million figure and found that members of the first BofA investigative team
 relied substantially on case precedent in arriving at the $33 million civil penalty figure
 that the Court rejected. We note that the Division’s own Enforcement Manual provides,
 “If the Division agrees to make a specific enforcement recommendation to the
 Commission, the staff should consider the settlement terms of other similar cases to
 identify prior precedent involving similar alleged misconduct.” In contrast, the OIG
 found that the second Enforcement team was not as constrained by precedent, and used
 leverage provided by adding the fourth quarter losses action and the Court’s rejection of
 the first proposed settlement to reach a substantially higher penalty figure of $150
 million.

                                                    11 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        The OIG investigation also found that at the time that the SEC began
investigating issues related to the merger between BofA and Merrill, several other law
enforcement agencies were conducting related investigations. These law enforcement
agencies included the United States Attorney’s Offices for the Southern District of New
York and the Western District of North Carolina, the NYAG and SIGTARP.

        The United States Attorney’s Offices and the SEC made significant efforts to
coordinate their investigations. Attempts between the SEC and the NYAG to coordinate
the BofA investigation were less successful. In contrast to the collaborative relationship
between the SEC and the United States Attorney’s Office for the Southern District of
New York, the OIG investigation found that there has historically been tension in the
relationship between the SEC and the NYAG. SEC attorneys expressed that the NYAG
has had a history of undermining the SEC in order to upstage them, such as by racing to
file charges before the SEC in cases in which they have agreed to work together and by
making statements to the press about ongoing investigations.

        Prior to investigating the merger between Merrill and BofA, the SEC and the
NYAG had been coordinating an investigation involving Merrill. However, according to
SEC attorneys, once the NYAG learned that the SEC was coordinating its investigation
with the United States Attorney’s Office for the Southern District of New York, the
NYAG would no longer coordinate with the SEC and “cut [them] off” from their
investigation. SEC lawyers expressed the view that, although the NYAG provided some
cooperation with the SEC during the BofA investigation, the NYAG failed to cooperate
fully. According to SEC attorneys, the NYAG refused to share information and to
provide certain witness transcripts requested by the SEC prior to the SEC’s first and
second proposed settlements. The NYAG explained why certain transcripts were not
provided to the SEC in connection with the BofA investigation, noting that they were
“concerned about the impact partial disclosure could have on [their] litigation . . . [as well
as] on [their] ongoing investigations of other individuals.”

        The NYAG’s refusal to produce witness transcripts to the SEC meant that the
SEC did not obtain testimony for certain witnesses. Because the Court had limited the
number of depositions that the SEC could take, the SEC could not always remedy the
NYAG’s refusal to produce transcripts by deposing the same witness. Consequently, in
making its charging decisions, there were certain witnesses whose testimony the SEC
was not able to obtain, requiring the staff to rely instead on attorney proffers that were
considered “not as good as a transcript.” There also were concerns expressed about the
SEC not sharing information with the NYAG. The NYAG stated that the “office
requested copies of certain investigative materials from the SEC,” but “did not receive
investigative materials from the SEC in this case.” A staff attorney on the investigation
denied that the SEC did anything to precipitate the type of treatment it received from the
NYAG, stating the SEC made significant efforts to cooperate with the NYAG. However,
SEC staffers did acknowledge that they did not “discuss the facts that [they] had
uncovered” with the NYAG and their distrust of the NYAG kept them from speaking to
the NYAG “in confidence about [their] investigative plans.”

                                                   12 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        The OIG’s investigation also found that SIGTARP was closely aligned with the
NYAG and, therefore, was limited in the information it could share with the SEC. As a
result, SEC attorneys on the BofA investigation did express some frustration about
SIGTARP’s decision not to share information among law enforcement agencies and,
furthermore, the OIG’s investigation found that concerns over SIGTARP sharing SEC
investigative findings with the NYAG also kept the SEC from coordinating more fully
with SIGTARP.

        In or around January 2010, the Director of Enforcement and the Regional Director
of NYRO communicated with the NYAG about a potential global settlement in which the
SEC and the NYAG would jointly announce a settlement with BofA. However,
according to an SEC trial attorney, the NYAG rejected the idea of a global settlement
largely because the SEC’s settlement did not include a charge against individuals.

        On February 4, 2010, the SEC and BofA submitted a revised proposed settlement,
which the Court ultimately approved on February 22, 2010. The second settlement
included a civil monetary penalty of $150 million, specific remedial undertakings that
BofA was required to maintain for three years, and a Fair Fund distribution to harmed
“legacy” BofA shareholders. The SEC’s settlement did not include any charges against
individuals. On February 4, 2010, the NYAG and SIGTARP also announced that the
NYAG had filed charges against BofA and two of its executives, “Kenneth Lewis and
Joe Price for violations of the Martin Act, the Executive Law and common law . . .
[following] a year-long investigation.”

        The SEC attorneys involved in the investigation asserted that if the NYAG had
cooperated fully and produced all of the requested transcripts, the SEC still would not
have charged individuals at BofA. The SEC attorneys expressed that they were able to
ascertain what evidence the NYAG had developed and did not feel that the NYAG was in
possession of facts that would have led the SEC to charge individuals. However, the OIG
found that greater coordination and collaboration among law enforcement agencies would
have more efficiently utilized governmental resources and sped up the investigation by
reducing duplication of witness interviews and other investigative efforts.

        The OIG did not find that any SEC employee engaged in improper conduct during
the BofA investigation and two proposed settlements. The OIG is, however, making
recommendations in two areas. First, with respect to the WKSI waiver process, the OIG
is recommending that the Division of Corporation Finance: (1) create clear criteria for
making waiver determinations; (2) disseminate the guidance both internally and
externally; and (3) in cases where the waiver decision departs from the stated criteria,
articulate in a written decision or order the rationale for its departure.

        Second, to improve coordination issues identified in the OIG’s investigation, the
OIG is making additional recommendations that the Division of Enforcement: (1)
continue the efforts undertaken by NYRO’s Regional Director to increase cooperation
and coordination among law enforcement agencies; (2) as part of these efforts, review the
level of coordination and cooperation on current investigations and assess where
                                                   13 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

improved coordination would conserve government resources; (3) in the early planning
stages of investigations, assess whether other law enforcement agencies are already
participating in, or should be made aware of, the subject investigation; and (4) encourage
staff, where appropriate, to establish and maintain effective communication with those
who are assisting in investigations and to inform supervisory personnel when they are not
receiving cooperation.

                                    Results of the Investigation

I.	          ENFORCEMENT INVESTIGATION OF THE BOFA/MERRILL MERGER
             AND FIRST SETTLEMENT

           In or around January 2009, NYRO Enforcement staff began its investigation of
the circumstances surrounding BofA’s approximately $50 billion acquisition of Merrill
on January 1, 2009. At the time of this investigation and resulting first settlement, the
NYRO Enforcement team consisted of: (1)
ENF Atty 1
                         (2)ENF Supv 3
              ENF Supv 4
           (3)                                              and (4) Associate Regional
                                                        ENF Supv 4
Director David Rosenfeld (“first team”). According to               the investigation of the
merger:

                 [S]prang out of [an] earlier investigation that we’d opened
                 previously, which was titled “In the matter of the Merrill
                 Lynch Subprime Portfolio.” That was triggered by an
                 announcement, I believe, in October of 2007 . . . The Bank
                 of America piece of that larger matter I think began in
                 earnest for us the end of January. A lot of us, we were
                 aware of the merger, we were cognizant of the merger
                 when it was announced[.] [The] specific issues that we
                 wound up investigating – we first started looking into
                 sometime in January, probably the latter part of January,
                 the 16th.

            Testimony Tr. at pgs. 18-20. 1 NYRO Enforcement staff began investigating,
ENF Supv 4


among other things, allegedly false and misleading statements made by BofA in a
November 3, 2008 joint proxy statement filed in connection with the merger. See
Commission Action Memorandum titled In the Matter of Merrill Lynch & Co., Inc.
Subprime Mortgage Portfolio (NY-7842), dated July 20, 2009, attached hereto as Exhibit
21, at p. 1 (“Summary” Section). According to Enforcement staff, BofA and Merrill had
agreed not to pay year-end performance bonuses or other discretionary incentive
1
  In addition to NYRO Enforcement, several other law enforcement agencies conducted investigations of
BofA and its January 2009 acquisition of Merrill, including the U.S. Attorney’s Office for the Southern
District of New York, U.S. Attorney’s Office for the Western District of North Carolina, SIGTARP and the
NYAG. The investigative relationship between NYRO Enforcement staff and other investigatory agencies,
specifically SIGTARP and the NYAG, during the BofA investigation will be discussed later in this report.

                                                   14 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

 compensation to its executives prior to the closing of the merger without BofA’s consent.
 Id. However, the staff alleged that the exact opposite had occurred as BofA had agreed
 that, notwithstanding this provision of the merger agreement, Merrill could pay up to $5.8
 billion – nearly 12% of the total consideration to be exchanged in the merger – in
 discretionary year-end bonuses to Merrill executives for 2008. Id. The staff alleged
 further that the disclosure schedule detailing this bonus agreement was omitted from the
 proxy statement and its contents were never disclosed before the shareholders’ vote on
 the merger on December 5, 2008. Id.

          Enforcement staff also began investigating an alleged failure by BofA to disclose,
 prior to a December 5, 2008 shareholder meeting, extraordinary losses that Merrill
 sustained in October and November 2008 – BofA’s fourth quarter and, at the time of the
 first settlement, were “continuing to investigate issues arising from Merrill’s large losses
 in the fourth quarter of 2008 . . . .” Id. at p. 2. However, as will be discussed below, a
 decision was made to bring an action solely against BofA and, initially, only on the issue
 of BofA’s failure to disclose an agreement allowing Merrill to grant significant year-end
 bonuses to company executives. On July 30, 2009, the Commission approved
 Enforcement’s recommended settlement with BofA, subject to certain unique conditions
 to be discussed later in this report. On August 3, 2009, the SEC reached a proposed
 settlement with BofA, the terms of which were: (1) an injunction against the company
 from violating Section 14(a) of the Exchange Act and Exchange Act Rule 14a-9
 thereunder; and (2) a civil monetary penalty against the company in the amount of $33
 million. See generally August 3, 2009 SEC Press Release titled SEC Charges Bank of
 America for Failing to Disclose Merrill Bonus Payments, attached hereto as Exhibit 22.

         A.	      NYRO Enforcement Staff Felt They Needed to Bring the BofA Case
                  Quickly

           The OIG has found that, throughout the course of its investigation leading up to
  the first proposed settlement with BofA, NYRO Enforcement staff felt that the case
  against BofA needed to be brought quickly. This was a factor in the staff’s ultimate
  decision to bring a settled action against BofA solely for its failure to disclose an
  agreement allowing Merrill to grant year-end executive bonuses. NYRO Enforcement
  staff universally acknowledged the need to bring the case quickly; for example,
ENF Atty 1
                             stated, “I think [Enforcement Director] Rob Khuzami was very
  much interested in the case. The Chairman was interested in the case.” ENF Atty 1
  Testimony Tr. at p. 36. ENF Atty 1          then stated that, “Rob [Khuzami] was very much
  interested in moving this along, making sure we have the evidence.” Id. at p. 38.
  Consistent with ENF Atty 1           understanding, Khuzami acknowledged to the OIG that
  “there would be a value to have the SEC bring an action like [this] against Bank of
  America.” Khuzami Testimony Tr. at p. 111.
                               ENF Supv   ENF Supv 4                          ENF Supv
         In an e-mail from 3      to            dated May 7, 2009, 3       attempted to
 coordinate schedules with the attorneys from the Southern District of New York for
 witness testimony, and stated, “I told the [Southern District] that we would prefer [May]
 13th [for testimony] due to internal pressures here to get this wrapped up asap.” May 7,
                                                       15 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                      ENF Supv   ENF Supv 4
2009 e-mail from 3         to            attached hereto as Exhibit 23. During her
           ENF Supv
testimony, 3        described the need to bring the BofA case quickly in the following
exchange:

                 Q: 	       And the source of the pressure, was it from the
                            immediate supervision or was it from higher up . . .

                 A: 	       Yes. From the pressures above, all above. 

                            Everyone wants to make sure that they’re doing 

                            what we are asked to do and do our job. And I 

                            think there [were] also a lot of problems that cases 

                            were dragging on too long. We just need to get the 

                            work done. 

ENF Supv                            ENF Supv 4
3      Testimony Tr. at p. 24.                   felt similarly, stating his belief that outside
interest in the case also was a factor:

                 [T]here was a lot of interest in the country at large in this
                 merger, and I think the [C]hairman was getting letters from
                 Congressman Kucinich and a lot of folks were weighing in
                 regularly. And I think it was communicated to us that we
                 should act with all dispatch to determine whether there’s a
                 case here. And if so, to bring it as expeditious[ly] as
                 possible. That’s generally how we operate and generally
                 what folks up the chain wanted. I think all the public
                 attention that the merger was getting certainly heightened
                 [the need to bring the case quickly].
ENF Supv 4
          Testimony Tr. at p. 63. Although NYRO Enforcement staff felt that, due to 

the high-profile nature of the case and the level of public interest surrounding it, it was 

important to bring the matter quickly, the staff also realized that it was important that it
be brought correctly. According to ENF
                                     
 Atty 1
     :

                 Q:         To you, your sense of the office, this is a high
                            priority matter?

                 A:         Yes. The answer is yes. This was both an
                            investigative phase and a litigation phase. The
                            message that I walked away with was this was a
                            very important case and had to be very well
                            handled and very well thought out and done in
                            the best possible way.
ENF Atty 1
                Testimony Tr. at p. 37 (emphasis added).



                                                    16 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

         The OIG has found that Enforcement staff’s perceived need to bring the case
quickly was a factor in Enforcement’s ultimate decision to bring only the bonus
disclosure portion of the case for settlement in August 2009. As this report will discuss,
NYRO Enforcement’s focus on bringing its case quickly may also have affected the
staff’s research of relevant case law leading up to the first proposed settlement with
BofA, which ultimately was rejected by Judge Rakoff.

        B.	       NYRO Enforcement Staff Decided to Charge the Company, but Not
                  Individuals

       Following its investigation of BofA, NYRO Enforcement staff decided to charge
only BofA with violating Exchange Act Section 14(a) and Exchange Act Rule 14a-9
thereunder. According to the staff’s July 20, 2009 Action Memorandum to the
Commission:
              DP, AC, WP, LE




Exhibit 21 at p. 8. The staff’s Action Memorandum made no mention, however, of
whether individuals could or should have been charged with the same violations of
Exchange Act Section 14(a) and Exchange Act Rule 14a-9 thereunder. Instead, the entire
discussion regarding charging individuals, which was relegated to a footnote, focused
solely on whether individuals should have been charged with violations of Exchange Act
Section 10(b) and Exchange Act Rule 10b-5 thereunder:
                DP, AC, WP, LE




                                                   17 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
                  DP, AC, WP, LE




Id. at p. 7, n. 5. When asked why the Action Memorandum made no mention of charging
                                              ENF Supv
individuals under Exchange Act Section 14(a), 3        assumed it was an oversight:

                   Q: 	        That’s fine. I was just curious about Footnote 5,
                               discussing whether not to charge individuals, and
                               refers to Section 10[(b)] of the [Exchange Act] . . .
                               saying DP, AC, WP, LE
                              DP, AC, WP, LE




                   A:          	Right.

                   Q: 	        And I guess I’m curious about 14[(a)] and14 [a-9]
                               and the possibility of charging individual[s]. Is that
                               something that was considered –

                   A: 	        It was –

                   Q: 	            – in this memo?

                   A: 	        It was definitely considered. It was obviously not
                               stated Footnote 5, but I can’t tell you why.

                   Q:          	Okay.

                   A: 	        I don’t know if it was just an oversight, which I
                               assume it was. I don’t think it was anything more.
ENF Supv
3          Testimony Tr. at p. 77.

        Other witnesses responded similarly that Exchange Act Section 14(a) and
Exchange Act Rule 14a-9 were considered when determining whether to charge
individuals in the case. The OIG, however, after a thorough review of all relevant
documents and e-mails, has found no evidence that any research was performed, or
memorandum written, on the issue prior to Enforcement staff’s recommendation to the
Commission on July 30, 2009. There is no indication in the documentary record that
substantive research was performed on this issue prior to the first proposed settlement.
There is substantial evidence that research on this issue was performed after the proposed
settlement was held up by Judge Rakoff, and while NYRO Enforcement staff was
working on a submission to the judge in support of the first proposed settlement. It is
certainly possible and perhaps even likely that the focus on bringing the case quickly
contributed to the fact that this research was not done sooner.



                                                     18 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        Overall, when considering whether to charge individuals with violations of
Exchange Act Section 14(a) and Exchange Act Rule 14a-9 thereunder, the OIG has found
that NYRO Enforcement staff, while claiming to have considered the issue, provided no
discussion of it in its Action Memorandum to the Commission. Enforcement staff chose
instead to discuss in a footnote whether an action should have been brought against
individuals under Exchange Act Section 10(b) and Exchange Act Rule 10b-5 thereunder,
                                                                    2
and concluded that the DP, AC, LE

         The OIG also found that certain members of NYRO Enforcement’s first team
believed at the time of the first proposed settlement that only issuers could violate
Exchange Act Section 14(a) and Exchange Act Rule 14a-9 thereunder when, in fact, this
was not the case. As will be discussed in greater detail below, this confusion may have
caused the team to restrict its analysis to Exchange Act Section 10(b), which requires
actual knowledge (or, at a minimum, recklessness) as opposed to Exchange Act Section
14(a), which requires simple negligence. This, along with other factors discussed
previously, could explain not only the absence of an Exchange Act Section 14(a)
discussion in the Action Memorandum to the Commission regarding potential individual
liability, but also NYRO Enforcement staff’s apparent difficulty with charging
individuals in the first proposed settlement.

        C.	      Enforcement Decided to Bring Only One of the Potential Claims
                 Against BofA

        During the course of its investigation leading up to the first settlement, NYRO
Enforcement staff focused on the failure of BofA to disclose in a joint proxy with Merrill
that, under the merger agreement, Merrill could pay nearly $6 billion in discretionary,
year-end bonuses to executives for 2008. Enforcement staff considered this omission,
when coupled with other proxy language creating the opposite impression for
shareholders, to be materially misleading in violation of Exchange Act Section 14(a) and
Exchange Act Rule 14a-9 thereunder. As the staff explained in their July 20, 2009
Action Memorandum to the Commission:
              DP, AC, WP, LE




Exhibit 21 at p. 2.



2
  Enforcement concluded similarly that the scienter standard for an aiding-and-abetting case against
individuals under Exchange Act Section 10(b) and Exchange Act Rule 10b-5 also was not met in this case.
                                                   19 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        Although Enforcement staff ultimately brought two settled actions against BofA –
one for the alleged failure of the company to disclose its authorization for Merrill to pay
several billion dollars in year-end bonuses, and the other for the alleged failure of the
company to disclose significant fourth quarter losses by Merrill – Enforcement decided
not to bring the fourth quarter losses portion of the case as part of the first proposed
settlement with BofA. When asked about this issue, the senior staff of Enforcement, who
made the decision to bring the bonus action only, determined that the bonus action was
                                                           ENF Supv 4
the only one that was ready to be brought. Specifically,               stated the following:

                  In light of the fourth quarter losses suffered by Merrill,
                  those issues were involved. Issues from the Fed, there were
                  a lot more witnesses, there was information that we were
                  having trouble getting at that’s relevant. It was clear that
                  that was going to take a while to get to the bottom of.
                  And frankly, [we] didn’t know where that was going to
                  lead us. And there was a public interest in identifying the
                  violation of law sooner rather than later and [it] got to the
                  point where we thought there was a case here.
ENF Supv 4
           Testimony Tr. at pg. 62 (emphasis added). Similarly, Director Khuzami felt
that bringing the bonus portion first was necessary because he wasn’t sure whether there
would be another case to bring. In a June 28, 2009 e-mail from Khuzami to SEC
Chairman Mary Schapiro, Khuzami stated:
               AC, DP, WP, LE




June 28, 2009 e-mail from Khuzami to Chairman Schapiro, attached hereto as Exhibit
24 (emphasis added). When asked specifically about the decision to bring the bonus
case before the fourth quarter losses case, Khuzami reiterated his skepticism at the time
about bringing the second case, as evidenced by the following exchange:

                  Q: 	          Okay. And was there also just generally the
                                thinking that your staff had worked through the
                                bonus case; it was poised to bring it; and it would
                                be good to get that out, get that out in front, whether
                                by an action or a settlement, because there would be
                                a value to have the SEC bring an action like [this]
                                against Bank of America?

                                                      20 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 A: 	     Yeah. Although for exactly the reason that you say,
                          this may have been the only Bank of America
                          [case]. At that point we’re thinking this may be the
                          only part of the case that’s viable. And so, you
                          know, bringing it then may have been bringing the
                          Bank of America case, because that’s all there was
                          going to be to it. So in other words it was just, as
                          you say, speculative as to whether or not we’d get
                          there on the other piece. So why would you hold it
                          off for something that may never come to pass, I
                          guess.

Khuzami Testimony Tr. at p. 111.

        The OIG has found that in deciding how to proceed with its first action against
BofA, Enforcement determined that it was necessary to bring the bonus case first,
followed by the fourth quarter losses case. This decision was made by senior
Enforcement officials who did not feel that the investigation into Merrill’s alleged fourth
quarter losses was far enough along and who were skeptical – as expressed by ENF Supv 4
and Khuzami above – as to whether Enforcement could have brought a second case at
all. Furthermore, as discussed earlier, the focus on bringing the case quickly likely was
a contributing factor as well.

II.	    ENFORCEMENT’S FIRST PROPOSED SETTLEMENT AND THE
        COURT’S OPINION

        On August 3, 2009, the SEC announced that it had “charged Bank of America
Corporation for misleading investors about billions of dollars in bonuses that were being
paid to Merrill Lynch & Co. executives at the time of its acquisition of the firm.” Exhibit
22 at p. 1. Also according to the press release, “Bank of America agreed to settle the
SEC’s charges and pay a penalty of $33 million.” Id. According to Rosenfeld, “As
Merrill was on the brink of bankruptcy and posting record losses, Bank of America
agreed to allow Merrill to pay its executives billions of dollars in bonuses. Shareholders
were not told about this agreement at the time they voted on the merger.” Id. Moreover,
the press release stated:

                 In settling the SEC’s charges without admitting or denying
                 the allegations, Bank of America consented to the entry of
                 a judgment that permanently enjoins Bank of America from
                 violating the proxy solicitation rules – Section 14(a) of the
                 Exchange Act of 1934 and Rule 14a-9 – and orders Bank of
                 America to pay the financial penalty.

Id. at p. 2. The press release stated further that the settlement was “subject to court
approval.” Id.

                                                   21 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

       After the SEC filed the proposed settled action in the U.S. District Court for the
Southern District of New York, the Honorable Jed S. Rakoff, United Stated District
Judge, held a hearing during which the SEC and BofA presented arguments supporting
the proposed settlement. 3 See generally Transcript of August 10, 2009 hearing before the
Honorable Jed S. Rakoff, U.S.D.J., attached hereto as Exhibit 25. At the conclusion of
the hearing, Judge Rakoff informed the parties that he was not prepared to rule on
whether he would accept the proposed settlement, stating:

                 I would be less than candid if I didn’t express my continued
                 misgivings about this settlement at this stage . . . When this
                 settlement first came to me it seemed to be lacking, for lack
                 of a better word, in transparency. . . . [A]nd even after
                 hearing the very helpful and candid responses from counsel
                 today I am concerned that we have not yet ferreted out all
                 that the court needs to know. When all is said and done, no
                 court can make an informed decision in any matter of
                 attorneys without knowing the facts, without knowing the
                 truth. . . . I need to know more before I can approve this
                 settlement.

Id. at p. 47. Judge Rakoff then set a briefing schedule for the parties to make submissions
on the issue of why he should approve the proposed settlement, and informed the parties
that “after I have reviewed all that I will either take action or convene another hearing,
whichever is required.” Id. at p. 48. On September 14, 2009, Judge Rakoff issued a
Memorandum Order rejecting the SEC’s proposed settlement with BofA. See generally
September 14, 2009 Memorandum Order from the Honorable Jed S. Rakoff, U.S.D.J.,
attached hereto as Exhibit 26. In rejecting the proposed settlement, Judge Rakoff stated:

                 Overall, indeed, the parties’ submissions, when carefully
                 read, leave the distinct impression that the proposed
                 Consent Judgment was a contrivance designed to provide
                 the S.E.C. with the façade of enforcement and the
                 management of the Bank with a quick resolution of an
                 embarrassing inquiry – all at the expense of the sole alleged
                 victims, the shareholders. Even under the most deferential
                 review, this proposed Consent Judgment cannot remotely
                 be called fair. Nor is the proposed Consent Judgment
                 reasonable.

Id. at p. 8. Judge Rakoff then concluded:



3
  Appearing on behalf of the SEC were Associate Regional Director Rosenfeld, ENF Supv 3
and ENF Atty 1                          Appearing on behalf of BofA were Lewis J. Liman, Esq. and
Shawn J. Chen, Esq. of Cleary, Gottlieb, Steen & Hamilton, LLP.
                                                   22 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 The proposed Consent Judgment in this case suggests a
                 rather cynical relationship between the parties: the S.E.C.
                 gets to claim that it is exposing wrongdoing on the part of
                 the Bank of America in a high-profile merger; the Bank’s
                 management gets to claim that they have been coerced into
                 an onerous settlement by overzealous regulators. And all
                 this is done at the expense, not only of the shareholders, but
                 also of the truth. . . . Accordingly, the Court, having hereby
                 disapproved the Consent Judgment, directs the parties to
                 file with the Court, no later than one week from [September
                 14, 2009], a jointly proposed Case Management Plan that
                 will have this case ready to be tried on February 1, 2010.

Id. at pgs. 11-12. Detailed immediately below are the major points of Judge Rakoff’s
September 14, 2009 Memorandum Order rejecting the proposed settlement, as well as an
analysis of how each point relates to charging decisions made in NYRO Enforcement’s
investigation of BofA.

        A.	      The Court’s Order Raised Questions About the Fairness of the
                 Settlement and Whether Enforcement Departed from its Usual Policy

         In his Memorandum Order rejecting the first proposed settlement reached
between the SEC and BofA, Judge Rakoff expressed his belief that it was “not fair, first
and foremost, because it does not comport with the most elementary notions of justice
and morality, in that it proposes that the shareholders who were the victims of the Bank’s
alleged misconduct now pay the penalty for that misconduct.” Id. at p. 4. Judge Rakoff
explained in his Memorandum Order why he did not agree with the SEC’s argument that
a civil penalty is justified because it allows shareholders to better assess the quality and
performance of management:

                 [The SEC’s argument] makes no sense when applied to the
                 facts here: for the notion that Bank of America
                 shareholders, having been lied to blatantly in connection
                 with the multi-billion-dollar purchase of a huge, nearly-
                 bankrupt company, need to lose another $33 million of
                 their money in order to “better assess the quality and
                 performance of management” is absurd.

Id.

        Judge Rakoff also noted in his Memorandum Order that the SEC conceded in its
court submissions that “its normal policy in such situations is to go after the company
executives who were responsible for the lie, rather than innocent shareholders.” In
response to the SEC’s assertion that BofA’s lawyers (rather than company executives)
made the relevant decisions concerning the disclosure of the Merrill bonuses, Judge
Rakoff asked why the SEC was not seeking penalties from the attorneys: “But if that is
                                                   23 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

 the case, why are the penalties not then sought from the lawyers? And why, in any event,
 does that justify imposing penalties on the victims of the lie, the shareholders?” Id. at
 pgs. 4-5.

         The Memorandum Order raised a question about whether Enforcement should
 have departed from its usual practice of seeking to charge individuals as well as
 companies responsible for corporate wrongdoing. The Court’s decision also raised the
 question of whether NYRO Enforcement staff sufficiently analyzed whether individuals
 should have been charged in the SEC’s first proposed settlement with BofA. This report
 will address below each of the Court’s concerns about why individuals were not named in
 the SEC’s first proposed settlement.

                  1.	       By Not Naming Individuals in the First Proposed Settlement,
                            the SEC Departed from its Normal Policy

         As Judge Rakoff opined in his September 14, 2009 Memorandum Order rejecting
 the SEC’s proposed settlement with BofA, the SEC’s normal policy is to bring actions
 against individuals who are responsible for securities law violations as well as the
 responsible issuers. In this particular case, NYRO Enforcement staff decided not to
 charge individuals based, at least in part, on a determination that “the integral role of
 counsel on the disclosure matter at issue is evidence of good faith and makes it unlikely
 that the Commission could establish the requisite scienter for a Section 10(b) charge
 [under the Exchange Act].” See Exhibit 21 at p. 7, n. 5. As will be discussed below, the
 determination not to charge individuals may have been different had the possibility of
 individual liability under Exchange Act Section 14(a) been thoroughly considered and
 researched but, in any case, the decision not to proceed against individuals was a
 departure from standard SEC practice.

        The OIG investigation found that a former Counsel to the Director and Deputy
 Director of Enforcement looked at this issue after Judge Rakoff rejected the proposed
 settlement. In putting together a list of cases where individuals were not named but
 corporations were required to pay a civil penalty, the front office found WP, AC, DP, LE
WP, AC, DP, LE

WP, AC, DP, LE                                                          ENF Supv 7
                   See September 25, 2009 e-mail from                   to Robert
 Khuzami et al. and attached document titled Corporate Penalty Cases WP, AC, DP, LE
WP, AC, DP, LE
WP, AC, DP, LE                                                                       WP, AC, DP, LE
                                      According to the research performed,
WP, AC, DP, LE



WP, AC, DP, LE                                         WP, AC, DP, LE
                        In other words, these cases “
 WP, AC, DP, LE




        The BofA case, however, differed from the other cases where individuals were
 not named because there was no rule change or other intervening event that made a case
                                                    24 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

against individuals more difficult. Thus, using Enforcement’s own analysis conducted
after the settlement was rejected, there seemed to be no basis under existing precedent not
to thoroughly consider charging individuals in the BofA case. The OIG has found,
rather, that the lack of a comprehensive analysis by the NYRO Enforcement team prior to
the first proposed settlement being presented to the Commission, may have been related
to the staff’s failure to recognize until after the first proposed settlement was filed that an
action could be brought against individuals for direct violations of Exchange Act Section
14(a).

                 2.	         NYRO Enforcement Initially Analyzed Potential Individual
                             Liability Unaware that Exchange Act Section 14(a) Applied

        As stated earlier, NYRO Enforcement’s July 20, 2009 Action Memorandum to
the Commission recommending the first proposed settlement with BofA made no
mention of Exchange Act Section 14(a) in its discussion of why individuals were not
charged. Apart from the question of why there was not a more comprehensive discussion
of potential individual liability in the Action Memorandum generally, a key question is
why wasn’t potential individual liability under Exchange Act Section 14(a) discussed –
particularly given the lower standard of intent compared to Exchange Act Section 10(b)
(“negligence” vs. “scienter”)? The NYRO Enforcement first team asserted unanimously
in OIG testimony that the issue was considered, yet none could explain its absence from
the Action Memorandum – other than one witness assuming that it was “just an
            ENF Supv 3
oversight.”            Testimony Tr. at p. 77. The answer may be that more than one
member of the NYRO Enforcement team believed that Exchange Act Section 14(a)
actions could be brought only against issuers.

        After the first proposed settlement with BofA was filed, Judge Rakoff held a
hearing on August 10, 2009 to entertain arguments on why the proposed settlement
should be approved. See generally Transcript of August 10, 2009 hearing attached hereto
as Exhibit 25. In apparent preparation for the hearing, Rosenfeld prepared an outline
titled BoA Questions. Included in this document was the following:

                 Given the egregious violation, why have no individuals
                 been charged?

                       •	 Can’t discuss the specifics of any particular
                          charging decision.

                       •	 We need to charge based on what the evidence
                          supports and the legal standards applicable to a
                          particular statutory or regulatory provision.

                       •

                            WP, DP, LE




                                                   25 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
                            WP, DP, LE
                       •




                       •	 (paragraph 12 of the complaint: lawyers drafted the
                          documents).

August 9, 2009 e-mail from Rosenfeld and attached outline of BofA questions, attached
hereto as Exhibit 28, at pgs. 6-7 (emphasis added). Following the hearing, on August 12,
2009, Rosenfeld discussed via e-mail with others at the SEC how best to respond to a
New York Times reporter wanting to do a story on whether the SEC went easy on BofA
by not charging individuals. During this e-mail discussion, Rosenfeld stated:

                  I think it would be worth talking to him off the record. A
                  few things that could be brought out:

                                                   *****

                  3. 	On not charging individuals: there was considerable
                      discussion of this issue at the court hearing. What we
                      said was that lawyers drafted the documents . . . I also
                      told the court that under those circumstances it would be
                      difficult to sustain scienter based fraud charges, against
                     individuals or by extension against the company. The
                     sections that we charged (Section 14(a) and Rule 14a-9)
                     are negligence based, but they can only be directly
                     violated by the company; individuals cannot be
                      charged as primary violators. . . . Because we
                      disclosed all this in open court, I would feel comfortable
                      walking the reporter through the analysis.
                                                     OPA Supv
August 12, 2009 e-mail from Rosenfeld to                            attached hereto as Exhibit 29, at
p. 1 (emphasis added). 4

         On August 18, 2009 (over two weeks after the first proposed settled action was
filed), the first team members were finalizing their brief, which was due to Judge Rakoff
in less than a week. Exhibit 25 at p. 48 (Judge Rakoff sets August 24, 2009 as the due
                                                                       ENF Supv 3 ENF Atty 1
date for the parties’ first submissions to the Court). In an e-mail to
stated, “Here is the current draft of the BofA submission. There are two items that I still
need to plug in: WP, DP, LE
4
  After reviewing the transcript of Judge Rakoff’s August 10, 2009 hearing, the OIG has found no mention
by Rosenfeld, or anyone else present at the hearing, that only BofA could directly violate Exchange Act
Section 14(a) and Exchange Act Rule 14a-9 thereunder. Rosenfeld mentioned only Exchange Act Section
10(b) when discussing the difficulties in making a prima facie fraud case against BofA individuals. It
appears, therefore, that although Rosenfeld clearly believed this to be true at the time of the hearing, he was
mistaken about actually mentioning this to Judge Rakoff.
                                                      26 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                                                ENF Atty 1             ENF Supv
 . . . .” August 18, 2009 e-mail from                    to 3       attached hereto as Exhibit 30.
 ENF Supv
 3         then responded, “[T]here is a 6th [C]ircuit case charging outside auditors with
 14(a) charges. 
WP, DP, LE
WP, DP, LE
                   ” Id. The very next day, ENF Supv 3 e-mailed ENF
                                                                
 Atty 1      two cases 

 supporting the correct proposition that Exchange Act Section 14(a) charges can be 

 brought against individuals, “You might have already tracked this down but it looks like 

 the [C]ommission has charged individuals with violations of Section 14(a) in the not so 

 distant [past] – I saw other cases but only saved these to demonstrate the point.” August 

                           ENF Supv
 19, 2009 e-mail from
3             to ENF Atty 1 and attached cases, attached hereto as
 Exhibit 31.

            When asked about these e-mails and the fact that some on the Enforcement team
  had an incorrect understanding of individual liability under Exchange Act Section 14(a),
ENF Supv 3
           responded that she had begun looking at the issue of individual liability under
  Section 14(a) while preparing a brief in support of the proposed settlement:

                        Q:       And then I see Exhibit 12, [it] looks like you had
                                 looked into the issue and had determined that[,] WP, DP, LE
                               WP, DP, LE




                        A: 	     So, I think, in fact, but it’s certainly after the case is
                                 brought.

                                                         *****

                        Q: 	     Because the decision [came down] from the judge
                                 and then you looked at this and said, “Wait a
                                 minute, this isn’t right” –
                               WP, DP, LE
                        A: 




                               WP, DP, LE
                                                                                  -- and
                                 I’ve forgotten this 14[(a)]. It could be, but I hope it
                                 wasn’t in the final brief. I know that it was in the
                                 brief, obviously, at the time this was circulated.
 ENF Supv                                      ENF Supv 3
 3           Testimony Tr. at pgs. 85-86.                    stated also that, “I think that in the end,WP, DP, LE
WP, DP, LE




             ENF Supv
             3  wasn’t the only one who realized that this was not a correct understanding
 of the law. On August 26, 2009, over three weeks after the first proposed settled action
 was filed, an e-mail discussion took place between ENF Atty 2        of NYRO
                                                             27 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                        ENF Supv 3                  ENF Atty 2
Enforcement and                      during which                  stated, WP, DP, LE
WP, DP, LE

WP                                                           ENF Atty 2
                                                                          also stated, “Section 14(a) WP, DP, LE
WP, DP, LE

WP, DP, LE                                                                          ENF Supv   ENF Atty 2
                                 Next, after some back-and-forth with 3                                     concluded
with WP, DP, LE
WP, DP, LE
                                                        When asked about the purpose for this
              ENF Atty 2
discussion,                  stated in the following exchange:

                   Q: 	        You say at the top e-mail on [August 26, 2009],
                             DP, WP, LE




                              DP, WP, LE

                    A: 


                                                        *****
                                                                           DP, WP, LE
                   A:          I thought I heard him say that . .
                             DP, WP, LE




                                                        *****
                                                                           DP, WP, LE
                   A:          But in any event, I would say it’s
                            DP, WP, LE




ENF Atty 2
             Testimony Tr. at pgs. 21-23.

        When asked whether the proposition that only issuers can be charged as direct
violators of Exchange Act Section 14(a) and Exchange Act Rule 14a-9 thereunder is a
correct statement of the law, current NYRO Regional Director George Canellos
explained his view in the following exchange:

                   Q: 	        One thing that I wanted to ask you about, we’ve
                               looked at a lot of e-mails and particularly a lot of e-
                               mails involved before the first settlement was
                               rejected by Judge Rakoff, which you know you
                               weren’t involved in that whole part. But what we
                               found was there was some kind of internal
                               discussion and disagreement. There were some
                                                           28 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                          initial e-mails that we found which seemed to
                          indicate that some of the folks on the original Bank
                          of America team in connection with the first matter
                          did not necessarily believe that you could bring a
                          14a-9 claim against an individual directly, that you
                          had to do it as an aider and abettor?

                 A:       Yes.

                 Q:       Is that correct, and over time it seems like it was
                          clarified that you could bring a 14a-9 claim against
                          an individual directly, although then of course you
                          have to have the factual predicate for it. Is that your
                          recollection?

                 A:       Well, you know, if I got to play appellate court, my
                          answer is you can bring a 14a-9 against an
                          individual, but I agree with you, I remember very
                          distinctly that at least I believe that David Rosenfeld
                          had articulated before Judge Rakoff a view that you
                          couldn’t charge individuals except as aiders and
                          abettors, and I’m not positive that that’s wrong and
                          I’m not positive that that’s right. But the rule says
                          cast into liability those who, quote, solicit a proxy.
                          So the question is the issuer here is Bank of
                          America, it’s obviously soliciting a proxy from its
                          shareholders, but at the same time there are people
                          behind it and Ken Lewis signed the proxy and the
                          board of directors has to approve the proxy, and so
                          while I’m not sure there is a great deal of precedent
                          that completely answers the question, there’s
                          certainly a pretty well-founded argument that
                          the people who have put their names in some
                          sense, any imprimatur on the proxy could be
                          charged on a negligence theory under 14a-9.

                 Q:       And the SEC has charged individuals under 14a-9
                          as a direct violator in other cases?

                 A:       Yes, the SEC has charged individuals.

Canellos Testimony Tr. at pgs. 24-26 (emphasis added). Finally, Richard Levine,
Associate General Counsel for Legal Policy, Office of General Counsel, and an expert in




                                                   29 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

reviewing and opining on Enforcement recommendations, 5 was asked directly about
whether, as a matter of law, a Section 14(a) and Rule 14(a)(9) case could be brought
against the individuals in the BofA case in the following exchange:

                  Q: 	     Could you bring a 14[(a)] or 14a-9 case against the
                           individuals?

                  A: 	     You can, yes.

                  Q: 	     And in that case, you wouldn’t have the scienter
                           requirement?

                  A:       	That’s right.

                  Q: 	     Are there -- are there situations that you’re aware of
                           where the SEC has done that, brought a 14[(a)] or
                           14a-9 case against the individuals?

                  A: 	     I’m pretty sure we have. I’m not sure I can
                           remember any specific cases.

                  Q: 	     And you don’t remember any discussion in the
                           Bank of America matter about bringing a 14[(a)] or
                           14[a-9] case against individuals?

                  A: 	     I don’t think I remember any, no.

Levine Testimony Tr. at p. 24.

        Accordingly, the OIG has found evidence that when considering whether to name
individuals in its first proposed settled action against BofA, members of the NYRO
Enforcement team were unaware that individuals could directly violate Exchange Act
Section 14(a) and Exchange Act Rule 14a-9 thereunder. As a result, the team was left to
consider whether the individuals in this case could be sued successfully under Exchange
Act Section 10(b) and Exchange Act Rule 10b-5 thereunder – as either direct violators or
as aiders and abettors. The team then considered whether the individuals in the case
possessed the requisite intent for a successful 10(b)/10b-5 case when a 14(a)/14a-9 case

5
  Levine has considerable expertise in reviewing and opining on Enforcement recommendations to the
Commission, having worked in the Office of General Counsel for over 25 years and having served as
Assistant General Counsel for Enforcement from 1997 until his recent promotion to Associate General
Counsel in May 2010. Levine Testimony Tr. at pgs. 6-10. For approximately 13 years as Assistant
General Counsel at the SEC, Levine was responsible for “reviewing all the Enforcement recommendations
that get sent to the Commission [and] reviewing those for legal sufficiency to make sure that [cases are]
legally supportable [and] well grounded in the facts . . . .” Id. at pgs. 8-9. By his estimation, his office
would typically receive and review “more than 2,000 memos a year [including drafts and final versions].”
Id. at p. 9.
                                                     30 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

potentially could have been made with a lower showing of intent (“negligence” as
opposed to “scienter”). With Section 10(b)/Rule 10b-5 the only avenue available, the
team decided that the evidentiary hurdle, and resulting litigation risk, were simply too
high to pursue individuals. The misperception of this higher evidentiary hurdle may have
been a reason that we found no evidence of any substantive or significant analysis of the
question of whether to charge individuals in connection with the first proposed settlement
on the BofA case.

        As discussed earlier in this report, NYRO Enforcement team perceived the need
to bring the BofA case quickly. This focus on bringing the BofA case quickly may have
factored into the team’s analysis of whether an action could have been brought against
individuals. DP, WP, LE
                               ENF Atty 2       ENF Supv
NYRO witnesses, including                       3        and Canellos, testified that individuals
could directly violate Exchange Act Section 14(a) and Exchange Act Rule 14a-9
thereunder. DP, WP, LE  this issue was not addressed in the first Action Memorandum to
the Commission, and the OIG has seen no evidence that the issue was researched until
after the proposed settlement recommendation was approved by the Commission and
                                          ENF Supv
filed with the Court. Specifically, 3              testified that the team’s failure to do this
research earlier was a source of frustration:

                 A: 	      And I hadn’t done [the research] because I wasn’t
                           involved in the [process] – as I ordinarily would be
                           – it’s kind of like, this is what we are doing. So, I
                           know that I found it was frustrating.

                 Q:        	Yeah.

                 A: 	      And in fact, well – I don’t know. I think they’re
                           ultimately – obviously, there were no charges
                           brought against individuals . . . So, it was fine, but I
                           remember being frustrated [when] I went back and
                           did that research.

                 Q: 	      Because that’s something that you thought was
                           uncovered earlier in the process?

                 A: 	      Well, because I know that at times, there [were]
                           some discussions. DP, WP, LE
                        DP, WP, LE




                                                 *****

                 A:        	There were questions, why aren’t you charging
                            individuals? . . . We tried to figure out – we had all
                                                   31 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                            sorts of theories going in and none of those panned 

                            out certainly. So, I was so [very] frustrated that I 

                            heard that maybe it wouldn’t be appropriate to bring 

                            [charges] when I saw that, in fact, that we had [in 

                            the past] . . . I think that what we did was ultimately 

                            the right thing, but I know I was frustrated. 


                     Q:     The fact that you found those cases?

                     A:     Right.
 ENF Supv
 3           Testimony Tr. at pgs. 81-83.

         From the testimonial and other evidence obtained in this investigation, it appears
 that NYRO Enforcement’s first team neither researched completely nor analyzed
 correctly, the issue of who can be sued and under what statute and rule. Instead of a
 complete analysis of whether individuals should have been sued in the case and, if so,
 under what legal theory(ies), the July 20, 2009 Action Memorandum DP, WP, LE
DP, WP, LE
DP, WP, LE
                                                           See Exhibit 21 at p. 7, n.5.

         Thus, a central part of the first case was not analyzed as thoroughly as it could
 have been, and the OIG has found that more time and attention spent on researching this
 aspect of the case might have proven helpful to Enforcement staff in its decision whether
 to charge individuals in the BofA case, just as a more thorough discussion of the issue in
 the Action Memorandum might have proven helpful to the Commission in its
 consideration of the proposed settlement. It appears, therefore, that there was a two-fold
 reason why the Exchange Act Section 14(a)/Exchange Act Rule 14a-9 analysis was not
 performed properly; namely, a focus on bringing the case quickly coupled with a
 misunderstanding of the applicable law. The end result was an evidentiary hurdle
 (scienter under Exchange Act Section 10(b)/Exchange Act Rule 10b-5) that was too high
 to meet.

         As this report will discuss, after the Court rejected the first proposed settlement,
 the attorneys working on the litigation and second proposed settlement with BofA (the
 “second team”) revisited the issue of the appropriateness of naming individuals. The
 second team engaged in a very substantive and thorough analysis of whether a viable
 legal theory existed for pursuing individuals. Moreover, this analysis was performed
 with the understanding that Exchange Act Section 14(a) applied to individuals as well as
 issuers. The second team reached the decision not to name individuals only after
 performing this more thorough analysis.




                                                    32 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        B.	      The Proposed Settlement Would Have Imposed an Injunction Against
                 BofA While the Company Continued to Deny Wrongdoing

        A second issue that Judge Rakoff identified was that the SEC sought the standard
“obey-the-law” injunction in which the defendant neither admits nor denies the SEC’s
allegations of wrongdoing. As Judge Rakoff explained in his September 14, 2009
Memorandum Order:

                 [S]ince the Bank contends that it never made any false or
                 misleading statements in the past, the Court at this point
                 lacks a factual predicate for imposing such relief. To be
                 sure, the Bank’s initial position was that it neither admitted
                 nor denied the allegations, and such a position, when
                 coupled with proof by the S.E.C. that the alleged violations
                 have occurred, may often be sufficient to support certain
                 forms of injunctive relief. But here the further submissions
                 of the Bank make clear its position that the proxy statement
                 in issue was totally in accordance with the law: meaning
                 that, notwithstanding the injunctive relief here sought by
                 the S.E.C., the Bank would feel free to issue exactly the
                 same kind of proxy statement in the future. Under these
                 circumstances, the broad but vague injunctive relief here
                 sought would be a pointless exercise, since the sanction of
                 contempt may only be imposed for violation of a
                 particularized provision known and reasonably understood
                 by the contemnor, all of which would be lacking here.

Exhibit 26 at pgs. 10-11. According to Judge Rakoff, the SEC’s “obey-the-law”
injunction was an ineffective remedy because BofA maintained that it violated no federal
securities laws by issuing the joint proxy statement with Merrill. Because the company
believed it engaged in lawful conduct the first time, according to Judge Rakoff, the Court
would be unable to hold BofA in contempt for engaging in similar conduct in the future.

           “Obey-the-law” injunctions in which a defendant neither admits nor denies
wrongdoing are often sought by Enforcement for settled actions in federal court. For
example, the SEC’s Enforcement Manual provides that, when making a specific
recommendation to the Commission that an action be settled against a cooperating
individual or company, “the cooperating individual or company agrees to resolve the
matter without admitting or denying the alleged violations.” See United States Securities
and Exchange Commission Division of Enforcement’s Enforcement Manual, Office of
Chief Counsel, January 13, 2010 (revised March 3, 2010), excerpted portions of which
are attached hereto as Exhibit 33, at p. 132. DP, LE, WP
DP, LE, WP
                                        and the stance taken by Judge Rakoff in his
September 14, 2009 Memorandum Order questioned the appropriateness of this remedy
in every case. DP, LE, WP

                                                   33 

    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
    disclosure to third parties. No redaction has been performed by the Office of Inspector General.
    Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
DP, WP, LE                                              DP, WP, LE
                NYRO Regional Director Canellos –
DP, WP, LE




                      [T]his is an issue that’s DP, WP, LE                     and I am
                      of the view and I think DP, WP, LE
                      DP, WP, LE




    Canellos Testimony Tr. at pgs. 62-63 (emphasis added). To Canellos and others within
    Enforcement, DP, WP, LE
  DP, WP, LE

   DP, WP, LE
                                               Canellos also expressed the view that DP, WP, LE
   DP, WP, LE




            Overall, the OIG has found that, as was the case with Judge Rakoff’s concerns
    about victims being forced to pay for the wrongdoing of others, his concerns with the
    standard “obey-the-law” injunction sought by the SEC in its first proposed settlement
    with BofA resulted in a changed focus by Enforcement and others at the SEC who
    responded to these concerns. The result was a second settlement that, among other
    things, provided relief to shareholders in the form of a series of measures that BofA was
    required to take to enhance shareholder protection while improving corporate governance
    and responsibility.

                C.    The Court Found the Proposed Penalty Amount Too Low

          A third major concern expressed by Judge Rakoff in his September 14, 2009
    Memorandum Order was over the recommended civil penalty of $33 million against
    BofA only. According to Judge Rakoff:

                      Finally, the proposed Consent Judgment is inadequate. The
                      injunctive relief, as noted, is pointless. The fine, if looked
                      at from the standpoint of the violation, is also inadequate,
                                                       34 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 in that $33 million is a trivial penalty for a false
                 statement that materially infected a multi-billion-dollar
                 merger. But since the fine is imposed, not on the
                 individuals putatively responsible, but on the shareholders,
                 it is worse than pointless: it further victimizes the
                 victims.

Exhibit 26 at p. 11 (emphasis added). As explained earlier, Judge Rakoff was concerned
that if he approved the first proposed settlement, shareholders would be victimized a
second time. However, he also was bothered by the amount of the penalty, which he
thought was “trivial” considering the size of the merger and resulting fraud. Id.
Although his September 14, 2009 Memorandum Order made no mention of what the
court estimated the correct amount should have been, the second SEC settlement that
Judge Rakoff approved secured nearly five times the amount originally sought. See
generally February 4, 2010 SEC Litigation Release titled Bank of America Agrees to Pay
$150 Million to Settle SEC Charges, attached hereto as Exhibit 34. The facts and
circumstances surrounding the second settlement, including how the SEC arrived at its
increased penalty amount, will be discussed later in this report.

         Although reasonable minds can differ over the civil penalty that should have been
sought originally, in light of the Court’s determination that the amount proposed was
“trivial,” the OIG investigated the methodology that NYRO Enforcement used to arrive
at the original $33 million figure. The OIG has found that, although NYRO Enforcement
claimed to have used a variety of factors to determine the appropriate civil penalty, its
strong reliance on precedent was a major factor in determining the final civil penalty
amount.

      When asked how the first team arrived at the $33 million civil penalty, witnesses
unanimously pointed to precedent as the starting point, looking for prior cases with facts
comparable to the BofA case. For example, as ENF Atty 1      explained in the following
exchange:

                 Q: 	     Did you work on a penalty analysis at all, the
                          penalty analysis to get to $33 million?

                 A: 	     There was. I can’t remember how much I did of it.
                          I can tell you what the key features of it were. The
                          most important thing was a precedent, which we
                          felt was something [we] needed to have, to have a
                          footing on. We looked – I think everybody in the
                          team, everybody looked at the penalty factors. And
                          some of those factors were not particularly
                          applicable.
ENF Atty 1                                                       ENF Supv 3
              Testimony Tr. at p. 71 (emphasis added).                        made a similar observation
in the following exchange:
                                                   35 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                    Q:      [D]o you recall how the civil penalty amount [was]
                            arrived at in discussions you may have had about it?

                    A:      I remember looking at the cases comparable.
                            There’s a database. And for cases not involving
                            fraud, certainly, in the past, the SEC had not gotten
                            very large settlement civil penalty amounts. And
                            particularly, we were coming off of the prior
                            Commission [who] did not [look] favorably upon
                            instituting civil penalties against public corporations
                            because it was viewed as harming the shareholders
                            twice; right? They were the victim of the initial,
                            whatever it was in this case. There were proxy
                            violations and they weren’t told the full information
                            and then they’re being forced to pay the civil
                            penalty. So, I remember looking at the comparable
                            case database. And looking at the variety of cases .
                            . . the largest civil penalty was Wachovia. That was
                            $37 million. . . . So, we thought large – that’s the
                            sweet spot. That’s where we need to go.

                                                  *****

                    Q:      Were there any other factors that you considered in
                            addition to the Wachovia case in terms of –

                    A:      Well, the case comparables, that’s where you
                            always begin.
ENF Supv 3
             Testimony Tr. at pgs. 34-36 (emphasis added). Rosenfeld agreed:

                    So it’s difficult to find a lot of precedent that was directly
                    on point. The Wachovia case was the one that was closest.
                    It involved another financial institution. It involved the
                    context of a merger or a takeover direct fee, I forget which
                    one it was.

                    Q: 	    What was the number in Wachovia?

                    A:      	37 million [dollars].

                    Q: 	    In addition to a conversation with Rob [Khuzami],
                            was it kind of generally understood that the way the
                            Commission would look at settlement numbers or

                                                     36 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                          penalty amounts was also dependent upon prior
                          cases?

                 A: 	     Yes, very much so.

                 Q: 	     It wasn’t something Rob came up with?

                 A: 	     No, we had started looking at that before Rob had
                          said anything about that. That’s the way we do it.
                          That’s the first thing you look to is what have
                          you done in other cases. But I was just pointing
                          out that when I had the conversations with Rob and
                          asked him what his thinking was, the first thing he
                          said was okay, what had we done in other cases. So
                          we tried to find whatever we could. The Wachovia
                          case was the closest one on point.

Rosenfeld Testimony Tr. at pgs. 33-34 (emphasis added). 6 Finally, the first team’s view
that precedent is the starting point for civil penalties itself was supported by the
Division’s own Enforcement Manual, which provides, “If the Division agrees to make a
specific enforcement recommendation to the Commission, the staff should consider the
settlement terms of other similar cases to identify prior precedent involving similar
alleged misconduct . . . .” Exhibit 33 at p. 132 (emphasis added).

        While other factors were considered, Commission precedent was the starting
point, and was the single largest factor in determining the civil penalty amount. 7 Once
the NYRO Enforcement team found the single case that was closest factually to BofA,
the team determined “that’s the sweet spot. That’s where we need to go.” ENF Supv 3
Testimony Tr. at p. 35. Accordingly, the OIG has found no evidence that the team’s
reliance on precedent was either arbitrary or capricious. Rather, it appeared to be a by-
product largely of the way that Enforcement weighed penalty factors generally, as
evidenced by the Division’s own Enforcement Manual.

        For reasons this report will discuss, the OIG has found that the second team was
not as constrained by precedent, and used leverage provided by adding an additional
charge and by virtue of the Court’s rejection of the first proposed settlement to reach a
resolution more acceptable to the Court. Before addressing the issue of Judge Rakoff’s

6
  See also August 9, 2009 e-mail from Rosenfeld and attached document titled Outline of BoA, attached
hereto as Exhibit 28, at p. 1 (“In determining the proper amount of a penalty, we look first and foremost
to precedent”) (emphasis added).
7
  According to ENF Supv 4 the penalty factors considered by the first team in addition to precedent were,
“the benefits to the company, the harm to current shareholders, the harm to prior shareholders . . . what
impact the penalty would have on the company [and] the degree of cooperation.” ENF Supv 4 Testimony Tr.
at p. 46.

                                                    37 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

treatment of the second settlement, however, this report will discuss immediately below
another critical issue – the possible collateral consequences that BofA faced if an
antifraud injunction had been imposed, including the potential loss of its status as a
“Well-Known Seasoned Issuer.”

III.	    THE FIRST PROPOSED SETTLEMENT HIGHLIGHTED FLAWS IN
         THE SEC’S PROCESS FOR GRANTING WAIVERS

         A.	      BofA Raised the Issue of Collateral Consequences of an Antifraud
                  Injunction During Settlement Negotiations

        As the SEC and BofA negotiated settlement terms, attorneys representing BofA
raised the issue of potential collateral consequences were it to agree to a settlement that
included an injunction against future violations of the antifraud provisions of the federal
securities laws. Rosenfeld Testimony Tr. at pgs. 40-41. The potential collateral
consequences for BofA included losing its WKSI status and its safe harbor for forward-
looking statements. See Supplemental Memorandum Re Bank of America Corporation to
the Commission from NYRO, dated July 28, 2009, attached hereto as Exhibit 35 (“July
28, 2009 Supplemental Memorandum”) at pgs. 1-4.

         WKSI status allows an issuer to use advantageous procedures in the registration
and offering of securities, including allowing the issuer to file an automatic shelf
registration statement with the SEC. 8 Rosenfeld Testimony Tr. at p. 39. The safe harbor
provisions of Section 27A(c) of the Securities Act and Section 21E(c) of the Exchange
Act afford limited protection from liability or penalty for certain issuers who make
forward-looking statements that turn out to be false, provided that certain statutory
criteria are met. See generally Allan Horwich, Cleaning the Murky Safe Harbor for
Forward-Looking Statements: An Inquiry into Whether Actual Knowledge of Falsity
Precludes the Meaningful Cautionary Statement Defense, Journal of Corporation Law,
Vol. 35, 2010, attached hereto as Exhibit 36, at pgs. 520 et seq.

        An “ineligible issuer” cannot take advantage of WKSI securities procedures. The
definition of “ineligible issuer” includes any issuer who has had an antifraud injunction
entered against it within the last three years. 17 C.F.R. § 230.405. The first proposed
settlement between BofA and the SEC included the entry of an injunction against future
8
   “There are two significant advantages of using an automatic shelf registration statement, as opposed to a
regular non-WKSI Form S-3 shelf registration statement. First, as the name indicates, a Form S-3ASR
registration statement becomes effective automatically upon filing, without review by the SEC.
Accordingly, after filing a Form S-3ASR with a ‘universal’ prospectus, an issuer can, promptly thereafter,
file a prospectus supplement indicating the amount, and describing the features, of the securities that it
wishes to ‘take off the shelf,’ and then commence to sell those securities immediately upon the [sic] filing
the prospectus supplement. Second, as a WKSI, the issuer is not required to register a specified dollar
amount of securities at the time of filing the Form S-3ASR; and it may postpone the payment of the filing
fee until the time of filing the prospectus supplement for each shelf take-down (called ‘pay as you go’).”
See Peter Flagel et al., Effects of Loss of WKSI Status on Automatic Shelf Registration Statements, Client
Advisory, Carter Ledyard & Milburn LLP (February 4, 2009), attached hereto as Exhibit 37, at p. 1. See
also http://www.clm.com/publication.cfm/ID/223.
                                                     38 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

violations of Exchange Act Section 14(a) and Exchange Act Rule 14a-9 thereunder,
which are antifraud provisions. Exhibit 35 at p. 1. Therefore, upon entry of the
injunction, BofA would be deemed an “ineligible issuer” and statutorily disqualified from
taking advantage of WKSI procedures. Id.

        Similarly, the safe harbor for forward-looking statements is not available to any
issuer who has had an antifraud injunction entered against it “during the 3-year period
preceding the date on which the statement was first made.” Section 27A(b)(1)(A)(ii) of
the Securities Act; Section 21E(b)(1)(A)(ii) of the Exchange Act. Upon entry of the
injunction, BofA would also be disqualified from the safe harbor for forward-looking
statements provisions of the Securities Act and the Exchange Act. Exhibit 35 at p. 3.

        The Commission has the power to waive certain collateral consequences of an
antifraud injunction. Id. at pgs. 1, 3. With regard to BofA’s WKSI status, Securities Act
Rule 405 provides that even if an issuer meets the definition of “ineligible issuer,” the
Commission may waive the statutory disqualification from WKSI status where the
Commission “determines, upon a showing of good cause, that it is not necessary under
the circumstances that the issuer be considered an ineligible issuer.” 17 C.F.R.
§ 230.405. Corporation Finance has delegated authority to grant or deny requests for
waivers of “ineligible issuer” status for the Commission. Exhibit 35 at p. 1. The
Commission also has the statutory authority to waive disqualification from the safe
harbor for forward-looking statement provisions of the securities laws. Section 27A(b) of
the Securities Act and Section 21E(b) of the Exchange Act. While the Commission has
not delegated its authority to grant waivers from disqualification from the safe harbor for
forward-looking statements, the Commission considers recommendations made by
                                                        ENF Atty 4
Enforcement when making its waiver determinations.                 Testimony Tr. at p. 17.

        B.	      Under SEC Practice, WKSI and Safe Harbor Waiver Requests Were
                 Denied When the Fraud at Issue Was Related to the Issuer’s Own
                 Disclosures

        According to current SEC practice, “the same criteria [are] used for granting the
WKSI and forward-looking statements waiver requests. . . .” Exhibit 35 at p. 4. Thus,
the WKSI and safe harbor waivers “generally are granted or denied in tandem.” E-mail
     CF Atty 2    ENF Supv
from           to 3        et al., dated July 10, 2009, attached hereto as Exhibit 38.

        The SEC’s general practice was to deny WKSI and safe harbor waiver requests
where the antifraud violations were related to the issuer’s own disclosures. 9 Exhibit 35 at
pgs. 3-4. In a memorandum to the Commission, the SEC’s Office of General Counsel
described the Commission’s practice and its purpose:


9
  Corporation Finance also had a practice of granting WKSI waiver requests where “an agreement in
principle between the Division of Enforcement and the proposed defendant was entered into prior to
December 1, 2005.” Exhibit 35 at p. 3. This criterion was inapplicable to the case at issue.

                                                   39 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
               DP, AC, WP, LE




See Memorandum to the Commission from Office of General Counsel, Re In the Matter
of Merrill Lynch & Co. (NY-7842), dated July 29, 2009, attached hereto as Exhibit 39, at
p. 2.

         C.	      Corporation Finance Initially Opposed Granting BofA’s Waiver
                  Requests

       Prior to entry of the first proposed settlement, BofA requested that the
Commission grant it various regulatory waivers and exemptions, including waivers from
the WKSI and safe harbor disqualifications. 10 Exhibit 35 at p. 1. The waiver most
important to BofA involved its status as a WKSI filer. ENF Atty 1      Testimony Tr. at
                                            PII
pgs. 63-64. According to an Enforcement                   on the case, the “safe harbor
proposal wasn’t so much of an issue. It was really a tag-along to WKSI.” Id. at p. 77. In
its WKSI waiver application, BofA made several arguments why it should receive a
waiver, none of which addressed the criteria applied by Corporation Finance. BofA’s
arguments included the following:

                  (1) BofA “has a strong record of compliance with the
                  securities laws and has fully cooperated with the staff in its
                  investigation”; (2) “this matter does not involve intentional
                  or willful misconduct”; (3) “the violation at issue relates to
                  an extraordinary merger and not a routine securities
                  issuance in the regular course of business”; (4) “a
                  disqualification in this case . . . would discourage other
                  companies from settling cases”; (5) “designating Bank of
                  America as an ineligible issuer would undermine the policy

10
   BofA had additional waiver and exemption requests. Exhibit 35 at pgs. 4-7. BofA “requested a waiver
from the Rule 602(b)(4) and 602(c)(2) automatic disqualification provisions of Regulation E, 17 C.F.R.
§ 230.602 [, which] provides an exemption from registration under the Securities Act . . . for securities
issued by certain small business investment companies and business development companies.” Id. at p. 4.
BofA also requested an exemption from Section 9(a) of the Investment Company Act of 1940, which
would have automatically disqualified BofA and its affiliated companies from “serving or acting in
specified capacities for certain registered investment companies” upon entry of the injunction. Id. at pgs.
5-7. The Division of Investment Management recommended that the Commission grant the requested
waivers and exemptions. Id. at p. 7.
                                                    40 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 objectives of the 2005 securities offering reform
                 amendments because Bank of America would lose the
                 ability to access the public markets on an immediate basis,
                 thereby increasing its cost of capital”; (6) “[d]isqualifying
                 Bank of America would be unduly and disproportionately
                 severe since it would impose a substantial penalty not
                 contemplated under the terms of the Final Judgment since
                 Bank of America relies on securities offerings, often at a
                 moment’s notice, as its primary funding source in addition
                 to deposits . . . the loss of WKSI status would have
                 significant negative consequences on Bank of America and
                 its shareholders”; and (7) “[d]isqualification would be
                 fundamentally inconsistent with bank regulators and other
                 governmental bodies’ efforts to stabilize the financial
                 markets at a time of severe ongoing challenges to the
                 economy.”

Exhibit 35 at p. 2.

        In this case, the alleged violation of the proxy solicitation rules was
                                                                               CF Supv 1
related to BofA’s own disclosures. Id. at p. 3. Therefore, according to the
                                  who was tasked with deciding WKSI waiver requests for
Corporation Finance, BofA did not meet the “traditional criteria” for granting a WKSI
waiver. CF Supv 1    Testimony Tr. at pgs. 103-104, 112-114.

       In support of its safe harbor waiver request, BofA made arguments similar to
those made in pursuit of the WKSI waiver. For example, BofA argued that:

                 (1) “[t]here is no connection between the alleged
                 misconduct and the integrity of forward-looking statements
                 made by it or any of its affiliates;” (2) BofA “has a strong
                 record of compliance with the securities laws and fully
                 cooperated with the staff’s investigation into this matter;”
                 (3) “[t]he disqualifications are not necessary given the
                 nature of the conduct, which involved no intentional or
                 willful misconduct by [BofA], occurred in the context of an
                 ‘extraordinary merger during a time of unprecedented
                 market conditions, and related to a merger proxy vote
                 rather than a typical securities issuance or in the regular
                 course of [BofA’s] or any of its affiliates’ businesses;’” and
                 (4) BofA “and its affiliates are ‘established and reputable
                 entities’ within the financial industry.”

Exhibit 35 at p. 4. Just as with the WKSI waiver request, application of the
Commission’s traditional criteria for safe harbor waiver applications would have resulted
in the denial of BofA’s request. Id.
                                                   41 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



          BofA’s arguments in support of its waiver requests may not have addressed the
 criteria used by the Commission and its operating divisions in making waiver
 determinations because the Commission has not disseminated the criteria to the public, as
                                 CF Supv 1
 this report will discuss below.           Testimony Tr. at pgs. 112-113.

           On July 6, 2009, the Office of Chief Counsel in Enforcement circulated a draft
 action memorandum to the SEC’s operating divisions for comment. E-mail from
ENF Atty 4
           to PII                       et al., dated July 6, 2009, attaching an undated draft
 Action Memorandum Re Bank of America Corporation to the Commission from NYRO,
 attached hereto as Exhibit 40, (“July 6, 2009 Draft Action Memorandum”). In the July 6,
 2009 Draft Action Memorandum, the Enforcement staff recommended that the
 Commission WP, AC, DP, LE
WP, AC, DP, LE




             On July 10, 2009, CF Atty 2                                in Corporation Finance’s
PII
                                 commented on the July 6, 2009 Draft Action
 Memorandum. Exhibit 38. CF Atty 2 stated that it would be WP, DP, AC, LE
DP, WP, AC, LE




                                                    42 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

            On July 13, 2009, the Office of General Counsel also commented on
 Enforcement’s July 6, 2009 Draft Action Memorandum. E-mail from Richard Levine to
 ENF Supv
 3        , dated July 13, 2009, attached hereto as Exhibit 40. In the e-mail, Richard Levine,
 then an Assistant General Counsel, stated that the Office of General Counsel DP, WP, AC, LE
DP, WP, AC, LE




 Exhibit 40.

             D.   Despite Corporation Finance’s Objections, Enforcement
                  Recommended that the Commission Accept a Settlement with BofA
                  that was Contingent upon Regulatory Waivers

         After receiving comments regarding the July 6, 2009 Draft Memorandum, the
 Enforcement staff separated the recommendations regarding BofA’s request for
 regulatory waivers and exemptions into a separate Supplemental Memorandum. E-mail
 from ENF
       3
          Supv
               to Levine et al., dated July 24, 2009 (attaching July 24, 2009 Draft
                                                                                    ENF Supv 3
 Supplemental Memorandum), attached hereto as Exhibit 41. On July 24, 2009,
 circulated a draft version of the Supplemental Memorandum with a cover e-mail stating
 that “the WKSI and Safe-Harbor Waiver issues are still unresolved” and that the team
 “anticipate[s] revising the memo as soon as a final determination is reached on Monday,”
 July 27, 2009. Id. The cover page of the attached July 24, 2009 Draft Supplemental
 Memorandum stated that the recommendation was for the Commission to deny BofA’s
 WKSI waiver request, yet grant the company’s safe harbor waiver request. July 24, 2009
 Draft Supplemental Memorandum (Exhibit 41) at p. i. The document also stated in bold
 type that both of the recommendations were “Subject to Further Review.” Id.

         On July 27, 2009, Corporation Finance submitted extensive comments to
 Enforcement in response to the July 24, 2009 Draft Supplemental Memorandum. E-mail
      CF Supv 1
 from            to ENF Supv 3 et al., dated July 27, 2009, attached hereto as Exhibit 41.
 Specifically, Corporation Finance stated that it found the July 24, 2009 Draft
 Supplemental Memorandum unclear as to whether Enforcement was recommending that
 the Commission grant or decline the WSKI waiver and “unclear as to whether the
                                                    43 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

proposed settlement [was] conditioned on the granting of waivers.” Id. at pgs. 1-2.
Corporation Finance also pointed out that Enforcement staff had not rebutted BofA’s
arguments in support of a waiver. Id. at pgs. 2-3. Notably, Corporation Finance took
issue with Enforcement’s statements that BofA’s “senior management did not knowingly
cause the materially misleading statements in the proxy statement” and that
disqualification would be “unduly severe” to BofA. Id. at pgs. 2-3. Corporation Finance
explained its view as follows:

                   The fact that in-house counsel for [BofA] was involved in
                   the decision not to disclose is evidence that [BofA]’s senior
                   management was involved. Also, it’s our understanding
                   that Enforcement’s decision not to recommend scienter-
                   based fraud violations was made in the context of
                   settlement only. Finally, it seems inconsistent to say
                   disqualification would be disproportionately and unduly
                   severe while at the same time Enforcement views the
                   conduct as egregious enough to warrant a $33 million
                   monetary penalty.

Id. at pgs. 2-3.

           In response to Corporation Finance’s comments on the July 24, 2009 Draft
                                                                                                ENF Supv 3
Supplemental Memorandum, ENF Supv 4                                        e-mailed Rosenfeld,
and ENF Atty 1            that the comments were “odd . . . in that they ignore what we’ve told
them about our posture: that we are ultimately agnostic and will not oppose either course
                                  ENF Supv 4      ENF Supv 3
of action.” E-mail from                        to            dated July 27, 2009, attached hereto as
                ENF Supv 4
Exhibit 42.                     testified that he was “agnostic on the merits as to whether, in fact,
it was appropriate to grant the WKSI waiver.” ENF Supv 4                  Testimony Tr. at p. 71. He
stated, “We didn’t weigh in internally with the Commission or with the folks in the
division saying we think you should grant it for the following reasons.” Id. at p. 72.
ENF Supv 4
               and ENF Atty 1          testified that if the settlement with BofA fell through, they
                                    ENF Supv 4                                ENF Atty 1
were prepared to litigate.                       Testimony Tr. at p. 110;                  Testimony Tr.
at p. 69. However, ENF Supv 4             explained that they did not want the deal to break down
because of the WKSI waiver:

                   Would it have made us happy [if] we didn’t have [a]
                   settlement [because of the] WKSI issue? No. You know, to
                   the extent we thought it was a good settlement on the
                   Enforcement side, the injunction and the penalty and wanted
                   to see it get presented to the Commission and approved by
                   the Commission? Yes. To the extent the whole WKSI thing
                   became an obstacle to that, that decreased our level of
                   happiness, for lack of a better term. . . . [W]e didn’t want the
                   deal to break down.
ENF Supv 4
             Testimony Tr. at pgs. 72-73.
                                                   44 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                          ENF Supv 4
        In contrast to             “agnosticism,” Rosenfeld was very concerned about the
WKSI waiver and feared BofA would not enter into a settlement without it. In a June 26,
               ENF Atty 1    ENF Supv 3
2009 e-mail to                          described Rosenfeld’s state of mind by stating, “I
               ENF Supv 4
stopped off in                          office to let him know about the WKSI issue. He
wasn’t concerned but then David [Rosenfeld] came in and was extremely worried that
                                                         ENF Supv 3
it could be a potential dealbreaker.” E-mail from                   to ENF Atty 1 , dated June
26, 2009, attached hereto as Exhibit 43 (emphasis added).

        Rosenfeld testified that he recalled that the WKSI waiver was an important issue,
stating “I don’t recall a specific time line but I do remember it as being a very, very
important issue.” Rosenfeld Testimony Tr. at p. 38. He explained that for BofA “it was
an issue primarily from a straight economic standpoint. They were concerned if they did
not have a WKSI waiver they would be at a competitive disadvantage in going to the
market.” Id. at pgs. 40-41. ENF Supv 3 had a similar recollection of why the WKSI waiver
was important to BofA: “I think they had to issue a new security to get an infusion of
cash. So, at this point in time, it was very critical to the company to be able to access the
capital markets. So David [Rosenfeld] recognized that it would be an issue to Bank of
            ENF Supv
America.” 3          Testimony Tr. at p. 41.

        The WKSI waiver issue was of such importance to BofA that the settlement
                                                    ENF Supv 3
became contingent on BofA’s receipt of the waiver.             discussed the contingency in
                                      ENF Supv 4            ENF Atty 1
the following July 23, 2009 e-mail to            (copying

                   In the very first paragraph [of the Draft Supplemental
                   Memorandum], we state that [BofA] has indicated that its
                   offer of settlement is contingent on the grant of the
                   requested regulatory waivers. I realize there is sensitivity
                   surrounding this point, but Robin Bergen [from BofA]
                   told IM Supv 1          [from the Division of Investment
                   Management] today that there would be no settlement if
                   Corp Fin didn’t grant the WKSI. The sentence is bolded
                   and in brackets.
                                  ENF Supv   ENF Supv 4
July 24, 2009 e-mail from 3       to                 (emphasis added) (e-mail chain includes
                              ENF Supv    ENF Supv 4
the July 23, 2009 e-mail from 3        to                attached hereto as Exhibit 68, at p. 2.
      ENF Supv 3
            testified that late in the settlement process, BofA “communicated [that a
WKSI waiver was] a deal breaker.” 11
                                       ENF Supv 3
                                                  Testimony Tr. at pgs. 46, 50. Similar to

11                  ENF                                                                ENF Supv 4
   On July 7, 2009, Supv 3 sent an e-mail describing BofA’s position to Rosenfeld and                “I just
had a call with Robin Bergen – primarily relating to the status of BofA’s 9(c) waiver request . . . Robin
mentioned that people at the highest levels of BofA are most focused on the [WKSI] issue – ‘since that is
potentially a deal breaker.’” E-mail from ENF
                                           Supv 3 to Rosenfeld dated July 7, 2009, attached hereto as Exhibit
44. As discussed above, approximately two weeks later, BofA informed an SEC official that “there would
be no settlement if Corp Fin didn’t grant the WKSI.” Exhibit 68 at p. 2.

                                                          45 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

ENF Supv 3
          recollection, the Regional Director of NYRO, George Canellos, testified, “I think
it was clear that [BofA] was not going to do a settlement without a waiver of any
disabilities that they would have under WKSI. It was very important for them to remain
WKSI . . . .” 12 Canellos Testimony Tr. at pgs. 61-62.

        On the morning of July 30, 2009, only hours before the Commission was
scheduled to vote on whether to accept Enforcement’s proposed settlement, Rosenfeld
and the Director of Enforcement, Robert Khuzami, met with BofA and high level
officials from Corporation Finance where BofA sought to persuade Corporation Finance
to grant a WKSI waiver. At the meeting, BofA made a “presentation that was again
focused entirely on the business necessity of obtaining this waiver.” Rosenfeld
Testimony Tr. at p. 44. BofA was willing to settle on the SEC’s terms as long as they got
the WKSI waiver. Id. at p. 43.

                      1.	    The Commission and Corporation Finance Disfavored
                             Contingent Settlement Recommendations

        The issue of whether the BofA settlement was contingent on the WKSI waiver
was an important one because the Enforcement staff was aware that the previous
Commission had been “strongly against being presented with contingent settlement
offers.” E-mail from ENF Atty 4 to Rosenfeld et al., dated July 9, 2009, attached hereto as
Exhibit 45. ENF Atty 4                       in Enforcement’s Office of Chief Counsel,
commented on a draft of the BofA Action Memorandum as follows:

                      Is Bank of America’s offer contingent upon the granting of
                      the waivers? If so, this should be noted in the memo (and
                      you should be prepared to answer questions about this from
                      the Commission – the previous Commission was strongly
                      against being presented with contingent settlement offers,
                      but this Commission has not yet faced the issue).

Id. 13
         ENF Atty 4
                further described the Commission’s view of contingent settlements in
testimony as follows:

                      The previous Commission had made very clear to us that
                      they did not want to consider offers that were contingent

12 ENF Supv 4
                                 recalled that the WKSI waiver “might be a deal breaker, but did not recall
BofA threatening to “pull the settlement.” ENF Supv 4 Testimony Tr. at pgs. 70, 78. However, he testified
that he was not “involved directly” in the WKSI discussions. Id.
13
  On July 23, 2009,ENF
                     3
                         Supv
                              circulated a draft that described BofA’s settlement offer as contingent on a
WKSI waiver. Exhibit 68 at p. 2. In the draft and in her e-mail,ENF  3
                                                                        Supv
                                                                             highlighted the contingency issue
and stated in her e-mail, “I realize that there is sensitivity surrounding this point.” Id.

                                                      46 

    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
    disclosure to third parties. No redaction has been performed by the Office of Inspector General.
    Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                       upon the granting of a waiver. In other words, they didn’t
                       want a company to come forward and say, “Here’s our
                       offer of settlement. Oh, but we’re going to withdraw it if
                       you don’t grant XYZ waiver for us.” . . . I know that they
                       expressed frustration if a waiver was connected to an offer
                       of settlement. . . . They did not like contingent settlement
                       offers.
    ENF Atty 4
                 Testimony Tr. at pgs. 19-24.

           Not only did the Commission historically disfavor contingent settlements,
                                                            CF Supv 1
    Corporation Finance was strongly against them as well.                   Corporation
    Finance’s PII                       , explained in the following exchange why
    Enforcement settlements are not supposed to be contingent upon regulatory waivers:

                       A: 	   The reason for that is it cannot be a condition. . . .
                              Because . . . when the WKSI waivers were put into
                              the rule itself . . . the whole idea is that they [can’t]
                              be negotiated out, okay? They [weren’t] to be . . . a
                              [chip] that you use to settle. Either you violated it,
                              or you haven’t violated it. . . . And you either got
                              the requirement or you don’t. You didn’t want it to
                              become a bargaining tool. Otherwise, what’s the
                              point of having a waiver? We might as well just
                              take that provision out of there. . . . We didn’t want
                              to get in the middle of being that bargaining thing.
                              So, we decided that, you know, look, it’s either –
                              there are two criteria that you’re going to . . . [meet
                              to] get the waiver.

                                                     *****

                       Q: 	   So you didn’t want companies to be able to
                              negotiate away this –

                       A: 	   No. . . . And we didn’t want it to be eroded.
CF Supv 1
                   Testimony Tr. at pgs. 108-109.

          Then-Associate Director Dubberly also described how allowing Enforcement to
    use WKSI waivers as a bargaining chip in settlements could erode the integrity of the
    WKSI waiver determination in the following exchange:

                       A: 	   [W]e’re never going to win. . . . Enforcement is just
                              never going to care about it as much as Corp Fin
                              does, so if it becomes part of the Enforcement
                                                       47 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                                  negotiating process, it will always be given up.
                                  You’ll always give the waiver because they’re not
                                  going to care as much as we do. It’s just
                                  conceptually not something they are going to worry
                                  about like we do.

                     Q: 	         Corp Fin didn’t want the WKSI waiver to turn into
                                  something that could be negotiated away by
                                  Enforcement in a settlement?

                     A: 	         [T]hat’s been something we have been worried
                                  about throughout the WKSI waiver process.

Dubberly Testimony Tr. at p. 51.

                     2.	          The Contingency of the Settlement Was Not Disclosed in the
                                  Action Memorandum to the Commission
                     ENF Atty 4
        Despite        telling Rosenfeld and the rest of the Enforcement team that any
contingency in the proposed settlement with BofA should have been included in the
Action Memorandum to the Commission, neither the final Action Memorandum nor the
final Supplemental Memorandum disclosed that the settlement was contingent upon the
WKSI waiver. See July 20, 2009 Action Memorandum (Exhibit 21); July 28, 2009
Supplemental Action Memorandum (Exhibit 35).

           After the Enforcement staff received ENF Atty 4   comment, a subsequent draft of the
 Supplemental Memorandum did describe the settlement as contingent. See E-mail from
ENF Supv 4       ENF Supv
              to 3        dated July 27, 2009, attached hereto as Exhibit 47. However, during
 the process of editing the action memorandum for the Commission, Rosenfeld deleted
 that information. Id. His deletion of that information caused ENF  3
                                                                      Supv
                                                                           some concern as she
 expressed in the following July 27, 2009 e-mail exchange:
       ENF Supv 3




                     Did I tell you the memo no longer states that the offer is
                     contingent on the waivers – I’m a bit concerned about
                     that.
        ENF Supv 4
                            [responding one minute later]:

                     Yes, I saw that David made that deletion.

Id.




                                                      48 

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                            ENF Supv 3

         In testimony,       explained why she believed that the contingency of the 

  settlement should have been disclosed to the Commission in the Supplemental
  Memorandum:


                     A: 	     Well, I think that – if I was understanding [what]
                              Bank of America’s position was [then] we didn’t
                              have a settlement unless they got the WKSI. My
                              thought was that everyone should know about that,
                              that the Commission certainly should know about
                              that when reading the authorization, the memo was
                              directed towards them. My experience here is that
                              we just make sure they are aware of all of the
                              relevant facts. And in my mind, that was a relevant
                              fact.

                     Q: 	     And why did you feel that was relevant?

                     A: 	     Well, because I had been told that ordinarily, we
                              don’t make recommendations that are contingent on
                              any – have any contingencies.
  ENF Supv                                   ENF Supv 3
  3         Testimony Tr. at pgs. 63-64.          did not recall further discussion with
  ENF Supv 4
                about the deletion issue and did not recall him raising the issue with Rosenfeld.
  ENF Supv
  3         explained that “I raised it to my supervisor and I don’t think I [said] anything
  beyond that.” Id. at p. 64. ENF Supv 4     did not recall taking any action in response to
  ENF Supv 3
              e-mail. ENF Supv 4  Testimony Tr. at pgs. 88-89.

          Although disclosure of the contingent nature of the settlement was not made in
  the Action Memorandum, the Commission was clearly apprised of the conditional nature
  of the settlement DP, AC, LE
DP, AC, LE




DP, AC, LE
                                DP, AC, LE
                                                               Verbal disclosure of a crucial
  and controversial point                                     is, however, not necessarily a
  substitute for fulsome disclosure in the requisite Action Memorandum.

               E.	   After Meeting with BofA on the Morning of the Commission Meeting,
                     Corporation Finance Decided to no Longer Oppose BofA’s Request
                     for a WKSI Waiver

         Up until the morning of the July 30, 2009 Closed Commission Meeting, it
  appeared that Corporation Finance would continue to deny BofA’s request for the WKSI
  waiver. Rosenfeld stated that members of Enforcement had “had a number of
                                                           CF Supv 1
   CF Atty 2
  conversations with the folks in [C]orporation [F]inance,
                                                          49 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

CF Atty 3
              and at some point Brian Breheny, who was the deputy there . . . [and] [t]hey
 were very negative on the possibility of granting a WKSI waiver. . . . [T]hey were
 unwilling to budge off of this.” Rosenfeld Testimony Tr. at pgs. 42-44. A few days
 before the Commission meeting, ENF Supv 3 expressed the belief that BofA would not receive
 the requested waivers. In an e-mail to the Office of General Counsel, Corporation
                      ENF Supv
 Finance and others, 3         wrote that “We’ve reached out to Bank of America’s counsel
 and communicated to them that the WKSI and safe-harbor waiver requests will almost
 certainly be denied. They are supposed to let us know by tomorrow morning whether
                                                                   ENF Supv
 they plan on withdrawing their settlement offer.” E-mail from 3            to CF Supv 1 et al.,
 dated July 27, 2009, attached hereto as Exhibit 48.

        The final version of the Supplemental Memorandum that was circulated to the
 Commissioners stated on the cover page that the recommendation was to “Deny Bank of
 America’s requests” for the WKSI and safe harbor for forward-looking statements
 waivers and grant BofA’s other requests for regulatory relief. Exhibit 35 at p. i.
 However, only hours before the Closed Commission Meeting, Khuzami, Rosenfeld, and
 head officials from Corporation Finance – including Tom Kim, Chief Counsel, and Brian
 Breheny, then-Deputy Director for Legal and Regulatory Policy – met with
 representatives of BofA, including the former General Counsel of the SEC Giovanni
 Prezioso. E-mail from ENF
                        3
                           Supv
                                to ENF Atty 1  dated July 29, 2009, attached hereto as
 Exhibit 49.

         At a meeting with BofA and Enforcement on the morning of the July 30, 2009
 Closed Commission Meeting, Corporation Finance altered its view of BofA’s WKSI
 waiver request. Rosenfeld Testimony Tr. at pgs. 45-46. According to Enforcement
 attorneys, BofA convinced Corporation Finance of the potentially devastating impact of
 losing its WKSI status.ENF Supv 3 Testimony Tr. at pgs. 53-54;ENF Atty 1     Testimony Tr.
 at pgs. 86-87. Enforcement Director Khuzami recalled that at the morning meeting,
 BofA argued that the dire state of the financial markets made it critical that it be able to
 raise money quickly:

                  But at the meeting the point that Bank of America made
                  [was] . . . given the circumstances of the need to [raise]
                  financing at that point in time, because they were under
                  financial stress as they put it, the ability go in quickly was
                  particularly important at that time. And so it’s a
                  combination of would [we] be at [a] disadvantage to our
                  competitors, and in light of the financial strain in general,
                  it’s a particularly inopportune time to deny us that status.

  Khuzami Testimony Tr. at pgs. 112-113.

       Rosenfeld recalled in the following quote that after the meeting with BofA,
 Corporation Finance agreed to grant BofA a conditional WKSI waiver that the
 Commission could revoke under certain circumstances:

                                                    50 

   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
   disclosure to third parties. No redaction has been performed by the Office of Inspector General.
   Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                         Subsequent to that meeting, the Division of Corporation
                         Finance decided that they might be able to live with some
                         form of a WKSI waiver. They completely just changed
                         their minds on it and in the conversations we had with
                         them, Tom [Kim] said he was convinced by some of their
                         arguments about competitiveness. There was still some
                         considerable consternation on their [part] and some worry
                         about this. And so they tried to craft a modified WKSI
                         waiver which would allow them basically to call back the
                         waiver if certain things happened. So it was kind of like
                         being on probation.

   Rosenfeld Testimony Tr. at pgs. 45-46.
                                              DP, AC, LE
                Consequently, Enforcement
DP, AC, LE




DP, AC, LE
            See Minutes of July 30, 2009 Closed Commission Meeting, attached hereto as
   Exhibit 46, at pgs. 8-9.

                         1.	    Corporation Finance Considered BofA’s TARP Status in
                                Making Its Final WKSI Recommendation

            The modified recommendation regarding BofA was the first time Corporation
   Finance did not oppose outright the grant of a WKSI waiver where the company did not
   meet the traditional criteria for the waiver. CF Supv 1 Testimony Tr. at p. 116. Members
   of Corporation Finance explained that BofA’s status as a TARP recipient played a part in
                                                             CF Supv 1
   the Division’s decision not to oppose the WKSI waiver.               stated that although
   BofA did not meet the “traditional criteria” for a WKSI waiver, the Division “reluctantly
   [thought] that we . . . would throw it to the Commission and not oppose the WKSI waiver
   . . . because of the fact that the company needed to go into the market . . . they needed to
   raise an enormous amount of money” and “pay back” TARP. Id. at pgs. 112-113.
             CF Atty 2
               had a similar recollection that Corporation Finance’s ultimate decision not to
   oppose the grant of a WKSI waiver was, at least in part, based on BofA’s status as a
   TARP recipient:

                         My understanding was that – that there was some deference
                         given to the fact that the company was a TARP recipient
                         and that it was, you know, the difficult financial times, and
                         that we didn’t want to interfere with their ability to compete
                         with other banks; that it would not be in the interest of the
                         market or investors to prevent them from getting to the
                         market as quickly as their competitors. . . . Enforcement
                         may have been trying to convince us that it was appropriate
                                                           51 

   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
   disclosure to third parties. No redaction has been performed by the Office of Inspector General.
   Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                        to grant it for the reasons relating to the TARP money –
                        and the economic situation, financial, that there should be a
                        way to get outside boundaries of those two narrow
                        exceptions . . . .
CF Atty 2
            Testimony Tr. at pgs. 42-43, 53-54.
            CF Atty 2
                was not convinced by BofA’s financial distress arguments, but believed that
   she was in the minority. Id. at p. 47. She explained that she felt DP, LE
  DP, LE




                                                  DP, LE
                        A: 
     I didn’t want
                               DP, LE




                        Q:
      Because you felt DP, LE
                               DP, LE



                                         DP, LE
                        A: 
     Yeah.
                               DP, LE




                                                    DP, LE
                        Q:       Right, and you
                                DP, LE




                        A:

   Id. at pgs. 46-47.

           In Section VIII below, the OIG thoroughly analyzed the issue of whether conflicts
   of interest identified by Congressman Cummings relating to BofA’s status as a TARP
   recipient arose in connection with the SEC’s Enforcement action and found that
   Corporation Finance’s decision to recommend a WKSI waiver to BofA notwithstanding
   that BofA did not meet the criteria traditionally applied by Corporation Finance for a
   WKSI waiver, was an example of the SEC considering a TARP firm’s viability and the
   potential systemic risk to the financial industry in connection with the SEC’s
   Enforcement action against BofA.

                                                             52 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 2.	      Corporation Finance May Have Been Concerned the
                          Commission Would Grant BofA a WKSI Waiver Even if
                          Corporation Finance Opposed It

         In addition to the arguments BofA made at the July 30, 2009 meeting about its
need to raise capital quickly, Corporation Finance’s decision not to oppose BofA’s
request for a WKSI waiver may have been influenced by concern that if they did not
relent, the Commission would grant BofA the waiver without imposing any conditions.
The Commission took such action in a matter decided under the previous Chairman. In
the case of In the Matter of Tenet Healthcare Corp., LA-2658 (April 19, 2007), the
company did not meet the traditional criteria for either WKSI or safe harbor waivers, yet
the Commission granted the company the requested safe harbor waiver and “[d]irected
                                                         CF Supv 1
[Corporation Finance] to grant the [WKSI] waiver.”                 Testimony Tr. at p. 107;
Letter from CF Supv 1          to Jay P. Lefkowitz, re In the Matter of Tenet Healthcare
Corp., LA-2658, granting relief from WKSI disqualification (April 19, 2007) and
Securities Act Release No. 8792, order granting relief from safe harbor disqualification,
attached hereto as Exhibit 50.

       As witnesses from Corporation Finance testified, after delegating the authority to
make WKSI waiver determinations to Corporation Finance, the Commission “went over
our heads before [Corporation Finance] had a chance to deny” the company’s waiver
         CF Atty                         CF Supv 1
request. 2       Testimony Tr. at p. 53;           Testimony Tr. at p. 107. Members of
                                                   CF Supv 1
Corporation Finance were “not happy about it.”               Testimony Tr. at p. 107.

        Dubberly stated that Corporation Finance was concerned that if the Commission
overruled Corporation Finance and granted WKSI waivers without regard to the
traditional and objective criteria that Corporation Finance followed, the WKSI waiver
process would become arbitrary:

                 [The Commission was] pushing to try to have us grant
                 [waivers] more often, and we were nervous it was going to
                 turn into some sort of, you know, we’re just picking and
                 choosing. You know, we had this bright line. . . . You want
                 something that’s objective so it’s not sort of at the whim,
                 and “whim” is too strong a word, but you know, you don’t
                 want it to be just loosey-goosey, for lack of a better way of
                 describing it. . . . [I]t’s a big deal to be a WKSI, and you
                 should be a good company if you’ve got it. You don’t get
                 it if you get charged with one of these or you agree to it.
                 That was in the rule and we should only carve out the rule,
                 you know, if there is really good reason. By now, it wasn’t
                 in black and white. It wasn’t really clear what the
                 Commission wanted to do with WKSI waivers.

Dubberly Testimony Tr. at pgs. 49-50.
                                                   53 

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                                                                                            DP, AC, WP, LE
             As discussed in the following section, the Office of General Counsel
DP, AC, WP, LE

DP, AC, WP, LE
                        See generally Exhibit 39, Memorandum to the Commission from Office
 of General Counsel, Re In the Matter of Merrill Lynch & Co. (NY-7842) (July 29, 2009). 

 In a memorandum to the Commission, the Office of General Counsel referred specifically 

 to the
DP, AC, WP, LE
DP, AC, WP, LE
                                           Id. at pgs. 2-3. The memorandum then explained that the 

 Commission should 
        DP, AC, WP, LE

DP, AC, WP, LE
                       . Id. at p. 3.

             F.	    The Lack of Clarity and Consistency in Waiver Determinations Was a
                    Concern DP, AC, WP, LE

             At the July 30, 2009 Closed Commission Meeting,DP, AC, WP, LE
DP, AC, WP, LE
                                                       At the meeting, Enforcement
DP, AC, WP, LE




 DP, AC, WP, LE
                                                                At the July 30, 2009
  Closed Commission Meeting, Rosenfeld requested that the Commission DP, AC, WP, LE
 DP, AC, WP, LE



  DP, AC, WP, LE
                      The proposed settlement with BofA changed only with respect to
  the WKSI waiver. Exhibit 35 at p. i; Exhibit 46 at pgs. 8-9. DP, AC, WP, LE
  DP, AC, WP, LE




        Corporation Finance was questioned at the June 30, 2009 Closed Commission
  Meeting about the WKSI waiver. ENF    3
                                            Supv
                                                 Testimony Tr. at pgs. 61, 63. At the meeting,
                             DP, AC, WP, LE
  Corporation Finance stated
DP, AC, WP, LE



DP, AC, WP, LE	
                                                                       Corporation Finance staff
  emphasized that BofA DP, AC, WP, LE
DP, AC, WP, LE

DP, AC, WP, LE
                                    In addition, creditors were pushing BofA to raise capital
  very quickly. Exhibit 69 at p. 2. Corporation Finance staff further stated DP, AC, WP, LE
DP, AC, WP, LE




                                                     54 

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
DP, AC, WP, LE




          The recommended clawback would allow the Commission to terminate BofA’s
  WKSI waiver if Corporation Finance had reason to believe that BofA’s filings were not
  reliable. Id. In response to questions from the Commissioners, Corporation Finance staff
DP, AC, WP, LE




                                                     DP, AC, LE
               The Commissioners expressed 

DP, AC, LE
                 Specifically, Rosenfeld recalled the following: 

                         DP, AC, LE




                                             ENF Supv 4
  Rosenfeld Testimony Tr. at p. 47.                               recalled that DP, AC, LE
 DP, AC, LE

 DP, AC, LE                                                 ENF Supv 4
                                                                           Testimony Tr. at p. 97.
 DP, AC, WP, LE




              OGC Supv
                                                                                 emphasized the view of the
                                             DP, AC, WP, LE
  Office of General Counsel that it
DP, AC, WP, LE
                                                                             In a memorandum to the
                         OGC Supv                         DP, AC, WP, LE
  Commission                          explained that,
DP, AC, WP, LE




                                                              55 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
               DP, AC, WP




Exhibit 39 at p. 3.

            At the end of the Closed Meeting, the Commissioners approved the recommended
 civil injunctive action against BofA by a vote of DP, AC, LE
DP, AC, LE
                     Exhibit 46 at p. 10. The Commissioners also granted Enforcement’s request
 for standby authority to grant BofA a conditional WKSI waiver by a vote of DP, AC, LE
DP, AC, LE
                                                           Id. In an e-mail to PII     NYRO
                             ENF Atty 2
 Enforcement staff,                                                       described the results of
 the Closed Meeting as follows: “The staff’s recommendation for [a] settled enforcement
 action against BofA for proxy fraud . . . was approved by executive session (the sensitive
 aspect: the controversial request for an exemption from the ‘widely held’ issuer
 disqualification – a deal breaker) was approved DP, AC, WP, LE                       See E-mail
          ENF Atty 2       ENF Supv 6
 from                   to                    et al., dated August 3, 2009, re “Gleanings from
 7/30 Closed SEC Meeting,” attached hereto as Exhibit 51; ENF Atty 2             Testimony Tr. at
 pgs. 13-16.

       Although the Commission voted to approve the grant of a conditional WKSI
waiver, BofA neither needed nor received the waiver because an antifraud injunction was
never entered. Judge Rakoff rejected the first proposed settlement, and the second
settlement did not include an injunction, as described below.

        G.       Recommendations for Improved Commission Waiver Practice

        Notwithstanding that the waiver issue became moot in this case, the OIG
investigation uncovered potential concerns about the clarity and consistency of the
Commission’s waiver practice. The OIG found that the Commission has not clearly
stated what criteria should be applied in making waiver determinations and has not
apprised the public of how waiver determinations are made in a policy statement nor
articulated its reasoning in its written waiver determinations. See generally Exhibit 50
and Exhibit 69.

         The OIG found that the traditional criteria for determining WKSI waiver requests
were not applied to BofA. In this case, BofA clearly did not meet the SEC’s traditional
criteria as BofA’s alleged fraud was related to its own disclosures. Nonetheless,
Corporation Finance agreed to recommend that BofA receive a conditional WKSI waiver
based upon a new concern that in this economic environment denying BofA a WKSI
waiver could have an adverse impact on BofA and the entire market. We found that
BofA was not the first issuer to receive waivers when they did not meet the traditional
criteria. We found that the Commission had previously granted an issuer a safe harbor
waiver and directed Corporation Finance to grant the issuer a WKSI waiver where the
company did not meet the traditional criteria for waiver. In addition, we found that the
SEC’s general policy was to deny or grant WKSI and safe harbor waivers in tandem.
Yet, in this case, the Commission acted in an inconsistent manner as it related to its prior
                                                   56 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

practice, by agreeing to grant BofA a WKSI waiver while denying it a safe harbor
waiver. We further found that these decisions to depart from the general practice were
made with regard to the particular factual circumstances of a specific company, rather
than due to an overall reconsideration of the policy. Moreover, we have not found
written documentation explaining why the Commission departed from the SEC’s general
policy in these particular cases.

        The Office of General Counsel has repeatedly encouraged the Commission to
establish waiver criteria and to apply it consistently. Exhibit 39. While the Commission
has flexibility in making waiver determinations, its discretion is reviewable. Id. The
OIG understands that federal courts may find waiver decisions to be arbitrary and
capricious where the agency fails to describe the criteria it uses in making waiver
determinations and to explain how the criteria applied to the applicant. See generally
Exhibit 39 and Exhibit 69 at pgs. 3-4. This may also occur in situations where the
decision is inconsistent with prior determinations and the agency does not explain its
rationale for the departure. Id. The OIG recommends, therefore, that Corporation
Finance: (1) create clear criteria for making waiver determinations; (2) disseminate the
guidance both internally and externally; and (3) in cases where the waiver decision
departs from the stated criteria, articulate in a written decision or order the rationale for
its departure.

IV.          ENFORCEMENT REACHED SECOND SETTLEMENT WITH BOFA

       After the Court rejected the SEC’s first proposed settlement with BofA on
September 14, 2009, the NYRO Enforcement staff immediately started preparing for trial
while simultaneously continuing settlement talks with BofA. In preparation for trial, a
new NYRO Enforcement team was assembled, consisting of ENF Atty 3
             ENF Supv 1

ENF Supv 5
                                                   and NYRO Regional Director Canellos.
ENF Atty 1
               from the first team, was also on the second team. ENF Supv 1 Testimony Tr. at
pgs. 18-19. The second team’s work on the case continued from the date of Judge
Rakoff’s Memorandum Opinion until a second proposed settlement was reached with
BofA on February 4, 2010. The second proposed settlement consisted of two sets of
charges filed against BofA in federal court for violations of Exchange Act Section 14(a)
and Exchange Act Rule 14a-9 thereunder: the first being the previously-filed charge that
BofA failed to disclose in its joint proxy statement with Merrill an agreement allowing
Merrill to grant nearly $6 billion in year-end bonuses to company executives; and the
second being the later charge of “failing to disclose the extraordinary losses that Merrill
sustained in October and November 2008,” which was filed January 12, 2010. See
generally February 4, 2010 Litigation Release titled Bank of America Agrees to Pay $150
Million to Settle SEC Charges, attached hereto as Exhibit 34. As was the case with the
first proposed settlement, the SEC did not charge any corporate officers with misconduct.

        The second proposed settlement was approved by Judge Rakoff on February 22,
2010, and consisted of: (1) a civil monetary penalty of $150 million with a distribution
plan to be proposed at a later date; (2) seven remedial undertakings that BofA was
                                                   57 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

required to implement and maintain for a period of three years; and (3) a Statement of
Facts describing the details behind the allegations in the actions based on the discovery
record. Id. at pgs. 1-2.

        A.        The Second Team Worked Both to Litigate and Settle the Case

                  1.	          The Second Team Conducted Extensive Discovery and Added
                               a New Charge Under Exchange Act Section 14(a)

        In the aftermath of Judge Rakoff’s rejection of the SEC’s first proposed
settlement, NYRO Enforcement was required to assemble a second team in short order –
a team that included litigators as well as investigators. A September 23, 2009 e-mail
      ENF Supv 5
from             to a NYRO staff member communicated the urgency of the situation:
              NYRO Staff   ENF Supv 1
                                     and I just got assigned to Bank of
                  America. You may have heard, Judge Rakoff rejected the
                  settlement and ordered the case to trial March 1, with
                  expedited discovery commencing immediately. We need to
                  take 20 to 30 depositions. This case is being watched by
                  the Chairman’s office. We need an RQ to fund all
                  depositions (many of which will be video depos). We need
                  at least $50k funding now. [How] much can you get[?] I
                  need a general litigation expenses RQ for this case ASAP.
                  Your help is much appreciated.
                                        ENF Supv 5     NYRO Staff
September 23, 2009 e-mail from
                      to
                  attached hereto as Exhibit 

52.

        To prepare for litigation in case the matter could not be settled, the second team
engaged in extensive discovery, including deposing a significant number of witnesses in
a short period of time, as the following excerpt from the staff’s January 28, 2010 Action
Memorandum to the Commission states:
              DP, AC, WP, LE




January 28, 2010 Action Memorandum (attachments not included) titled In the Matter of
Merrill Lynch & Co., Inc. Subprime Mortgage Portfolio (NY-7842), attached hereto as
Exhibit 53, at p. 3. While preparing for trial, the second team decided to add a new
                                                     58 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

charge to the existing Exchange Section 14(a)/Exchange Act Rule 14a-9 charge against
BofA. The new charge – that BofA violated Exchange Act Rule 14a-3 – was based on
the theory that BofA’s failure to file all required information as part of its joint proxy
statement with Merrill violated the Rule. As Canellos stated in an e-mail to the members
of both teams, Khuzami and Deputy Director of Enforcement Lorin Reisner:

                 Please give some thought to whether we ought to be adding
                 to the [BofA] complaint a charge under Rule 14a-3. A
                 charge under Rule 14a-3 would be essentially predicated on
                 the allegation that B of A failed to discharge affirmative
                 disclosure duties created by SEC regulations governing
                 proxy solicitation. . . . If this analysis is correct,
                 [BofA]/Merrill was required to file all information in the
                 disclosure schedule unless the information was immaterial
                 or disclosed in the merger agreement itself. . . . If we are
                 going to a jury with this case, I am hard pressed to think
                 why we would not add a count under Rule 14a-3 and give
                 ourselves the opportunity to establish liability under such a
                 lenient and uncomplicated standard.
                                   ENF Atty 3
October 19, 2009 e-mail from               to Canellos et al., (chain includes October 18,
2009 e-mail from Canellos quoted above), attached hereto as Exhibit 54, at pgs. 2-3.
Canellos similarly testified that he made the decision to add this new charge because:

                 When I became involved in the case actively it was close to
                 the deadline for amendment of the existing complaint as of
                 right, and we were in a contested litigation and the only
                 charge that was included in the original complaint, which
                 was [contemplated] to be a settled action, was a charge
                 under Rule 14a-9 of the 1934 Securities Exchange Act,
                 which proscribes deceptive conduct making
                 misrepresentations or making misleading statements in
                 connection with a proxy. And I felt that from a litigation
                 standpoint a charge under Rule 14a-3, which is a very
                 similar charge, would be well-founded in the law and put
                 us in a better litigation position.

Canellos Testimony Tr. at pgs. 15-16.

       On October 19, 2009, the second team received Commission authorization,
through expedited action, to amend the existing complaint against BofA to include a
charge for violating Exchange Act Rule 14a-3. Later that day, the staff filed the amended
complaint. See generally October 19, 2009 e-mail from Reisner to Sr Adv
                          et al., and attached October 19, 2009 Action Memorandum and
signed Amended SEC Complaint, attached hereto as Exhibit 55.

                                                   59 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 2.	            The Second Team Brought a Second Case Based on Failure to
                                Disclose Fourth Quarter Losses Suffered by Merrill

       After amending the complaint to add the Exchange Act Rule 14a-3 charge against
BofA, the second team brought a second case against BofA for its alleged failure to
disclose significant fourth quarter losses suffered by Merrill. In its January 28, 2010
Action Memorandum to the Commission, Enforcement staff described the new “Q4
Losses Action” as follows:
               DP, AC, WP, LE




Exhibit 53 at pgs. 3-4. As discussed earlier in this report, Khuzami once was skeptical
whether a second case would be brought at all. However, as Canellos explained to the
OIG, this became a critical issue, and Canellos stressed to the team the need to develop
the facts to bring any and all potential cases together:

                 My concern, however, was that the laws of res judicata
                 might require us . . . to bring any and all claims that we
                 have relating to proxy disclosure in this case or suffer
                 preclusion of ever being able to bring them again. So that
                 you know in a litigated context we don’t have the leash any
                 longer to separately investigate this in a separate
                 investigation. If we’re ever going to bring other claims
                 related to this proxy we may need to bring them now. . . .
                 And so I very much wanted people to accelerate and fold
                 into the discovery in this case scrutiny of that issue.

                 Q:             So they kind of ramped up their investigation on the
                                losses issue after that discussion?

                 A:             I don’t know about ramping it up. I don’t know to
                                what extent there had been much investigation
                                about it before. But we all when we were talking
                                about strategy for discovery, it was very important
                                                     60 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                          to focus on this issue because it might present the
                          basis for amendment of the complaint. And I was
                          saying this is it, don’t start thinking we’re going to
                          be bringing a case a year from now. If it’s
                          meritorious it should be brought now.

                 Q:       So an investigation was conducted and eventually I
                          guess the first thought was to amend the complaint,
                          but then as a procedural matter you weren’t able to
                          amend the complaint so a separate action was
                          brought with Judge Rakoff in . . . a related case?

                 A:       Correct.

Canellos Testimony Tr. at pgs. 47-49.

         On December 18, 2009, Canellos (by phone) and others (including Khuzami and
 representatives from Corporation Finance) met with Chairman Schapiro about settlement
 issues, including adding the charge of BofA’s failure to disclose Merrill’s losses, DP,
 AC
DP, AC                                                       ENF Supv 5    ENF Supv
                           December 19, 2009 e-mail from
               to 1        et al.,
 (chain includes December 18, 2009 e-mail from Canellos to members of both BofA
 teams discussing the Chairman’s meeting), attached hereto as Exhibit 56, at p. 2. As will
 be discussed below, this additional charge, which ultimately was filed as a second case
 due to procedural issues, was critical to the second proposed settlement with BofA
 because it created (along with Judge Rakoff’s rejection of the first proposed settlement)
 the leverage necessary to demand a larger civil monetary penalty from BofA and
 enhanced the prospect for a Fair Fund distribution to injured investors.

                 3.       The Second Team Focused Intently On Charging Individuals

           A critical difference of the second team’s approach to the BofA settlement from
 that of the first team was the amount of attention paid to the issue of charging individuals.
 As discussed earlier in this report, a central theme of Judge Rakoff’s September 14, 2009
 Memorandum Opinion was his concern with the SEC’s decision not to charge individuals
 in its first proposed settlement. Although at the end of the day the second team decided –
 as did the first team – not to charge individuals, the second team made great efforts
 look closely at individuals to determine if charges could be brought. For example,
ENF Supv 1
                           wrote an e-mail on October 31, 2009 expressing his belief th

                 [T]he theme of our case has got to be that the company’s
                 negligence is rooted in [L]ewis’ (and possibly others’)
                 decision to completely remove himself from the disclosure
                 process and to delegate everything to counsel. . . . For these
                 reasons, I am in favor of amending [the complaint] to name
                 at least him. I don’t see how our case is internally
                 consistent otherwise.
                                                   61 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                                             ENF Supv 5
 November 1, 2009 e-mail from                        to Canellos et al., (chain contains October 31,
                        ENF Supv
 2009 e-mail from 1              to others on BofA team from which the above quote was taken),
                                              ENF Supv 1

 attached hereto as Exhibit 57, at p. 3.
                 who ultimately concluded that individuals
 should not be charged in this case, testified to the OIG that although he changed his view
 as he learned more about the case, he first went through a process “several times in the
 case” whereby ideas were “banter[ed] back and forth.” ENF Supv 1 Testimony Tr. at p. 27.
ENF Supv 1
           also testified that “there was consideration given to both perspectives” when
 making the final decision on the issue and described in the following exchange the
 discussions about charging individuals:

                     Q: 	      Was there considerable discussion of this issue
                               whether to charge Mr. Lewis individually?

                     A: 	      We discussed this to death, repeatedly, over and
                               over, amongst the trial team as well as with the
                               Chairman’s office.

                     Q: 	      What was the Chairman’s office’s perspective on
                               this?
                                                                           DP, AC, WP, LE
                     A:        I believe at a point in time the Chairman
                            DP, AC, WP, LE




 Id. at pgs. 33, 36-37. As Canellos explained to the BofA team in his December 18, 2009 

 e-mail recounting the Chairman’s settlement meeting, DP, AC, WP, LE
DP, AC, WP, LE

DP, AC, WP, LE
                          Exhibit 56 at p. 2.
        ENF Supv 1
                   assessment of the degree of consideration given to charging individuals 

 was supported by Canellos in both testimony and e-mails. For example, in Exhibit 56 

 immediately above, Canellos wrote to the team about his conference call with the 

 Chairman, DP, AC, WP, LE
DP, AC, WP, LE
                                                                       Id. at p. 2. Canellos
 also testified in the following exchange:

                     Q: 	      So is it fair to say from the time you were involved
                               in the Bank of America case after Judge Rakoff had
                               rejected them for a settlement, that you certainly
                               wanted the team to explore every possible avenue to
                               potentially bring a claim against individuals?

                                                          62 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 A:       Yes.

                 Q:       And the team did explore it, there was a lot of
                          discussion and back and forth and brainstorming to
                          try to come up with an appropriate charge, but that
                          you and the others determined that there simply
                          wasn’t a factual and legal basis to bring a claim
                          against individuals?

                 A:       That’s correct.
                        DP, AC, WP, LE
                 Q: 





                 A:       That’s correct.

Canellos Testimony Tr. at pgs. 26-27. Khuzami also spoke to the thoroughness of the
second team’s analysis of whether to charge individuals in the following exchange:

                 Q:       Okay. And so is it fair to say that this was
                          something that was discussed, in terms of the
                          possibility of bringing an action against individuals,
                          and it got a full airing and discussion, and it was
                          determined not to go forward with?

                 A:       There was a great deal of debate about whether or
                          not we could charge individuals.

                 Q:       Okay. And so the timeframe you’re talking [about]
                          is after the first settlement was rejected?

                 A:       Yes.

                 Q:       Okay. And so you feel comfortable that within that
                          timeframe every effort was made to see if the case
                          could be brought against individuals, there was a
                          great deal of analysis, and the conclusion that the
                          SEC [reached] to charge individuals was the correct
                          one?

                 A:       Yes.
                                                   63 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 Q:       And you participated in that on some level?

                 A:        Yes.

Khuzami Testimony Tr. at pgs. 116-117.

         Finally, the second team did not appear confused about whether individuals could
be charged as direct violators of Exchange Act Section 14(a) and Exchange Act Rule
                                    ENF Supv
14a-9 thereunder. Specifically, 1            testified that, when considering whether to charge
former BofA CEO Ken Lewis, he was considering charging him with direct violations of
                            ENF Supv 1                                ENF Atty 3

Section 14(a)/Rule 14a-9.              Testimony Tr. at pgs. 27-28. 

testified about a case where she “had a settled matter with an individual . . . who was 

charged with [Exchange Act Section] 14(a) and [Exchange Act Rule] 14a-9 directly.” 

See ENF Atty 3 Testimony Tr. at pgs. 35-39. Similarly, Canellos responded in the affirmative
when asked whether the SEC has charged individuals for direct violations of these
statutes. See Canellos Testimony Tr. at p. 26.

        The OIG has found that, after Judge Rakoff rejected the SEC’s first proposed
settlement, the second NYRO Enforcement team performed a large amount of discovery,
added a new claim to strengthen its litigation position, focused on developing the facts
necessary to file a second case alleging a failure by Merrill to disclose “extraordinary”
fourth quarter losses, and thoroughly considered the issue whether to charge individuals.
In order to re-settle the matter, the second team also made efforts to devise remedial relief
that went beyond the standard “obey-the-law” injunction in which the defendant neither
admits nor denies SEC allegations of wrongdoing, seek a meaningful civil monetary
penalty from BofA, and craft a settlement that would address Judge Rakoff’s concerns
about the first proposed settlement. This report will discuss below the terms and
conditions of the second BofA settlement and the extent to which Judge Rakoff’s
concerns were addressed thereby.

V.      THE SECOND SETTLEMENT AND THE COURT’S SECOND OPINION

       As stated earlier, the SEC reached its second proposed settlement with BofA on
February 4, 2010, and Judge Rakoff approved it on February 22, 2010. According to the
SEC’s February 4, 2010 litigation release, BofA agreed to pay a civil monetary penalty of
$150 million and implement and maintain the following remedial undertakings for a
period of three years:

             •	 Retain an independent auditor to perform an audit of the Bank’s
                internal disclosure controls, similar to an audit of financial
                reporting controls currently required by the federal securities laws.

             •	 Have its Chief Executive and Chief Financial Officers certify that
                they have reviewed all annual and merger proxy statements.

                                                   64 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

               •	 Retain disclosure counsel who will report to, and advise, the
                  Board’s Audit Committee on the Bank’s disclosures, including
                  current and periodic filings and proxy statements.

               •	 Adopt a “super-independence” standard for all members of the
                  Board’s Compensation Committee that prohibits them from
                  accepting other compensation from the Bank.

               •	 Maintain a consultant to the Compensation Committee that would
                  also meet super-independence criteria.

               •	 Provide shareholders with an annual non-binding “say on pay”
                  with respect to executive compensation.

               •	 Implement and maintain incentive compensation principles and
                  procedures and prominently publish them on Bank of America’s
                  Web site.

Exhibit 34 at p. 1. 14 The terms of the second settlement were reached after continued
talks between Enforcement and BofA, which occurred against the backdrop of quickly-
approaching trial dates for both actions (“Undisclosed Bonuses” and “Undisclosed Fourth
Quarter Losses”), and required a coordinated effort between Enforcement and
Corporation Finance. See, e.g., December 11, 2009 e-mail from Canellos to Khuzami
and L. Reisner attaching draft of [BofA] Proposed Undertakings, attached hereto as
Exhibit 58 (“Rob, [a]ttached is a document that lists the potential undertakings that have
emerged from brainstorming among ourselves, with corp fin, and with [BofA]. . . . I have
gone over the whole list of corporate finance, and it reflects their best thinking on
potential undertakings as well”).

         A.	      The Proposed Settlement Would Have Imposed an Injunction on
                  BofA While the Company Continued to Deny Any Wrongdoing

        On February 22, 2010, Judge Rakoff issued his Opinion and Order in which he
“reluctantly” granted the parties’ motion seeking approval of the second Consent
Judgment. February 22, 2010 Opinion and Order of the Honorable Jed S. Rakoff,
U.S.D.J., attached hereto as Exhibit 59 at p. 2. As Judge Rakoff explained, after
considering carefully whether the second proposed settlement was “fair, reasonable,
adequate, and in the public interest,” his decision to approve the settlement “reluctantly”
stemmed from his continued dissatisfaction with certain elements of the proposed
settlement, namely, the amount of the proposed civil monetary penalty and who
ultimately would be responsible for paying it – victimized shareholders. Id. at pgs. 8, 11.


14
  The SEC’s second settlement with BofA also included “a Statement of Facts describing the details
behind the allegations in the actions based on the discovery record,” as well as a distribution plan that the
“Commission [would] propose at a later date.” Exhibit 34 at pgs. 1-2.
                                                      65 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

         The first issue Judge Rakoff addressed was the remedial undertakings proposed
by the SEC. As discussed previously, one of the problems Judge Rakoff expressed about
the first proposed settlement was the standard “obey-the-law” injunction in which the
defendant neither admits nor denies the SEC’s allegations. According to Judge Rakoff in
his September 14, 2009 Memorandum Opinion, “since the Bank contends that it never
made any false or misleading statements in the past, the Court at this point lacks a factual
predicate for imposing such relief.” Exhibit 26 at p. 10. After Judge Rakoff’s rejection,
the second team worked with Corporation Finance in an attempt to craft remedial
measures that would satisfy the Judge while providing a level of prophylactic relief
against future misconduct that the rejected injunction could not. Canellos explained in
the following exchange:

                 Q:       Just generally tell me what were these undertakings,
                          what was the idea behind having these
                          undertakings?

                 A:       We wanted to come up with undertakings that
                          served as remedies for the underlying alleged
                          violation and essentially that created safeguard[s]
                          that, A, improved the areas that we thought were
                          deficient and within Bank of America that
                          explained how this disclosure failure took place,
                          and also impose safeguards to avoid a recurrence of
                          the problem.

                 Q:       So if the purpose of these undertakings, is it fair to
                          say both because this was something that Judge
                          Rakoff would approve of and this would assist in
                          Judge Rakoff approving the second settlement, but
                          also because they were effective measures in
                          providing remedial relief and ensuring that things
                          don’t reoccur?

                 A:       Yes.

Canellos Testimony Tr. at pgs. 34-35. In addition to the stated purpose for these
undertakings, they had the additional effect of allowing the proposed settlement to
proceed without triggering the WKSI provisions that were a source of considerable
discussion during the Commission’s approval of the first proposed settlement. Canellos
addressed this point under questioning in his testimony:

                 Q: 	     [The WKSI waiver] was somewhat of a sticking
                          point and in the end there were several meetings
                          and then Corporation Finance agreed not to oppose
                          the WKSI waiver, and of course it kind of became
                          moot because the judge rejected [the] settlement?
                                                   66 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 A:       Right.

                 Q:       But in the second settlement the injunctions were
                          taken out?

                 A:       Right.

                 Q:       Which obviated the issue with WKSI waivers. I
                          guess I was just wondering was that part of the
                          thinking in terms of getting the [injunctive] relief
                          out? I know you had concerns generally about the
                          [injunctive] relief, I know the judge had concerns
                          about the injunctive relief. So what was the
                          thinking when the second settlement was put
                          together to take out the injunctive relief part?

                 A:       I think it was clear that B of A was not going to do a
                          settlement without a waiver of any disabilities that
                          they would have under WKSI. It was very
                          important for them to remain WKSI, and in
                          connection with the first settlement Corp Fin was
                          supportive of a waiver of any collateral
                          consequences that the “obey-the-law” injunction
                          would have had on their WKSI status, and the
                          Commission ultimately approved that. The second
                          settlement was going to be no different. There’s
                          two ways that you can ensure that B of A’s WKSI
                          status is not adversely affected. One way is to
                          impose an “obey-the-law” injunction but then have
                          the Commission waive the collateral effect of that.
                          Another way is to just not seek the obey-the-law
                          injunction . . . .

Id. at pgs. 61-62.

       Judge Rakoff accepted the proposed remedial measures, and offered the following
assessment of their potential effectiveness in his Opinion and Order:

                 No one can quarrel that these remedial steps are helpful, so
                 far as they go, and may help to render less likely the kind of
                 piecemeal and mincing approach to public disclosure that
                 led to the Bank’s problems in the instant cases. Given that
                 the apparent working assumption of the Bank’s decision-
                 makers and lawyers involved in the underlying events at
                 issue here was not to disclose information if a rationale
                                                   67 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                      could be found for not doing so, the proposed remedial
                      steps should help foster a healthier attitude of “when in
                      doubt, disclose.”

 Exhibit 59 at p. 9. The other significant aspects of the second proposed settlement are
 discussed immediately below.

             B.	      The Court Again Expressed Concern that the Proposed Penalty
                      Amount Was Too Low

          The next issue raised by Judge Rakoff in his February 22, 2010 Opinion and
 Order was a concern he raised in his September 14, 2009 Memorandum Opinion; namely,
 that “[t]he fine, if looked at from the standpoint of the violation, is also inadequate, in
 that $33 million is a trivial penalty for a false statement that materially infected a multi­
 billion-dollar merger.” Exhibit 26 at p. 11. After the first proposed settlement was
 rejected, the second team undertook a settlement process that differed from the first by:
 (1) bringing a second case – BofA’s alleged failure to disclose extraordinary fourth
 quarter losses by Merrill – that would allow Enforcement to seek a larger civil penalty;
 and (2) using additional leverage gained from Judge Rakoff’s first rejection in negotiating
 the larger civil penalty.

           With respect to the first aspect, the second team had the
DP, AC, LE
DP, AC, LE
            (as was the case with the first proposed settlement) in deciding to bring the 

 second case against BofA. In an e-mail during which he recounted DP,      
 AC, LE
DP, AC, LE
                       (in which he participated by phone), Canellos stated that DP, AC, LE
DP, AC, LE

DP, AC, LE
                           Canellos stated further that DP, AC, WP, LE
DP, AC, WP, LE

DP, AC, WP, LE
                 Id. Canellos then added, “As for the $$ of the settlement, there was DP, AC, WP, LE
DP, AC, WP, LE




        The second team recognized also that it had yet more leverage as a result of Judge
 Rakoff’s rejection of the first settlement, and that it was no longer strictly tied to
 precedent in arriving at a higher civil penalty number. Canellos explained in the
 following exchange:

                      Q:      Did you also think that you could use the fact that
                              the judge had thrown out the first settlement as . . .
                              leverage in . . . settlement discussions with Bank of
                              America to get a very favorable settlement for the
                              SEC, maybe even better than you could get if you
                              want by saying, look, we can agree to this but the
                              judge can throw that out too so it’s going to have to
                              be something significantly more than the previous
                              one?
                                                       68 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 A: 	     Sorry to say, I’ll give you a yes and no to that. I do
                          think to some extent our settlement dynamic
                          consisted of like a collaboration with an opponent
                          with a third party silently sitting at the table, and
                          that was the judge, and I think we all knew that no
                          matter what we came up with we had this
                          overriding concern of what would and wouldn’t be
                          acceptable to the judge and that that presented a
                          strong litigation dynamic. There was a big force
                          of influencing settlement discussions. But I
                          would also say that I think we could have pretty
                          much dictated the terms of settlement that we
                          thought were fair within reason . . . So we, when it
                          came to dollar amounts, my view was always I
                          think we should come up with the fair and right
                          number, and then we just dictate it and it will be
                          paid. . . . I think we had huge leverage even without
                          Judge Rakoff, with him, overwhelming leverage.

Canellos Testimony Tr. at pgs. 32-33 (emphasis added). In his February 22, 2010
Opinion and Order, Judge Rakoff expressed a view that the proposed civil penalty
amount was too low, even as he recognized that it was nearly five times the amount
originally proposed:

                 The part of the proposed settlement that presents the
                 greatest difficulty is, however, the penalty package, which
                 essentially consists of a $150 million fine. Though that
                 amount is considerably greater than the $33 million that the
                 Court rejected in the prior proposed settlement of the
                 Undisclosed Bonuses case, it is still very modest in light of
                 the fact that it now covers both cases – that is, all the
                 nondisclosures that were material to the proposed merger
                 with Merrill, a merger that may yet turn out well but that
                 could have been a Bank-destroying disaster if the U.S.
                 taxpayer had not saved the day. From this perspective, the
                 amount of the fine appears paltry.

Exhibit 59 at p. 11. Judge Rakoff also noted that, although the parties to the settlement
proposed a Fair Fund distribution to BofA “legacy” shareholders injured by BofA’s
alleged fraud, “the effect is very modest, amounting perhaps to no more than a few
pennies per share.” Id. at pgs. 12-13.




                                                   69 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        C.	      The Court Expressed Continued Concern that no Individuals Were
                 Charged

         As expressed in his September 14, 2009 Memorandum Order, a significant
concern of Judge Rakoff regarding the first proposed settlement was his belief that,
“since the fine is imposed, not on the individuals putatively responsible, but on the
shareholders, it is worse than pointless: it further victimizes the victims.” Exhibit 26 at
p. 11. Judge Rakoff reiterated this concern in his February 22, 2010 Opinion and Order,
stating:

                 An even more fundamental problem [than the fine amount],
                 however, is that a fine assessed against the Bank, taken by
                 itself, penalizes the shareholders for what was, in effect if
                 not in intent, a fraud by management on the shareholders.
                 This was among the major reasons the Court rejected the
                 earlier proposed settlement. . . . Where management
                 deceives its own shareholders, a fine most directly serves
                 its deterrent purposes if it is assessed against the persons
                 responsible for the deception. If such persons acted out of
                 negligence, rather than bad faith, that should be a
                 mitigating factor, but not a reason to have the shareholder
                 victims pay the fine instead.

Exhibit 59 at pgs. 11-12. As discussed earlier in this report, the second team performed a
focused and thorough analysis of whether a case could be made against individuals, in
contrast to the first team. Moreover, the second team was not confused about whether
individuals could directly violate Exchange Act Section 14(a) and Exchange Act Rule
14a-9 thereunder.

       Judge Rakoff ultimately approved the second proposed settlement while
continuing to voice the following concerns:

                 In short, the proposed settlement, while considerably
                 improved over the vacuous proposal made last August in
                 connection with the Undisclosed Bonuses case, is far from
                 ideal. Its greatest virtue is that it is premised on a much
                 better developed statement of the underlying facts and
                 inferences drawn therefrom, which, while disputed by the
                 Attorney General in another forum, have been carefully
                 scrutinized by the Court here and found not to be irrational.
                 Its greatest defect is that it advocates very modest punitive,
                 compensatory, and remedial measures that are neither
                 directed at the specific individuals responsible for the
                 nondisclosures nor appear likely to have more than a very
                 modest impact on corporate practices or victim
                 compensation. While better than nothing, this is half-baked
                                                   70 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 justice at best. . . . this Court, while shaking its head, grants
                 the S.E.C.’s motion and approves the proposed Consent
                 Judgment . . . .

Id. at pgs. 13-15. Finally, Judge Rakoff did acknowledge that, although the NYAG
“reached a more sinister interpretation of what happened” in deciding to charge two
individuals in connection with BofA’s alleged fraudulent nondisclosure, the Court found
that “after a careful review of voluminous materials,” the SEC acted reasonably in
reaching a different conclusion when proposing its settlement with BofA. Id. at pgs. 4, 8.

           Overall, the OIG has found that the second BofA team put forth considerable
effort to both litigate the case and then craft a settlement proposal that was appropriate
and suitable to the charges brought and also acceptable to Judge Rakoff. To accomplish
this, the second team, among other things: (1) coordinated with Corporation Finance to
devise a set of remedial measures in an effort to address concerns over the standard
“obey-the-law injunction” proposed at first; (2) brought a second case on facts that were
insufficiently developed at the time of the first proposed settlement and, DP, AC, LE
DP, AC, LE
                         used that second case as an avenue to seek a civil penalty from BofA
nearly five times higher than the one originally sought; (3) recognized the increased
leverage provided by Judge Rakoff’s earlier rejection during negotiations, and replaced a
strict adherence to case precedent with a “take-it-or-leave it” offer to BofA, which the
company ultimately took; (4) paid particular attention to the issue of charging individuals
and considered the issue thoroughly and free of confusion about the applicable law; and
(5) provided Judge Rakoff with an extensive Statement of Facts in an effort to alleviate
concerns about the insufficient factual record created by the aforementioned “obey-the­
law” injunction, while also proposing a Fair Fund distribution to harmed “legacy” BofA
shareholders.

        After these aforementioned steps were taken by the second team, Judge Rakoff
accepted the second proposed settlement; although he continued to voice some of the
same concerns as with the first proposed settlement. He also acknowledged that the
SEC’s view of the case was reasonable, although the NYAG perceived the case
differently under the same facts.

VI.     AGENCY COOPERATION IN THE BOFA INVESTIGATION

        On February 22, 2010, Judge Rakoff approved a settlement between the SEC and
BofA in which BofA agreed, among other things, to pay $150 million in civil penalties.
See generally Exhibit 59. The SEC’s settlement did not include any charges against
individuals. Id. On the same day that the SEC filed a motion seeking court approval of
its proposed settlement with BofA, the NYAG and SIGTARP announced that the NYAG
had filed charges against BofA and two of its executives, “Kenneth Lewis and Joe Price
for violations of the Martin Act, the Executive Law and common law . . . [following] a
year-long investigation.” E-mail from Carlene Brown to David Kotz, dated August 13,
2010, attaching NYAG’s written responses to questions from the SEC’s Inspector
General (“NYAG’s August 13, 2010 Responses”), attached hereto as Exhibit 20, at p. 5.
                                                   71 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



         Congress asked the OIG to investigate why the SEC proposed a penalty against
 BofA in which the shareholders, who were the victims of the Bank’s alleged misconduct,
 would pay the penalty for the alleged misconduct rather than the individuals who
 engaged in the misconduct. As part of its consideration of why no individuals were
 charged and made to pay a penalty, the OIG examined the factors that affected the SEC’s
 charging decision. During this examination, the OIG considered whether cooperation
 among law enforcement agencies affected the SEC’s decision or ability to charge
 individuals. The OIG has found that the NYAG declined to coordinate with the SEC.
 While the OIG did not conclude, based on the available evidence, that greater
 coordination and cooperation among law enforcement agencies would have altered the
 SEC’s final charging decision, the OIG did find that improved cooperation and
 coordination likely would have more efficiently utilized governmental resources and sped
 up the investigation by reducing duplication of investigative efforts.

         A.	      Multiple Law Enforcement Agencies Were Involved in the BofA
                  Investigation

           At the time that the SEC began investigating issues related to the merger between
  BofA and Merrill, several other law enforcement agencies were conducting related
  investigations. These law enforcement agencies included the United States Attorney’s
  Offices for the Southern District of New York and the Western District of North
                                                                               ENF Supv
  Carolina, the NYAG, and SIGTARP. See E-mail dated July 2, 2009 from 3                  to
IM Atty 1                                                                            ENF Supv 4
          and attached draft Action Memorandum, attached hereto as Exhibit 60; 

  Testimony Tr. at pgs. 27-28. 


         The United States Attorney’s Offices have authority to bring criminal cases on
 behalf of the federal government. See http://www.sec.gov/about/whatwedo.shtml.
 Because the SEC has only civil enforcement authority, the SEC and the United States
 Attorney’s Offices often coordinate investigations where there is a potential criminal
 violation. See http://www.justice.gov/usao/index.html; ENF Supv 4  Testimony Tr. at pgs.
 26-28. 


         The NYAG has hybrid authority to bring both civil and criminal securities cases
 on behalf of the people of the state of New York. ENF Atty 2 Testimony Tr. at p. 27.
 Under the Martin Act, a New York state statute, the NYAG has broad powers “to enjoin
 and prosecute conduct that is deemed detrimental to the investing public without a
 showing of the elements of intent or scienter.” See Frank C. Razzano, The Martin Act:
 An Overview, 1 J. Bus & Tech. L. 125 (2006), attached hereto as Exhibit 61, at p. 125.
 Notably, the Martin Act “outlaws certain practices deemed detrimental to the public
 without requiring proof of intentional or negligent conduct. It does not even require
 proof that anyone was, in fact, defrauded.” Id.

         According to Special Inspector General Neil Barofsky, SIGTARP’s “statutory
 mandate is to provide oversight to conduct, coordinate and direct audits and
 investigations of any action taken under EESA with several exceptions.” Barofsky
                                                    72 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

Testimony Tr. at p. 8. SIGTARP, therefore, has “the jurisdiction to conduct criminal and
civil investigations” of the purchase, management and sale of assets under the Troubled
Asset Relief Program. Id. at p. 9; http://www.sigtarp.gov/. However, SIGTARP does not
have independent enforcement authority. E-mail from ENF Supv 3 to Rosenfeld dated May 7,
2009, attached hereto as Exhibit 62. As Barofsky explained, “[w]e don’t have the
capacity to actually bring cases. . . . [O]ur basic role is we’re fact gatherers.” Barofsky
Testimony Tr. at p. 9. Thus, in cases in which SIGTARP believes an individual or entity
has violated the law, it must persuade another law enforcement agency to file charges.

        B.	      Law Enforcement Agencies Varied in their Level of Coordination
                 with the SEC

                 1.	      The United States Attorney’s Offices Coordinated with the
                          SEC

         The United States Attorney’s Offices, which included the Southern District of
 New York and the Western District of North Carolina, and the SEC made significant
                                                        ENF Supv 4
 efforts to coordinate their investigations. See, e.g.,            Testimony Tr. at pgs. 27­
 28. According to an SEC trial attorney assigned to the BofA matter, “[W]e have always
 had a good relationship with the Southern District. We’re both federal agencies and we
 get along.” ENF Supv 5  Testimony Tr. at p. 137. An SEC Assistant Director working on
 the BofA investigation stated that the SEC kept the United States Attorney’s Office for
 the Southern District of New York apprised of developments in the investigation and
 trusted the federal prosecutors to safeguard this information: “The Southern District of
 New York was generally kept up-to-date as far as to [what] our plans were. And we were
 comfortable sharing our confidential thoughts about our plans and prospects that [we]
                          ENF Supv 4
 would bring the case.”              Testimony Tr. at pgs. 35-36. A PII              on the
 investigation had a similar view of the relationship: “[T]he Southern District . . . was a
 cooperative relationship, sharing views, sharing thoughts, participating in the process, not
 excluding us from witness interviews, DP
DP           ENF Atty 1
                           Testimony Tr. at p. 48.

                 2.       The NYAG Declined to Coordinate Fully with the SEC

           Attempts between the SEC and the NYAG to coordinate the BofA investigation
were less successful. Id. at pgs. 46-47. In contrast to the collaborative relationship
between the SEC and the United States Attorney’s Office for the Southern District of
New York, there has historically been tension in the relationship between the SEC and
                                                                      ENF Supv 5
the NYAG. See Rosenfeld Testimony Tr. at pgs. 27-28, 82-84;                       Testimony Tr.
             ENF Atty 2
at p. 133;                  Testimony Tr. at p. 27; Canellos Testimony Tr. at pgs. 52-53; and
ENF Atty 1
                  Testimony Tr. at pgs. 46-47. The Regional Director of NYRO stated that
“there are a number of other cases [in addition to the BofA investigation] where we had
extremely difficult relationships with the New York AG.” Canellos Testimony Tr. at pgs.
52-53. According to the Branch Chief on the BofA investigation, working with the
NYAG has been “difficult” and that “[a]ny time I work with the AG’s office, there are
                        ENF Supv
odd dynamics.” 3                 Testimony Tr. at pgs. 30, 32.
                                                   73 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

        SEC attorneys expressed that the NYAG has had a history of undermining the
SEC in order to upstage them, such as by racing to file charges before the SEC in cases in
which they have agreed to work together and by making statements to the press about
                                 ENF Supv
ongoing investigations. See 1             Testimony Tr. at pgs. 65-66; Rosenfeld Testimony Tr.
          ENF Atty 2                                       ENF Atty 1
at p. 82;            Testimony Tr. at pgs. 28-30; and                   Testimony Tr. at pgs.
45-46. 15 As one trial attorney stated, “I think there was a certain level of distrust and fear
                          ENF Supv
of being undermined.” 1            Testimony Tr. at p. 66.

        Despite the distrust, the SEC and the NYAG had worked together on
                                                                               ENF Supv 4
investigations prior to the BofA matter. See Rosenfeld Testimony Tr. at p. 28;
Testimony Tr. at p. 36. The Director of Enforcement stated that cooperation between the
SEC and the NYAG “can ebb and flow.” Khuzami Testimony Tr. at p. 106. The NYAG
described its cooperation with the SEC as “proceed[ing] on a case-by-case basis.”
Exhibit 20 at p. 1. According to the NYAG, in some cases coordination between the
agencies included “the NYAG and SEC taking joint testimony, dividing witnesses
between the agencies and sharing the respective testimony transcripts, and otherwise
sharing investigative materials, transcripts and work product.” Id.

        Prior to investigating the merger between Merrill and BofA, the SEC and the
NYAG had been coordinating an investigation involving Merrill. Rosenfeld Testimony
Tr. at pgs. 25-26. The NYAG explained that it “became involved in the investigation of
[BofA] as part of an inquiry into executive compensation at Wall Street firms including
Merrill Lynch and [BofA].” Exhibit 20 at p. 2. The NYAG stated further that “[i]n May
2009 [the NYAG] and the SEC exchanged access request and grant letters.” Id.

        However, according to SEC attorneys, once the NYAG learned that the SEC was
coordinating its investigation with the United States Attorney’s Office for the Southern
District of New York, the NYAG would no longer coordinate with the SEC and “cut us
                                                                      ENF Supv 4
off” from their investigation. See Rosenfeld Testimony Tr. at p. 25;             Testimony
Tr. at p. 152; and Khuzami Testimony Tr. at p. 107. The Associate Regional Director for
NYRO Enforcement stated that “as a general matter [the NYAG] will not work with us if
we are working with another law enforcement agency. . . . [T]hey had told us at various
times that if we were working with other criminal authorities, they won’t work with us
and share information with us.” Rosenfeld Testimony Tr. at pgs. 23-24.



15
   An SEC staff attorney related the following incident that occurred during an auction rate securities
investigation upon which the SEC and NYAG were coordinating: “We went to negotiate the auction rate
agreement, which was done hand in hand with the AG, with the team from Merrill; that was done in the
AG’s office, with NYAG Atty    But what he essentially did was, he put us in a room, then suddenly walked
out on some pretense, got the Merrill people out of the room, moved them to another room and negotiated a
settlement with them to announce immediately, before we would be able to announce it; and he left us in
the room for maybe half an hour, 45 minutes, with someone to watch over us. Eventually we just left,
because there wasn’t anybody to talk to us.” See ENF Atty 1     Testimony Tr. at pgs. 45-46. See also ENF
                                                                                                        Supv 3
Testimony Tr. at pgs. 28-29 (relating the same incident). The NYAG denied awareness of any instances in
which, after agreeing to coordinate, the NYAG or the SEC resolved a matter with a defendant without
notifying the other agency. Exhibit 20 at p. 3.
                                                     74 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
                             IM Atty 1
     In an e-mail to a
           , the ENF Supv 3   on the BofA investigation explained that because the
SEC was coordinating with the federal prosecutor, the NYAG would not work with them:

                 Yes, DOJ (SDNY and WDNC specifically) are investigating.
                 We are coordinating our investigation with theirs and, as a
                 practical matter, that means the NYAG will not coordinate
                 with us (the NYAG told us so). They do not play well
                 together.

Exhibit 60 at p. 1.

         SEC lawyers expressed the view that, although the NYAG provided some
cooperation with the SEC during the BofA investigation, the NYAG failed to cooperate
fully. ENF Supv 4   Testimony Tr. at p. 28. According to SEC attorneys, the NYAG refused
to share information and to provide certain witness transcripts requested by the SEC prior
to the SEC’s first and second proposed settlements. See ENF  1
                                                                Supv
                                                                     Testimony Tr. at p. 68;
Khuzami Testimony Tr. at p. 105; Rosenfeld Testimony Tr. at pgs. 22, 26-27; ENF Atty 3
                                ENF Supv 4
Testimony Tr. at p. 60; and                Testimony Tr. at p. 34. The ENF Supv 3      on the
investigation stated that “I think we got one or two transcripts. We certainly never got all
                  ENF Supv
we asked for.” 3           Testimony Tr. at p. 20. In a memorandum to the SEC ENF Supv 4
           on the BofA investigation, theENF Supv 3       wrote the following reg
“Coordination Issues with the New York Attorney General’s Office:”

             Pros
             •	 Publicly referred findings concerning Bank of America’s
                corporate governance and disclosure practices to the SEC
                and offered “to assist further in any way.”

             Cons
             •	 Notwithstanding their offer to assist the SEC in “any way,”
                to date they have been unwilling to provide us with the
                transcripts of testimony they have taken during the course
                of their investigation other than the Lewis and Thain
                testimony transcripts.
               ENF Supv   ENF Supv 4
E-mail from 3       to            dated May 14, 2009 and attached memorandum,
attached hereto as Exhibit 63, at p. 4.

      Similarly, one trial attorney assigned to the BofA case stated that the NYAG
seemed reluctant to share information with the SEC:

                 [The NYAG] gave us a certain number of transcripts, but
                 not all of the transcripts. As we – as the case developed
                 later on, to the point where it was clear that we were going
                 to be bringing charges and they were going to be bringing
                                                   75 

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                     charges there was a definite reluctance on the part of the
                     AG’s office to provide information.
ENF Supv 1
             Testimony Tr. at p. 68.

      A staff attorney on the case provided a similar view in his OIG testimony of the
  NYAG’s cooperation with the SEC:

                     I think there was a lot of effort on our side, a lot, certainly
                     after the case was litigated, to cooperate with them. We
                     asked for transcripts. They were very – again, underhanded
                     about it. They only gave us very few of those, not
                     everything. When we asked for more, they said no. When
                     they gave us a transcript, they would send us – for example
                     . . . a transcript that they finally agreed to give. . . . They
                     gave us initially 2 and then 4, and I think we ended up with
                     6, but not everything. [An Assistant NYAG] sent us a
                     transcript that was a printed out printout of an electronic
                     document of 400 pages. We asked for the electronic
                     version, they needed to get authority for it – so we could
                     search it. And we never got it. So they were a little – it
                     was not a cooperative relationship.

                                               *****

                     And so I think there was a tension that, if I had to bet, it
                     probably originated with that office. And that tension sort
                     of became, again, an issue, when we had the second action
                     that we brought. It is not a healthy relationship. I hope it
                     will improve in the future . . . .”
ENF Atty 1
                    Testimony Tr. at pgs. 46-48.

          The NYAG explained why certain transcripts were not provided to the SEC in
  connection with the BofA investigation. The NYAG stated that “[i]n May 2009, the SEC
  requested copies of certain investigative materials from this office” and in response to the
  request “our office provided certain transcripts to the SEC.” Exhibit 20 at p. 2. The
  NYAG also stated that “in February 2010, the SEC requested five transcripts generated
  by our office” and “[i]n response to its second request, our office responded by letter
  dated February 16, 2010.” Id. The letter from the NYAG stated that the SEC requested
  transcripts of five individuals and that the NYAG would not provide the transcripts. See
               NYAG Atty
  Letter from                     to George Canellos, dated February 16, 2010, attached
  hereto as Exhibit 64, at p. 1. In the February 16, 2010 letter, the NYAG stated its
  reasoning for not sharing the transcripts with the SEC:


                                                     76 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                   At this time, we are concerned about the impact partial
                   disclosure could have on our litigation at a time when the
                   parties in our contested proceeding have yet to respond to
                   the complaint or negotiate a confidentiality order. We are
                   also concerned about the possible impact disclosure of
                   these materials could have on our ongoing investigations of
                   other individuals. Accordingly, we cannot in a manner
                   consistent with our prosecutorial obligations turn over
                   piecemeal evidence at this time.

Id. at pgs. 1-2.

         The NYAG’s refusal to produce witness transcripts to the SEC meant that the
SEC did not obtain testimony for certain witnesses. According to the Regional Director
of NYRO, unlike the SEC, the NYAG’s Office follows a practice of not providing
witnesses with a transcript of their testimony. See Canellos Testimony Tr. at pgs. 55-56.
Therefore, while the NYAG had “the ability to gain access to [SEC] testimony potentially
because we provide anyone who’s testified before us with a transcript of their testimony,
and they in turn could provide that transcript . . . to the New York AG’s Office . . . in
response to a subpoena,” the SEC did not have that same ability. Id. Because Judge
Rakoff had limited the number of depositions that the SEC could take, the SEC could not
always remedy the NYAG’s refusal to produce transcripts by deposing the same witness.
Id. at p. 56. Consequently, in making its charging decisions, there were certain witnesses
whose testimony the SEC was not able to obtain, requiring the staff to rely instead on
attorney proffers that were “not as good as a transcript.” Id.

        There were also concerns expressed about the SEC not sharing information with
the NYAG as well. The NYAG stated that the “office requested copies of certain
investigative materials from the SEC,” but “did not receive investigative materials from
the SEC in this case.” Exhibit 20 at pgs. 2-3. The NYAG did not provide the OIG with
specific details as to what materials they requested or what reason the SEC provided for
not producing the materials. Id. at p. 3.

       An SEC staff attorney on the investigation rejected the possibility that the SEC
did anything to precipitate the type of treatment it received from the NYAG in the
following exchange:

                   Q: 	   Did you see anything the SEC did in the
                          relationship with the NYAG that may have
                          precipitated some of what the NYAG did in return.

                   A: 	   No; absolutely not. In fact, I will tell you that the
                          relationship with the AG had a lot of focal points,
                          and almost all of them could be characterized as us
                          pressing to be cooperative with them, to give them,
                          and to get something in return. And it was always a
                                                   77 

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                              very sort of tactical attempt on their side to not
                              make that happen, to still try and get something
                              from us.
  ENF Atty 1
                     Testimony Tr. at p. 49.

          While the SEC attorneys asserted that there were no requests for information from
  the NYAG to which the SEC failed to respond, they did admit that the SEC did not
                                                               ENF Supv
  “discuss the facts that we had uncovered” with the NYAG. 1            Testimony Tr. at p. 68. 

  The SEC attorneys’ distrust of the NYAG kept them from speaking to the NYAG “in
                                             ENF Supv 4

  confidence about our investigative plans.” 
           Testimony Tr. at p. 35. The
  Assistant Director on the BofA investigation explained that there “was a concern at
  senior levels” that if the NYAG knew that the SEC was about to file charges, the NYAG
  would race to file a case against BofA ahead of the SEC:

                      I know the closer we got to thinking when we were going
                      to be able to file a case against Bank of America[,] which
                      towards the end, there was a concern that there might be a
                      leak and that if our plans were reported in the press, that the
                      New York Attorney General’s Office might then be
                      prompted to go ahead and do something before we were
                      able to bring a case. And that was a concern at senior
                      levels.

  Id. at pgs. 32-33.
                                                      NYAG Atty            16 PII
               The Assistant Director recalled that
PII

PII
                       at the NYAG, “expressed the desire to meet with us to talk about our
 investigation generally, because we were not coordinating with them.” See
PII                                          ENF Supv 4
                                           ;            Testimony Tr. at pgs. 34-35.
 Accordingly, “[g]eneral marching orders [from] on high were to try to keep the distance 

 and don’t engage in any contacts with them that would, that might entail revealing where 

 we were in our investigation, such as in that, that Rob [Khuzami] and other folks didn’t
                   ENF Supv 4                           ENF Supv 4

 want us to do.”
              Testimony Tr. at p. 35.              added, “I think my general
 recollection is that the request for [a] meeting was viewed as their desire to find out
 where we were. And folks up the chain had [a] desire to not be put in a position where
 they could try to obtain that confidential information from us.” Id. at p. 37.

  16
     According to Commission staff, NYAG Atty         and David Rosenfeld – a NYRO Enforcement Associate 

  Director – had a tense relationship that worsened an already dysfunctional relationship between the NYAG
  and the SEC. See 
ENF Supv 5 Testimony Tr. at p. 137; Canellos Testimony Tr. at p. 54; ENF Atty 1

  Testimony Tr. at pgs. 45-46; and
ENFSupv 3
 Testimony Tr. at p. 21. Other staff members had a good
  relationship with NYAG Atty     See, e.g., ENF Supv 5 Testimony Tr. at p. 137. According to testimony,
  decisions not to share documents and information appeared to take place at the Attorney General level and
  not at the NYAG Atty  level, so it is unclear what effect Rosenfeld’s relationship with NYAG Atty  had on
  cooperation between the agencies. Id. at pgs. 138-139.
                                                      78 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                                                                            NYAG Atty
       The Regional Director for NYRO stated that he spoke to             about the
                             NYAG Atty
BofA investigation, and that           expressed that the SEC had not communicated
adequately with the NYAG about its intention to announce a settlement with BofA:
                 NYAG Atty
                               felt as though when the original case was
                 charged he didn’t have adequate warning and that the
                 charge was brought notwithstanding the fact that the New
                 York AG’s Office had [an] interest in the case and that the
                 SEC in his view was trying to seize the limelight or seize
                 the lead in an investigation that he was interested in, and
                 that essentially what he was saying was we didn’t really
                 coordinate with them and so why should we coordinate
                 with you. We tried to repair that rift.

Canellos Testimony Tr. at p. 53.

       In a written statement to the OIG, the NYAG rejected the assertion that it or the
SEC was “concerned with getting a media headline on the [BofA] case” or that the
agencies were competing to be the first “to file a case against [BofA].” Exhibit 20 at pgs.
3-4. While the OIG did not uncover any specific evidence that the NYAG was motivated
by the media, we did find that distrust between the offices resulted in a lack of
coordination in the BofA investigation.

        C.	      Lack of Complete Coordination Did Not Materially Affect the SEC’s
                 Decision Not to Charge Individuals

        The SEC attorneys who were involved in the investigation asserted that if the
NYAG had coordinated fully and produced all of the requested transcripts, the SEC still
would not have charged individuals at BofA with wrongdoing. The SEC attorneys
expressed that they were able to ascertain what evidence the NYAG had developed and
did not feel that the NYAG was in possession of facts that would have led the SEC to
charge individuals. ENF Supv 1 Testimony Tr. at pgs. 70-71.

        The New York Regional Director stated that in those cases in which they were
unable to take a witness’s testimony and the NYAG would not produce the transcript, the
SEC “would take proffers from the attorneys who were present at the NYAG’s
testimony.” Canellos Testimony Tr. at p. 56. The Regional Director felt that from the
proffers the SEC “had pretty good information on what every witness we examined
would testify to but not as good as a transcript.” Id. According to the Regional Director,
the attorneys who provided the proffers “have a strong disincentive to proffer to us
anything that’s inaccurate because ultimately the transcript [i]s going to come to light and
if they’ve misdescribed what their client testified to, they’re going to have a problem.”
Id.

       The Director of Enforcement stated that although one “would have preferred to
have had” the requested transcripts, he felt that the SEC had “fully investigated” the
                                                   79 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

 “heartland of the case.” Khuzami Testimony Tr. at pgs. 105-106. The Enforcement
 Director felt at “the end of the day . . . we developed . . . a very significant, detailed,
 factual presentation to Judge Rakoff. So we were able to do what we needed to do.” Id.
 at p. 106.

         Likewise, a staff attorney on the investigation felt that receiving the witness
 transcripts from the NYAG would have been helpful, but would not have changed the
 SEC’s final analysis of the case:

                  [The NYAG] are involved or not involved, it has no impact
                  on our subpoena power or ability to get information. We
                  do what we think we need to look into. If they want to look
                  into other things, it’s their prerogative. I don’t think they
                  can prevent us from getting information. . . . Investigative
                  effort is independent.

                                                  *****

                  I’ve gone through those transcripts, the ones they’ve given
                  us, very carefully. They were not very good for us. . . .
                  Look, would it be helpful to have a transcript of someone
                  before coming in for testimony? Yes, it could be. Does it
                  hinder you if you don’t get it? No; we just need to be as
                  thorough as we can. . . . If we had gotten the transcripts
                  they may have had some utility, but I think that utility
                  would have been ultimately nullified by our taking of
                  testimony or our interviews or our analysis of the evidence;
                  which I think was, is and was, superior in the way we
                  approached things.
ENF Atty 1
                 Testimony Tr. at pgs. 52-53.

         The Associate Director on the BofA matter also stated that the SEC has “the same
 resources to develop information that [the NYAG does]. So we weren’t concerned that
 they were developing things that we couldn’t develop.” Rosenfeld Testimony Tr. at p.
 26. In addition, a staff attorney who was working on the investigation stated that she
 “believe[d] we were operating basically from the same set of facts” because the
 complaint that the NYAG filed against individuals in the BofA matter did not contain
                                        ENF Atty 3
 facts of which the SEC was unaware.               Testimony Tr. at pgs. 68-69. Finally, the
 Assistant Director stated that he did not think that the facts that the NYAG had would
 have changed their final analysis, but he could not be certain:

                  Surely, [coordination with the NYAG] would help that kind
                  of stuff sooner, faster, easier, don’t have to spend time asking
                  for it more than once. But at the end of the day, was there a
                  fact in any of their investigative materials that we [had] later
                                                    80 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                      because we didn’t have access to their investigative materials
                      that [would have] made a difference. I didn’t recall any such
                      fact]. I don’t know.
ENF Supv 4
                  Testimony Tr. at pgs. 153-54.

             D.       SIGTARP Coordinated Closely with the NYAG

        As discussed above, when SIGTARP believes a violation of the law has occurred,
it must find another law enforcement agency to bring an action because SIGTARP does
not have enforcement power. As characterized by one SEC staff attorney, SIGTARP is
                                   ENF Atty 1
“basically shopping for a client.”             Testimony Tr. at p. 41. In the BofA
investigation, SIGTARP worked with the NYAG, the SEC, and others. Specifically, the
Special Inspector General explained that SIGTARP “had sort of two separate
investigations going on. I mean the same investigation with two separate partners, and
one partner was the New York State Attorney General and the second” was with the SEC
and others. Barofsky Testimony Tr. at p. 15.

       The law enforcement agency with whom SIGTARP was most closely aligned was
the NYAG. By “work[ing] very closely” with the NYAG, SIGTARP was limited in the
information it could share with the SEC. Barofsky Testimony Tr. at pgs. 14-15. At the
request of its law enforcement partners, including the SEC and the NYAG, SIGTARP
imposed an information silo. The Special Inspector General described SIGTARP’s
procedure for sharing information among agencies:

                      What we did do, where we did have a wall for information
                      was very early on we made it very clear to both sides . . .
                      [that] for information that was gathered by them, you
                      know, our partners, for example, if the New York Attorney
                      General conducted a witness interview and a transcript was
                      generated, that we would not share. So if we received –
                      anything that came down to us, we would keep in different
                      silos. Anything that we obtained, we would spread to
                      everyone.

Id. at pgs. 24-25. Thus, if the same SIGTARP agent interviewed a witness with the SEC
one day and then went to interview the same witness with the NYAG the following day,
the SIGTARP agent was not allowed to share with “one side about what happened in the
interview with the other.” Id. at p. 25. Alternatively, the SIGTARP agent would refer
the law enforcement partner that requested the information to the law enforcement
partner that had compiled or created it. Id. at p. 26.

      The Special Inspector General explained that in the New York area competition
among law enforcement agencies is not unusual:



                                                   81 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 We have a number of different state and local and federal
                 agencies all looking at the same information. . . . And in the
                 past I think there have been concerns about potential leaks
                 of information. I think there’s been concerns about lack of
                 coordination of, you know, one agency bringing charges
                 before another. I think there’s been a lot of very, very well
                 publicized problems. When I came to the office in 2000
                 and in the late ‘90s, there were a series of very, very public
                 and frankly ugly disputes between the U.S. Attorney’s
                 Office [for the] Southern District of New York and the
                 Manhattan District Attorney’s Office, and I think that there
                 is a carryover of that . . . It was not unusual at all in the
                 New York area. I don’t know if it’s typical in other areas,
                 but in the New York area, there’s a lot of – there’s a lot of,
                 frankly, a lot of competition.

                                                 *****

                 I don’t think there was any specific rivalry that I would say
                 [existed] between New York AG and the SEC as much as
                 that was the general tenor of investigations, white collar,
                 sophisticated white collar investigations in New York City.

Id. at pgs. 29-30.

        The SEC and SIGTARP did collaborate to some extent on the BofA investigation.
SIGTARP “repeated a number of times that they want to work alongside the SEC.”
Exhibit 62. Furthermore, “SIGTARP was definitely a regular participant at the witness
                                                                       ENF Supv 4
hearings and we had fairly regular communications with them as well.”
Testimony Tr. at p. 29. In addition, the SEC did not have the same concerns with
SIGTARP that they had with the NYAG, such as SIGTARP talking to witnesses without
giving the SEC an opportunity to participate. Id. at pgs. 30-31.

        However, SEC attorneys on the BofA investigation did express some frustration
about SIGTARP’s decision not to share information among law enforcement agencies.
Attorneys working on the investigation found the relationship with SIGTARP to be
“frustrating,” in part because SIGTARP attended testimony with the NYAG and received
                                                     ENF Atty 1
information that they would not share with the SEC.                Testimony Tr. at pgs.
           ENF Supv
43-44, 59; 3        Testimony Tr. at pgs. 26-27.

        Concerns over SIGTARP sharing SEC investigative findings with the NYAG also
kept the SEC from coordinating more fully with SIGTARP. Top Enforcement officials at
NYRO told the SEC attorneys working on the case not to share the SEC’s “plans or
                                        ENF Supv    ENF Atty 1
theories” with SIGTARP. E-mail from 3            to            dated May 7, 2009,
attached hereto as Exhibit 65. Due to the information competition between the SEC and

                                                   82 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

the NYAG, the SEC attempted to learn what SIGTARP’s “theories [were] without our
weighing in on the issue.” Id.

        The collaboration between SIGTARP and the SEC was not as critical to the BofA
investigation because they were focused on different legal theories. The Special
Inspector General stated that its primary focus involved the use of TARP funds and
representations made to the Federal Reserve. See Barofsky Testimony Tr. at p. 14.

        According to the Special Inspector General, the SEC was initially focused on
legal theories distinct from SIGTARP’s. The SEC’s first proposed settlement dealt with
disclosure of an “agreed upon bonus pool” and “that part of the case was not really a
focus of our investigation.” Id. at p. 18. The Regional Director of NYRO shared the
view that SIGTARP and the SEC were primarily pursuing separate theories, stating that
SIGTARP’s “investigation to some extent overlapped with our investigation, but it also
focused very much on communications relating to securing TARP money from the
government as opposed – as distinct from proxy disclosure.” Canellos Testimony Tr. at
p. 59.

          Top Enforcement officials viewed the success of the collaboration with SIGTARP
differently from the attorneys working on the investigation. The Regional Director of
NYRO did not believe there were any collaborative issues with SIGTARP. Id. at p. 60.
In contrast, the view of other attorneys on the investigation was that “it was not a very
productive relationship. . . . They would promise evidence, wouldn’t give it; suggest
phone calls to discuss, they’d never get back to you” and noted that they had difficulty
                                                         ENF Atty 1
initially obtaining certain documents from SIGTARP.                    Testimony Tr. at p.
     ENF Supv
50; 3         Testimony Tr. at pgs. 17-18.

          Although SIGTARP’s inaction “initially . . . slowed [the SEC] down and caused
“some frustrations,” the SEC attorneys did not feel that it “hampered the investigation”
because the SEC eventually “got the document[s] in our own way” and SIGTARP 

                                                                                   ENF Supv
ultimately produced “the key documents, which were very important to us.” See 3

                                   ENF Atty 1
Testimony Tr. at pgs. 17-18, 33; 
               Testimony Tr. at pgs. 56-58. The ENF Supv 3
         working on the investigation described the delay as “just an annoying wrinkle.”
ENF Supv
3        Testimony Tr. at p. 33.

        The Special Inspector General identified two potential coordination issues. First,
as discussed above, SIGTARP did not share with the SEC transcripts of witness
interviews conducted by the NYAG but, instead, referred the SEC to the NYAG for
copies of such transcripts. Barofsky Testimony Tr. at 26. Second, SIGTARP was unable
to share with the SEC financial institution examination materials that it had obtained
from the Federal Reserve. September 27, 2010 e-mail from Bryan Saddler, Chief
Counsel, SIGTARP to OIG Staff 1                               , attached as an Addendum
to Barofsky Testimony Tr. (Exhibit 19). These materials were subject to the examination
privilege, and SIGTARP was covered by the privilege. Accordingly, to preserve the
privilege, SIGTARP referred the SEC to the Federal Reserve and provided advice with

                                                   83 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

respect to the Federal Reserve’s procedures for requesting access to privileged materials.
Id.

         E.	     The NYAG Rejected Joining the SEC’s Settlement with BofA

       The Director of Enforcement and the Regional Director of NYRO communicated
with the NYAG about a potential global settlement in which the SEC and the NYAG
would jointly announce a settlement with BofA. See Khuzami Testimony Tr. at pgs. 107­
108; Rosenfeld Testimony Tr. at p. 75. BofA had expressed concern that, if they settled
with the SEC prior to settling with the NYAG, the NYAG “might not take kindly to it.”
Rosenfeld Testimony Tr. at p. 75. According to Enforcement staff, the SEC approached
the NYAG about a potential joint settlement. ENF Atty 3 Testimony Tr. at p. 59. According
to an SEC trial attorney, the NYAG ultimately rejected the idea of a global settlement
DP, LE                                                                                          ENF Supv 1


Testimony Tr. at p. 100. While the NYAG acknowledged that “[i]n the days prior to
filing our Complaint, our office had discussions with the SEC about the possibility of a
global resolution,” the NYAG chose not to detail the reasons why a global settlement did
not occur. Exhibit 20 at p. 4.

         F.	     The SEC Viewed the Evidence Against Individuals Differently from
                 Other Law Enforcement Agencies

        Although differences between the operative statutes that the NYAG and the SEC
were utilizing may have influenced the agencies’ charging decision, attorneys on the
investigation also felt that the agencies viewed the evidence differently. Khuzami
Testimony Tr. at pgs. 108-109. The Regional Director of NYRO believed that the
NYAG’s decision to charge individuals may have been influenced by the Martin Act, but
that he “think[s] primarily they’re evaluating evidence on their own and making different
decisions.” Canellos Testimony Tr. at pgs. 57-58. Similarly, an SEC Assistant Director
stated that the SEC DP, LE
DP, LE




       While acknowledging that the NYAG was able to bring claims under a broader
law than those available to the SEC, the Special Inspector General took no position on
whether he thought the NYAG was able to bring a case against individuals because of the
Martin Act or because the NYAG and SIGTARP interpreted the facts differently from the
SEC:

                 It’s a very difficult question to answer because, again, our
                 job is to present the facts. And, you know, we’re still
                 investigating. We’re still looking at it. And there are . . .
                 different legal standards for each of the different entities
                 that we were working with. . . . [M]y basic understanding
                 is, that the Martin Act is the broadest of the various
                 potential tools for civil and criminal liability. [Federal
                 criminal liability] has the highest threshold. . . . And my
                                                   84 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 understanding[,] which may be incorrect[,] is that the SEC
                 would be in between those. So . . . my understanding is
                 that that was a factor.

Barofsky Testimony Tr. at pgs. 44-45.

        The Special Inspector General stated further that he “didn’t have a position with
respect to the SEC case because, frankly . . . the intricacies of the SEC’s . . . laws and
regulations that the SEC enforces, the dynamics within the SEC with the Commission
having to get an approval, what their goals were to accomplish . . . are all decisions
within the . . . jurisdiction and decisionmaking of the SEC.” Id. at p. 44.

        The Special Inspector General emphasized that SIGTARP is focused on charging
individuals: “Well, we obviously wanted to see individuals charged. That is our
position, very generally speaking.” Id. at p. 41. Moreover, “generally speaking, the
individuals should be charged by someone somehow somewhere.” Id. at p. 44.
Additionally, “our approach is always laying out the facts and the specific acts that were
committed by certain individuals. . . . [I]ndividuals are always what drives any type of
action.” Id. at p. 46.

        The Special Inspector General felt that the SEC’s settlement with BofA, coupled
with the NYAG and SIGTARP’s filing of charges against individuals, meant that the law
enforcement agencies “were going to achieve complementary goals.” Id. at p. 42. In his
view, the SEC would “obtain a cash settlement and some important [governance] changes
for Bank of America” and “individuals were going to be held accountable through the
New York State action.” Id. at pgs. 41-42.

        G.	      Increased Coordination and Cooperation Among Agencies Would
                 Have More Efficiently Utilized Government Resources

       There was testimony that greater coordination and cooperation among law
enforcement agencies would have more efficiently utilized government resources by
reducing duplication of investigative efforts. The Regional Director of NYRO
acknowledged that “there’s been a lot of people disturbed by the lack of coordination
between state regulators generally and federal regulators.” Canellos Testimony Tr. at p.
52. He stated that both the SEC and the NYAG would have benefitted from sharing
witness transcripts and would have avoided duplicative efforts in the following exchange:

                 Q: 	     So I mean in some ways it could have potentially
                          been more helpful for the SEC if they had seen what
                          the New York AG’s Office had done and seen what
                          they obtained?

                 A: 	     Absolutely, we would have benefitted and they
                          would benefit from our transcripts too. We took
                          testimony from many dozens of the same people,
                                                   85 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                          which is kind of outrageous. I mean two
                          regulators a few feet away taking redundant
                          testimony of the same people. I mean that’s not a
                          very acceptable situation. I think which is one of
                          the reasons why I have been trying to work closely
                          to build bridges with the New York AG’s office.

Id. at pgs. 54-55 (emphasis added).

        The Special Inspector General acknowledged also that the involvement of
multiple law enforcement agencies in an investigation may lead to duplicative effort,
stating, “There was absolutely duplication of effort in this case.” Barofsky Testimony Tr.
at p. 31. For example, there were numerous times when the same individuals would be
interviewed separately by different agencies. Id. However, he asserted also that the
different goals of each agency may make duplication of investigative steps necessary, and
explained that there were reasons to support law enforcement agencies taking separate
witness interviews, such as agencies gearing their interviews toward different goals. Id.
at pgs. 31-32. In particular, the Martin Act is “very broad and can cover a lot of conduct”
whereas SIGTARP was also “looking at some very specific federal criminal securities
law. The SEC has their own set of civil securities laws. So the interviews may have a
different focus.” Id. at p. 32. The Special Inspector General concluded, however, that
even where agencies have different law enforcement goals, it is a good idea for both the
state prosecutor and the SEC to know the facts that were elicited by each side. Id. at p.
33.

        The NYRO Regional Director stated that due to the “tough relations” in cases
prior to his joining the SEC in June 2009 and the redundancies caused by regulators
failing to work together, he has made attempts to improve the SEC’s relationship with the
NYAG and “to try to find a better basis for cooperation.” Canellos Testimony Tr. at p.
54.

        As part of its consideration of why no individuals were charged and made to pay a
penalty, the OIG examined whether cooperation among law enforcement agencies
affected the SEC’s decision or ability to charge individuals. The OIG’s investigation did
not uncover evidence that better cooperation and coordination during the BofA
investigation would have altered the SEC’s final charging decision. However, the OIG
did find that the NYAG declined to cooperate fully with the SEC. The OIG also found
that the SEC was reluctant to share information with the NYAG and SIGTARP due to
concerns that the NYAG would leak information to the press or otherwise use the
information from the SEC for its own gain. The OIG found further that greater
coordination and collaboration among law enforcement agencies would have more
efficiently utilized government resources and sped up the investigation by reducing
duplication of witness interviews and other investigative efforts.

       Therefore, the OIG recommends that Enforcement: (1) continue the efforts
undertaken by NYRO’s Regional Director to increase cooperation and coordination
                                                   86 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

among law enforcement agencies; (2) as part of these efforts, review the level of
coordination and cooperation on current investigations and assess where improved
coordination would conserve government resources; (3) in the early planning stages of
investigations, assess whether other law enforcement agencies are already participating in
or should be made aware of the subject investigation; and (4) encourage staff, where
appropriate, to establish and maintain effective communication with those who are
assisting in investigations and to inform supervisory personnel when they are not
receiving cooperation.

VII.	 CONFLICTS OF INTEREST IN THE ENFORCEMENT ACTION
      AGAINST BOFA AND OTHER POTENTIAL TARP RECIPIENTS

        In an August 6, 2009 letter both to the OIG and SIGTARP, Congressman
Cummings referenced an attached August 4, 2009 Washington Post article raising the
following conflict of interest issues that could potentially arise from Enforcement actions
against entities who, like BofA, received TARP funds from the federal government:

        (1) the enforcement action may harm the firm’s viability, and threaten systemic
            risk to the financial industry;

        (2) the fines levied would essentially be paid with taxpayer funds;

        (3) the fines would harm the shareholder investment in the firm, when the
            shareholder is the U.S. taxpayer; and

        (4) the role played by Federal Reserve or Treasury officials in the actions upon
            which fines were issued may have been significant to the occurrence of the
            violation but cannot be investigated by the SEC.

Exhibit 1 at pgs. 1-2.

         Congressman Cummings asked the OIG and SIGTARP, respectively, to
“investigate the extent to which the enumerated scenarios above existed in the case of
SEC v. Bank of America, as well as the potential for future instances of the above
conflicts . . . .” Id. at p. 2. Because of SIGTARP’s ongoing investigation of BofA, the
OIG agreed to conduct the requested investigation by letter dated August 20, 2009
(Exhibit 2), and did not find evidence that any conflict of interest existed on the part of
Enforcement: (1) during Enforcement’s investigation of BofA; or (2) in making its
charging decisions with respect to BofA and any individuals. The OIG also has found
that, in anticipation of the BofA action and future actions where civil penalties will be
sought against TARP recipients, Enforcement developed a policy designed specifically to
provide settlement guidance for such situations.

       The OIG did find that Corporation Finance’s decision to recommend a WKSI
waiver to BofA in connection with the first proposed settlement, notwithstanding that
BofA did not meet the criteria traditionally applied by Corporation Finance for a WKSI
                                                   87 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

waiver, was an example of the SEC considering a TARP firm’s viability and the potential
systemic risk to the financial industry in connection with the SEC’s Enforcement action
against BofA. We do note that since Judge Rakoff rejected the first proposed settlement
with BofA, the WKSI waiver was never issued; however, we have found that special
consideration was given to BofA because of its unique status as a TARP recipient and the
nation’s uncertain economic future.

        A.        BofA Received TARP Funds Prior to the SEC’s Enforcement Action

        As asserted in Congress’s August 6, 2009 request for an investigation (Exhibit 1),
BofA was a recipient of TARP funds at the time of the SEC’s first enforcement action
against the bank. According to Enforcement’s July 20, 2009 Action Memorandum to the
Commission:
             DP, AC, WP, LE




       Exhibit 21 at p. 14, n. 13. In the first proposed settlement on August 3, 2009, the
SEC and BofA agreed that, among other things, BofA would pay a $33 million civil
monetary penalty. Exhibit 22 at p. 1. After Judge Rakoff’s rejection of the first proposed
settlement on September 14, 2009, the SEC and BofA agreed to re-settle the matter for a
civil monetary penalty of $150 million, plus additional remedial relief, on February 4,
2010. Exhibit 34 at p. 1. Judge Rakoff then approved the second proposed settlement on
February 22, 2010. The OIG recognizes the significant concerns expressed by Congress
surrounding the SEC’s enforcement action against BofA, particularly in light of its status
as a TARP recipient. These concerns are addressed immediately below.




                                                   88 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 1.	      Enforcement Actions May Harm a Firm’s Viability and
                          Threaten Systemic Risk to the Financial Industry

        During the course of its investigation, the OIG took the sworn, under-oath
testimony of Director of Enforcement Robert Khuzami, during which this office asked
him about the specific concerns raised in the August 6, 2009 Congressional request for an
investigation. With respect to the concern that an action against a TARP recipient such
as BofA may harm a firm’s viability or, more broadly, may threaten systemic risk to the
financial industry, Khuzami first explained that just because an entity is labeled a “TARP
recipient” doesn’t necessarily mean that it is in financial distress:

                 [B]ut TARP is a lot of different things, first of all. Right?
                 Some parts of the TARP program are actual cash loans.
                 There’s lots of other parts of the program that deal with
                 backstops or getting collateral. And so – and I think this is
                 reflected in the written [TARP] policy. And some of it is
                 designed less to help an institution, as you may recall in
                 fact some of them got the money and didn’t even really
                 want it, as it is to provide liquidity to a system. So right out
                 of the box there’s a notion that just because someone’s
                 labeled a TARP recipient doesn’t necessarily mean they’re
                 in financial distress or that just bringing an action will
                 therefore somehow harm them.

Khuzami Testimony Tr. at p. 124. He then explained in the following exchange that it
would be unusual for an SEC enforcement action to be the deciding factor in whether a
financial institution, such as BofA, would fail:

                 [Y]ou know, if the notion is a TARP recipient is fragile and 

                 an enforcement action will tip them over the edge, I 

                 suppose that there’s some conceivable set of circumstances 

                 out there where that might happen, but it’s by no means 

                 every case. And I think it’d be – even in the worst of the 

                 credit crisis, I’m not sure that would have made, you know, 

                 the difference and had that result. So that’s something to 

                 think about. But I think it’d be pretty rare and unusual. 


                 Q:       And it wasn’t a matter that arose in the Bank of
                          America case?

                 A:       No.

Id. at p. 125. Finally, Khuzami acknowledged in the following exchange that it is not
Enforcement’s policy to assume that every TARP recipient is an entity in distress:



                                                   89 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                  Q: 	     And so is it fair to say that the enforcement division
                           would potentially consider whether an entity is in
                           distress, vis-a-vis penalties in an enforcement
                           action, but wouldn’t necessarily assume that every
                           TARP recipient was an entity in distress?

                  A:       	Yes.

 Id.

         Khuzami’s acknowledgment that Enforcement does not assume that every TARP
 recipient is an entity in distress is consistent with the Division’s newly-developed policy
 that provides guidance for situations where civil penalties are contemplated against
 TARP recipients. As will be discussed in greater detail below, Enforcement developed a
 policy designed specifically to provide settlement guidance for the Division when TARP
 recipients are involved. July 29, 2009 TARP Policy Memorandum (and attached July 29,
 2009 e-mail from ENF Atty 4         to the BofA team), attached hereto as Exhibit 66. The
 three key components of Enforcement’s TARP policy expand on Khuzami’s stated
 premise that every TARP recipient is not necessarily in financial distress, and are as
 follows: LEP, DP, AC, LE
LEP, DP, AC, LE




LEP, DP, AC, LE




         Based upon Khuzami’s testimony and Enforcement’s written TARP policy and
 the evidence accumulated in our investigation, we have concluded that BofA’s status as a
 TARP recipient played no role in the determination of the appropriate civil penalty to be
 assessed against BofA or the amount for which Enforcement agreed to settle.

         However, the OIG has found that there is evidence that BofA’s status as a TARP
 recipient was a factor in a different aspect of the first proposed settlement
 recommendation to the Commission on July 30, 2009. As this report discussed in Section
 III.G.1 above, Corporation Finance’s decision not to oppose BofA’s request for a WKSI
 waiver was, at least in part, based on BofA’s status as a TARP recipient. The OIG found
 that the traditional criteria for determining WKSI waiver requests were not applied to
 BofA as under these traditional criteria, BofA would not have been entitled to the WKSI
 waiver. Nonetheless, Corporation Finance agreed to recommend that BofA receive a
 conditional WKSI waiver based upon the specific concern that in this economic
 environment denying BofA a WKSI waiver could have an adverse impact on BofA and
 the entire market. Because the first settlement under which the WKSI waiver was
 proposed was rejected by the Court, the WKSI waiver was never actually issued;
 nonetheless, the OIG has found that the favorable consideration BofA received likely
 would not have occurred but for the company’s unique status as a TARP recipient and the
 nation’s uncertain economic future.
                                                    90 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 2.	      The Fines Levied Would Essentially Be Paid With Taxpayer
                          Funds

      In response to Congress’s concern that civil monetary penalties imposed on
TARP recipients would be paid with taxpayer funds, Khuzami responded in the following
exchange:

                 Q:       Okay. What about a potential conflict that the fines
                          levied would essentially be paid with taxpayer
                          funds?

                 A:       You know, I guess fundamentally they still have to
                          pay back all the money. So like the example $50
                          million in TARP money, a $20 million penalty, they
                          still have to pay $50 million back. I guess
                          theoretically what’s lost is the beneficial effect of
                          whatever that $20 [million] was supposed to
                          accomplish.

                 Q:       Right.

                 A:       It would theoretically be lost, because it went to
                          [the] shareholder or the Treasury rather than
                          whatever they were supposed to do with it.

                 Q:       Right.

                 A:       But that depends on whatever they were supposed
                          to do with it. So again, it’s not the kind of thing
                          that is – that is an inherent result of being a TARP
                          recipient.

Khuzami Testimony Tr. at p. 126. In Khuzami’s view, the civil penalty affects only the
bank’s intended use for the money, not the taxpayer, because the TARP recipient is
obligated to pay back the taxpayer regardless of how the civil penalty would have been
used. Id. For Enforcement, therefore, the relevant issue is always the financial condition
of the TARP recipient. When asked about the BofA situation specifically, Khuzami
responded under questioning as follows:

                 Q: 	     Okay. And that was a matter that you thought
                          would or was a concern in the Bank of America
                          case?

                  A: 	    No. You know, by the time that case was brought
                          they were – they were a TARP recipient, but things
                          were in much better shape.
                                                   91 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                                                 ***** 


                 Q:       And as far as the analysis that your office conducted
                          as to the circumstance in place in the Bank of
                          America case you didn’t see [a financially fragile]
                          situation arising?

                 A:       In fact, I don’t –

                 Q: 	     Is that no? You didn’t see that?

                 A: 	     We did not. That’s right. I don’t even think Bank
                          of America made – maybe the most surprising thing
                          is Bank of America never came in and said, we’re a
                          TARP recipient; we’re in distress; please reduce the
                          penalty. We almost expected that argument, but in
                          fact – you have to confirm this with the New York
                          people – I don’t think they ever raised the argument.

Id. at pgs. 126-127.

       The OIG has found no evidence of conflicts of interest with respect to the issue of
whether fines levied from an enforcement action against BofA, or any TARP recipient,
would essentially be paid with taxpayer funds.

                 3.	      The Fines Would Harm the Shareholder Investment in the
                          Firm, When the Shareholder is the U.S. Taxpayer

        In response to the concern that a civil monetary penalty would harm a taxpayer
because he or she is the shareholder when a TARP recipient is sued, Khuzami explained
that the only harm that would potentially occur is that the civil penalty would go to the
government instead of whatever use the TARP recipient originally had for it:

                 You know, the government is the shareholder and the
                 government’s getting the money back, so again it’s not a
                 notion that they would be hurt. I think the theoretical harm
                 is that whatever you’re trying to achieve with the TARP
                 money would not be achieved. If you wanted them to take
                 that TARP money and go out and hire people and instead,
                 you know, sent that money to the Treasury, then maybe the
                 people that you wanted to get jobs theoretically couldn’t
                 have [gotten] them. But money’s also very fungible, and so
                 the assumption they couldn’t have done both is not at all
                 clear.

                                                   92 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

Id. at pgs. 128-129. This, in Khuzami’s view, is not taxpayer harm but, rather, a
speculative, theoretical harm in the form of a lost potential business opportunity.
Moreover, Khuzami was specific about the original BofA settlement in the following
exchange:

                 Q:       So you didn’t determine that the $33 million
                          potential settlement amount in the first settlement
                          would harm the shareholder investment in the firm,
                          [affecting] the U.S. taxpayer?

                  A:      That’s right. Again, Bank of America never – nor
                          did they make that claim.

Id. at p. 129. In sum, the OIG has found no evidence of conflicts of interest with respect
to the issue of whether fines levied from an enforcement action against BofA, or any
TARP recipient, would harm shareholder investment in the firm when the shareholder is
the U.S. taxpayer.

                 4.	      The SEC Cannot Investigate Federal Reserve or Treasury
                          Officials Who May Have Had Substantial Roles in the Alleged
                          Wrongdoing

        With respect to the final concern expressed by Congress, Khuzami stated that this
situation did not apply to the BofA investigation because the SEC never brought a TARP
case against BofA, as evidenced by the following exchange:

                 Q: 	     All right. The role played by Federal Reserve or
                          Treasury officials in the actions upon which fines
                          were issued may have been significant to the
                          occurrence of the violation but cannot be
                          investigated by the SEC. I guess the idea is that an
                          entity like Bank of America really didn’t engage in
                          the improper action; it was something that was
                          forced [upon] them by [the] Federal Reserve or
                          Treasury, and so you’re potentially punishing Bank
                          of America when really the [offender] is the Federal
                          Reserve.

                 A: 	     Well, that would be if you’re bringing a TARP
                          fraud related action. So an institution says, “I don’t
                          want the money.” The Treasury says, “[Y]ou got to
                          take the money.” And then they turn around and
                          they somehow get sued for some of the
                          circumstances surrounding the TARP money they
                          got. But we never brought a TARP case.

                                                   93 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                     Q: 	     The Bank of America case did not raise those
                              issues?
                                                            DP, WP, PII
                     A:       Did not raise those issues.
                            DP, WP, PII




 Id. at p. 130.
                                                                               DP, PII, WP
              Moreover, Khuzami testified under oath that Enforcement
DP, PII, WP

 Thus, the assertion that the SEC cannot investigate either Federal Reserve or Treasury
 officials is contrary to Khuzami’s sworn testimony that such conduct was investigated in
 connection with the BofA/Merrill merger, and the OIG has seen no evidence to suggest
 that the SEC cannot, in fact, conduct such investigations. Overall, this office has found
 no evidence of conflicts of interest here, and has found no substantiation of the assertion
 that Enforcement would be unable to investigate either Treasury or Federal Reserve
 officials where warranted.

              B.	    Enforcement Developed a TARP Policy to Provide Guidance on
                     Seeking Civil Penalties from TARP Recipients, Including BofA

         In anticipation of BofA and future actions where civil penalties will be sought
 against TARP recipients, Enforcement developed a policy designed specifically to
 provide settlement guidance for such situations. On July 29, 2009, the day before the
 Commission meeting that approved Enforcement’s first proposed settlement with BofA,
 Enforcement circulated to the Commission an Information Memorandum titled
 Considerations When Imposing Monetary Relief on TARP Recipients (“TARP Policy
 Memorandum”). Exhibit 66. Developed by Khuzami, then-Chief Counsel Joan
 McKown and other members of Enforcement’s Office of Chief Counsel, with guidance
 from the SEC’s Office of General Counsel, the TARP Policy Memorandum’s stated
 purpose was to describe “the Enforcement Division’s policy guidance concerning
 settlement recommendations that involve the imposition of monetary relief against an
 entity that has received, or soon will receive, emergency financial assistance, in the form
 of funds under the Troubled Asset Relief Program, as currently structured.” Id. at p. 1.

           As stated above, Enforcement’s TARP policy was developed in anticipation of the
 BofA matter, and others like it, where TARP recipients would be subject to civil
 monetary penalties. In a July 27, 2009 e-mail to the Office of General Counsel and
 others (including Khuzami) attaching a draft of the TARP Policy Memorandum,
ENF Atty 4
                          from Enforcement’s Office of Chief Counsel explained t

 purpose of the TARP Policy Memorandum was to: 


                     [Lay] out the Division’s policy on whether and when to
                     consider an entity’s receipt of TARP funds when
                     recommending monetary sanctions against them. We’d
                                                    94 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                 like to send a memo up to the Commission in advance of
                 the Commission’s consideration on Thursday of Bank of
                 America’s settlement offer (that action memo includes a
                 brief analysis of the penalty in light of the bank’s receipt of
                 TARP funds).

July 28, 2009 e-mail from Khuzami to Mark Cahn (Office of General Counsel) and
others (e-mail chain contains July 27, 2009 e-mail from ENF Atty 4 to the Office of General
counsel quoted above), attached hereto as Exhibit 67, at p. 1.

       According to the TARP Policy Memorandum, Enforcement has taken the
following view of TARP recipients:
               LEP, WP, DP, AC




Exhibit 66 at p. 2 (emphasis added). In explaining her understanding of the SEC’s new
TARP policy, ENF Atty 4 similarly testified:

                 Q:          And then you say, “Please insure the TARP analysis
                             is in line with the Enforcement spending
                             recommendations to the Commission on that issue.”
                             What was that concern there?

                 A:          Enforcement was trying to draft an information
                             memo to the Commission about how they would
                             treat recipients of TARP money, and I think that the
                             ultimate analysis in that information memo that
                             went up to the Commission was that TARP
                             recipients wouldn’t get any additional
                             consideration just by virtue of having received
                             TARP funds. In fact, they should be treated in
                             all fairness like every other issuer who may have

                                                   95 

  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

                                    violated the law, regardless of the received
                                    TARP funds.
  ENF Atty 4
         Testimony Tr. at p. 33 (emphasis added). ENF Supv 2
                  provided a similar account of what she believed to be the nature of
  Enforcement’s new TARP policy:

                       Q: 	         What was the nature of [the TARP] policy?

                       A: 	         We evaluated whether or not – what, if any, effect
                                    the receipt of TARP funds should have on the
                                    Commission’s view of whether or not to accept
                                    money settlement from a TARP recipient.

                       Q: 	         And what did you determine, did it have any effect?

                       A: 	         Ultimately, we determined that the pure receipt of
                                    TARP funds should not be a determining factor.
                                    However, there were some circumstances where
                                    that may be an indicator that they were in dire
                                    financial straits. And if that’s the case, then we
                                    should treat them as we do any other settling
                                    party that is in dire financial straits.

                       Q: 	         Okay, so you determined it was only relevant to the
                                    extent that it may have indicated dire financial
                                    straits. But otherwise, the fact that they were a
                                    recipient of TARP funds shouldn’t make a
                                    difference?

                       A: 	         I don’t know if I would go so far as to say it is only
                                    relevant because we were concerned about the
                                    effect on where taxpayers are putting their money.
                                    But ultimately we determined that for the
                                    Commission, the factors that should be considered
                                    are the traditional factors of whether or not the party
                                    has sufficient funds to enter into the settlement.
ENF Supv 2
               Testimony Tr. at pgs. 17-18 (emphasis added).

          In support of its position that TARP recipients are to be treated like every other
  subject of Enforcement actions, the TARP Policy Memorandum made the following
  additional point about Congressional intent:
                  DP, WP, AC, LEP




                                                          96 

   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
   disclosure to third parties. No redaction has been performed by the Office of Inspector General.
   Recipients of this report should not disseminate or copy it without the Inspector General’s approval.
                      DP, WP, AC, LEP




   Exhibit 66 at p. 2. Overall, the OIG has found that, in anticipation of bringing actions
   against actual and potential TARP recipients (including, but not limited to, BofA),
   Enforcement conferred internally and with the Office of General Counsel to develop a
   TARP policy for future guidance in this area. Considering factors ranging from standard
   Enforcement policy to perceived Congressional intent, the TARP policy now adopted by
   the SEC is clear in its pronouncement that TARP recipients are to be treated like any
   other subject of an enforcement action, and that financial viability, not TARP status, is to
   be the controlling factor:
LEP, DP, WP, AC, LE




           In summary, the OIG has found that Enforcement considered the issue of whether
   TARP recipients should be treated differently than any other proposed defendant or
   respondent in enforcement actions where a civil penalty is sought, and determined that
   financial viability, not TARP status, should be the controlling factor. Enforcement’s
   recently-enacted TARP policy also provides guidance on how much weight should be
   given to an entity’s TARP status when determining an appropriate civil penalty –
   concluding that TARP status should be only one of many factors to consider in
   Enforcement’s civil penalty analysis. Enforcement also considered Congressional intent
                                                      97 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

when formulating the policy, and was unaware of any evidence that Congress intended
for TARP recipients be spared the same treatment that non-TARP recipients receive for
misconduct against injured shareholders.

        Finally, the OIG has found that although Enforcement has established an official
policy that TARP status is not, without more, determinative of whether an entity should
be assessed a civil penalty and, if so, for what amount; there is evidence that BofA’s
status as a TARP recipient was a substantial factor in the first proposed settlement
recommendation to the Commission on July 30, 2009. As this report discussed in Section
III.G.1. above, Corporation Finance’s decision not to oppose BofA’s request for a WKSI
waiver was, at least in part, based on BofA’s status as a TARP recipient. There was,
furthermore, a certain degree of deference given to BofA due to: (1) the perilous
economic situation the nation was facing at the time; and (2) a desire by Corporation
Finance not to interfere with BofA’s access to the market and ability to compete with
other financial institutions. This is significant because BofA did not meet the criteria
traditionally applied by Corporation Finance when determining, under its Commission-
delegated authority, whether to grant a WKSI waiver to an applicant. Because the first
settlement under which the WKSI waiver was proposed was rejected by the Court, the
WKSI waiver was never actually issued; however, the OIG nonetheless has found that the
favorable consideration BofA received likely would not have occurred but for the
company’s unique status as a TARP recipient and the nation’s uncertain economic future.

                               Conclusion and Recommendations

         As stated earlier in this report, the Commission’s Canon of Ethics obligates
Enforcement staff to continuously and diligently investigate instances of securities fraud.
It is imperative that Enforcement staff vigorously enforce compliance with the law, and
that it does so impartially and free from influence by a person’s rank, position, prestige or
other impermissible factor. The OIG has not found evidence that SEC staff violated the
Commission’s Canon of Ethics or acted in an improper fashion in connection with the
two proposed settlements with BofA on August 3, 2009 and February 4, 2010,
respectively. Furthermore, the OIG has not found evidence of conflicts of interest with
respect to the concerns that formed the basis of the August 6, 2009 Congressional letter to
the OIG and SIGTARP requesting this investigation. Additionally, the OIG has found
that, when deciding whether to impose a civil penalty against TARP recipients,
Enforcement has established a policy whereby the TARP status of a proposed defendant
or respondent will be but one of many factors to be considered. As with non-TARP
recipients, Enforcement will consider a company’s financial viability most important.

        The OIG also has found that BofA’s status as a TARP recipient did impact the
company’s treatment during SEC staff’s first settlement recommendation to the
Commission. Specifically, because of the nation’s perilous economic situation at the
time and the desire by certain SEC staff not to interfere with BofA’s ability to compete
with other financial institutions, BofA was initially recommended for a waiver that it
likely would not have been granted under ordinary circumstances. Although the waiver
was never issued, there was an appearance of favorable consideration in the departure
                                                   98 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.

from traditionally applied criteria, and an absence of clear, consistent procedures for
waiver consideration by the Commission. Finally, the OIG has found that there were
instances during the BofA investigation where different law enforcement agencies,
including the SEC, did not cooperate at the most effective level, resulting in lost time and
unnecessary duplication of effort. In light of the foregoing, the OIG recommends that the
Division of Corporation Finance:

        (1) Create clear criteria for making waiver determinations;

        (2) Disseminate the guidance both internally and externally; and

        (3) In cases where the waiver decision departs from the stated criteria, articulate
            in a written decision or order the rationale for its departure.

The OIG recommends also that the Division of Enforcement:

        (4) Continue the efforts undertaken by NYRO’s Regional Director to increase
            cooperation and coordination among law enforcement agencies;

        (5) As part of these efforts, review the level of coordination and cooperation on
            current investigations and assess where improved coordination would
            conserve government resources;

        (6) An the early planning stages of investigations, assess whether other law
            enforcement agencies are already participating in or should be made aware of
            the subject investigation; and

        (7) Encourage staff, where appropriate, to establish and maintain effective
            communication with those who are assisting in investigations and to inform
            supervisory personnel when they are not receiving cooperation.




                                                   99 

       OIG Staff 2




OIG Staff 1




  OIG Staff 3




                     PII
